<html>
<title> - BREAKING THE CYCLE OF NORTH KOREAN PROVOCATIONS</title>
<body><pre>[Senate Hearing 112-88]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-88
 
            BREAKING THE CYCLE OF NORTH KOREAN PROVOCATIONS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
68-240                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Bosworth, Hon. Stephen W., Special Representative for North Korea 
  Policy, U.S. Department of State, Washington, DC...............    13
    Prepared statement...........................................    14
    Responses to questions submitted by Senator John F. Kerry....    67
Campbell, Hon. Kurt, Assistant Secretary of State for East Asian 
  and Pacific Affairs, U.S. Department of State, Washington, DC..     7
    Prepared statement...........................................     9
    Responses to questions submitted by Senator John F. Kerry....    70
Carlin, Robert, Center for International Security and 
  Cooperation, Stanford University, Stanford, CA.................    32
    Prepared statement...........................................    34
    Responses to questions submitted by Senator John F. Kerry....    76
Flake, L. Gordon, executive director, the Mansfield Foundation, 
  Washington, DC.................................................    37
    Prepared statement...........................................    41
    Responses to questions submitted by Senator John F. Kerry....    75
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Noland, Dr. Marcus, deputy director, Peterson Institute for 
  International Economics, Washington, DC........................    48
    Prepared statement...........................................    50
    Responses to questions submitted by Senator John F. Kerry....    71

              Additional Material Submitted for the Record

Lee, Michael S., U.S. Senator from Utah, prepared statement......    64
Letter and N.Y. Op-ed submitted by Ambassador Charles ``Jack'' 
  Pritchard......................................................    64
Responses of Special Representative Stephen Bosworth and 
  Assistant Secretary Kurt Campbell to questions submitted by 
  Senator Mike Lee...............................................    79

                                 (iii)

  


                      BREAKING THE CYCLE OF NORTH
                          KOREAN PROVOCATIONS

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Lugar, Risch, and Rubio.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good morning. The hearing will come to order.
    I appreciate everybody's patience. I'm sorry to be a couple 
of minutes late. I appreciate everybody coming, particularly 
our distinguished witnesses, both of whom could not be more 
expert, or immersed in and thoughtful about, the subject of 
North Korea and that part of the world.
    I would like to say just a couple quick words, if I can, 
about events that have been moving at an extraordinary pace in 
the Middle East during the time that we've been out of session, 
over the course of the last week or so. Obviously, these 
demonstrations--these efforts by people to express their will 
and to find freedom and the capacity to break out of years and 
years of repression and humiliation--have really changed the 
world already, no matter what the outcome in each of the 
individual countries is.
    While momentous special events, we've certainly been seeing 
our own expressions of anger and frustration, whether it's in 
Wisconsin or in other parts of the country; very different, 
but, in some ways, their own expression of a frustration with 
governance, or the absence thereof.
    The lesson, however, from the Middle East and the Arab 
world, is one that I think many of us have anticipated for some 
period of time, without knowledge of specifically when it might 
erupt. I had the privilege of speaking at the Islamic 
Conference in Doha, a year ago, and talked about this question 
of combined frustration and anger and humiliation that was felt 
by many people in the streets of Arab countries. Across North 
Africa and the Middle East, we've now seen people rising up, in 
a remarkably peaceful way, in pursuit of fundamental human 
rights and democracy, the freedom to express themselves, and to 
have a role in choosing the policies that will impact their 
lives.
    We've seen the power of ordinary people to cast off the 
restraints of autocracies. We've also seen how one individual, 
used to exercising absolute power, has the ability to delude 
himself and separate himself from the real interests of his 
people. And we have seen, in the case of Muammar Gaddafi, a so-
called leader who has proven himself to be extraordinarily out 
of touch with reality and so arrogant in his divorce from 
reality that he's willing to turn weapons on his own people, 
not to uphold some larger principle, but simply to reinforce 
his own personal position and his own personal interests and 
those of his family.
    Colonel Gaddafi has proven himself to be a brutal human 
being. The United States and its allies, I think, have an 
enormous responsibility--I think every freedom-loving person on 
the planet has a responsibility--to side with those who seek to 
express themselves and to find a different form of government. 
We have a responsibility to help the Libyan people end four 
decades of Gaddafi's repressive and, at best, quixotic, 
extraordinarily mercurial tenure as a so-called leader.
    Events that are sweeping the Arab world have powerful 
implications for America's foreign policy. And one of the 
things I think we need to make certain is--I'm glad the ships 
have been deployed, I'm glad that the allies are speaking with 
one voice, but I don't think we should hesitate to make it 
clear that if a leader thinks he's simply going to turn 
mercenaries and powerful secret police on his own people and 
slaughter them, we have an obligation, as we have in other 
parts of the world, sometimes met and sometimes not met--I talk 
of a Bosnia versus a Rwanda--we have an obligation to make 
ourselves available to make a difference. Whether it's a no-fly 
zone or some other kind of effort--I think that can tip the 
balance. And I think that is a critical message, as well as a 
measure to take, by the United States.
    Now, we're here this morning to discuss another part of the 
world, half a world away from the Middle East, on the Korean 
Peninsula, where there are also the same kinds of repressive 
challenges, but even more so because of the threat of nuclear 
weapons. So, even as we grapple with the crisis of the moment--
and there seem to be more and more of them, more frequently--
even as we do that, we have an obligation to find the time to 
deal with other pressing concerns. I don't think there can be 
any such thing as a back burner, where nuclear weapons and the 
challenges of a North Korea are concerned.
    We need to find a way to break North Korea's cycle--and it 
is a cycle--of provocation and nuclear expansion, in which they 
kind of flex their muscles, then move back; they challenge us, 
we get slightly engaged, something happens, and we go back 
through the cycle again. That's the way it's been, even as they 
continue to expand their weaponry and continue to threaten us 
in other ways by proliferating that weaponry elsewhere in the 
world.
    So, working in concert with South Korea and with Japan, it 
is a major challenge of the civilized world to persuade North 
Korea to abandon its reckless behavior and legitimately meet 
the needs of its people.
    We're going to hear first from Assistant Secretary of State 
for East Asian and Pacific Affairs Kurt Campbell. He was 
leading a delegation to Christchurch just last week, when the 
earthquake struck. And I want to take this opportunity, as I 
know Senator Lugar joins me, in expressing our deepest 
condolences to all of the folks in New Zealand, and express our 
best wishes for a speedy recovery. I know this is an enormous 
challenge. Secretary Campbell was just telling us that it may 
take as much as 7 percent of their GDP to respond to it. It's 
an enormous challenge. And we stand with our friends in New 
Zealand.
    Testifying alongside Assistant Secretary Campbell is 
Ambassador Stephen Bosworth, the administration's special 
representative for North Korea policy. He's a friend, a 
constituent of mine, and dean of the Fletcher School of Tufts 
University.
    And we're delighted to see both of you here today.
    Last year was the most dangerous in recent memory on the 
Korean Peninsula, certainly the most dangerous since the end of 
the Korean war, in 1953. I think we have to do everything 
within our power to avoid further deterioration and put the 
Peninsula back on the path to peace and stability. North Korea 
is making that a hard objective. It's expanded its nuclear and 
ballistic missile programs in defiance of the U.N. Security 
Council. It has engaged in reckless attacks on U.S. friend and 
treaty ally, South Korea. And we must not forget that 46 South 
Korean seamen died when North Korea sank the Cheonan, a year 
ago; and 4 people were killed later, in the shelling of 
Yeonpyeong Island.
    The U.S. response has been measured, but firm. We've 
strengthened sanctions and intensified coordination with our 
key allies, South Korea and Japan. We've also stepped up 
efforts to convince China to help bring the North back to the 
negotiating table. So far, international initiatives have not 
stabilized the situation, much less brought about a change of 
course in North Korea.
    As Asia expert Dr. Victor Cha so aptly put it, ``North 
Korea is the land of lousy options.'' But, lousy options don't 
allow us to opt out. Instead, they increase our responsibility 
to choose policies that will advance our vital national 
security interests and those of our allies.
    And that brings us to today's quandary, and that's the 
purpose of this hearing. It's been more than 2 years since the 
last round of the six-party talks on eliminating nuclear 
weapons on the Korean Peninsula. It's no coincidence that this 
long silence has been marked by North Korea's dangerous and 
destabilizing conduct. So, we've all grown weary, if you will, 
of North Korea's brinkmanship, this habit of ratcheting up the 
tensions, followed by suggestions of ways to negotiate back 
from the brink, followed by a few concessions, and then a 
repetition of the process. I think we need to break this cycle. 
And we look forward to discussing with our witnesses today: Is 
that possible? Can one do that? And how do we do it?
    The risks of maintaining the status quo, in my judgment, 
are grave. North Korea is simply going to build more nuclear 
weapons and missiles. It may well export nuclear technology and 
fissile material. And the next violation of the armistice could 
easily escalate into wider hostilities that threaten U.S. 
allies and interests. So, given these very real risks, the best 
option is to consult closely with South Korea and launch 
bilateral talks with North Korea when we decide the time is 
appropriate.
    Let me make this clear. Fruitful talks between the United 
States and North Korea could lay the groundwork for the 
resumption of six-party talks. Right now, we cannot afford to 
cede the initiative to North Korea and China, because neither 
country's interests actually fully coincide with ours.
    So, let me be clear. We have to get beyond the political 
talking point that engaging North Korea is somehow ``rewarding 
bad behavior.'' After all these years, that seems to be an 
extraordinary canard. It is not rewarding bad behavior. We set 
the time. We set the place. We can negotiate in good faith. We 
determine what we're negotiating for. And we never have to say 
yes to anything that we don't want to. But, if you don't engage 
in that effort, you have no chance of changing the current 
dynamic; you actually invite greater instability and greater 
potential for confrontation.
    I believe it's possible to have talks that are based on our 
national security interests and those of our allies. That's 
what talking is about. That's what negotiating is about. Nobody 
forces us to say yes. But, in the absence of that, we don't 
have a chance of even finding out what it's all about. We don't 
know what renewed diplomatic engagement can accomplish. We do 
know this: Our silence invites a dangerous situation to get 
even more dangerous.
    So, finally, I just want to say a quick word about our 
compelling humanitarian concerns in North Korea. I'm glad that 
Ambassador Bob King, our special envoy for North Korean human 
rights issues, could be in the hearing room this morning. Our 
country has long and wisely separated humanitarian concerns 
from politics. Consistent with that tradition, we should 
consider additional food aid to the North. But, that aid needs 
to be based on a demonstrated need and our ability to verify 
that food will actually reach the intended recipients. In fact, 
a broader humanitarian engagement might hold the most long-term 
promise of unlocking the other puzzles, the nuclear puzzle, 
enhancing regional peace and security.
    And one final comment. When President Hu was here, we 
discussed this issue and urged him--in fact, asked him the 
question--why it was not possible for China to take a stronger 
position to be more engaged in this. And I got a striking 
answer back that I think they are also finding their patience 
tried, and are prepared, in fact, to be more engaged, and 
recognize their own interests, similar to ours, are also at 
stake. And I think that will be one of the keys to being able 
to move forward more effectively.
    Our first panel is going to be followed by three experts 
from the private sector: Bob Carlin, a veteran career-watcher 
with the Center for International Security and Cooperation at 
Stanford University; Marcus Noland, an economist with the 
Petersen Institute for International Economics; and Gordon 
Flake, Northeast Asia expert and executive director of the 
Mansfield Foundation.
    So, again, thank you, both panels, for being here.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I know I express the appreciation of all of your colleagues 
on this committee for your work during the recess, in Pakistan. 
We appreciate your stamina and your good counsel there.
    Mr. Chairman, we are grateful for the safe return from New 
Zealand of Assistant Secretary Campbell, Senator and Mrs. Bayh, 
and others who were in that country at the time of the recent 
earthquake. Our thoughts and prayers go out to the injured and 
the families and friends of those who died in this tragic 
event.
    I also want to greet, especially, Ambassador Steve 
Bosworth. And, as a point of personal privilege, I simply want 
to recall that we were together 25 years ago, at a time in 
which President Reagan and Secretary George Shultz, very 
concerned about the Philippines and the transition there, and 
the hopes for democracy, asked a delegation, that was headed by 
the late Jack Murtha and myself, and included you, Mr. 
Chairman, Senator Cochran of Mississippi, and other business 
and religious leaders, 26 of us, who fanned out across the 
islands, under the tutelage and counsel of a very distinguished 
veteran Ambassador. It was a turning point, in my judgment, for 
democracy in Asia, and certainly, perhaps, for the world. It 
stimulated a great deal of interest in our own hemisphere as to 
what occurred in that momentous time in the Philippines.
    So, we welcome you, again, 25 years later, sir. And you're 
still at it.
    Today's hearing will consider ways of dealing with North 
Korean provocations that have heightened tensions in Northeast 
Asia. The sinking of a South Korean ship in March 2010, the 
shelling of South Koreans last November, and the possibility of 
another nuclear test, illustrate the cycle of North Korean 
provocations.
    In the broader context, today's hearing also provides an 
opportunity to examine the Obama administration's plan for 
addressing North Korea's weapons of mass destruction.
    In testimony before the Foreign Relations Committee in 
2009, Ambassador Bosworth stated, ``If North Korea does not 
heed the unanimous call of the international community and 
return to negotiations to achieve the irreversible 
dismantlement of their nuclear and ballistic missile capacity, 
the United States and our allies in the region will need to 
take the necessary steps to assure our security in the face of 
this growing threat.''
    While the administration has worked closely with South 
Korea in response to various North Korean provocations during 
the last 2 years, it is less clear that the administration has 
developed a strategy with the potential to dismantle North 
Korea's nuclear weapons program. It is also unclear whether 
addressing the security threat from North Korea is sufficiently 
prioritized in our relationship with China. I look forward to 
the insights of our panels on these questions.
    Beyond the disposition of North Korea's nuclear weapons 
program, the United States and our allies must be devoting 
great effort to preventing proliferation from North Korea. The 
North Koreans utilize a network of trading companies to secure 
components for the North Korean military complex. This web 
includes as many as 250 trading companies extending to dozens 
of countries. These same companies reportedly have been used to 
transfer North Korean nuclear technology to other countries. 
The risk that sensitive nuclear technology, weapons components, 
or even weapons themselves, might be transferred out of North 
Korea for geopolitical objectives or personal profit is an 
equal, if not greater, threat than North Korea's missile 
capability.
    Instability within the North Korean leadership associated 
with a transfer of power heightens these concerns, both because 
of what the regime might do in a time of upheaval, and because 
individuals facing a purge that could result in loss of 
personal income may be willing to take greater risks for 
profit.
    The United States and the global community pursue an array 
of options, hoping to bring about change within North Korea and 
convince the North Korean Government to eliminate its weapons 
of mass destruction. Among those measures are economic 
sanctions. Last year, I requested that the Congressional 
Research Service assess the status and effectiveness of 
economic sanctions targeting North Korea, specifically in 
reference to U.N. Security Council Resolution 1874.
    CRS analysts determined that ``Implementation has been 
uneven globally and in cases has diminished over time. An 
important challenge has been encouraging nations with 
substantial trade links to North Korea--particularly China, but 
also a range of nations that serve as transshipment points for 
North Korean goods, or that have financial institutions that 
deal with North Korean entities, to implement U.N. sanctions.'' 
I invite any of our witnesses to comment on the sanctions 
situation and provide insight on ways of enhancing sanctions 
implementation. Mr. Chairman, I will submit the CRS report in 
its entirety for inclusion in the record of today's hearing.
    I am pleased that Ambassador Robert King, the United States 
Envoy for North Korea Human Rights issues, is in the audience 
today, as you have mentioned, Mr. Chairman.
    I would ask Assistant Secretary Campbell or Ambassador 
Bosworth to elaborate on Ambassador King's work and how it 
conforms to the organizational matrix of the administration's 
North Korea team.
    Another point of ongoing interest for me is the POW/MIA 
issue related to the Korean war. More than 8,000 Americans are 
listed as missing. Until May 2005, the United States and North 
Korea cooperated on a recovery program of the remains of United 
States servicemen. More recently, the United States and China 
signed a memorandum of understanding so that the United States 
could receive information on Americans held in China during the 
Korean war. I am hopeful that the Obama administration will 
forcefully raise the issue of POWs and MIAs in future 
communications with North Korea.
    The witnesses on our second panel possess remarkable 
experience and understanding with regard to North Korea. Few 
Americans have spent as much time on the ground in North Korea 
as Mr. Carlin. Dr. Noland continues to provide helpful analysis 
on trends in North Korea's economy and food supply. Mr. Flake 
has unique perspective on the regional dynamics and 
implications of events within North Korea. I look forward to 
their collective assessment of the present situation and 
recommendations on how we should move forward.
    I thank the Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    And, without objection, your report will be placed in the 
record.

  [Editor's note.--The CSR report referred to was too 
voluminous to include in the printed hearing but will be 
maintained in the permanent record of the committee.]

    The Chairman. Secretary Campbell, we've got two panels, so 
we want to try to keep matters moving, but thank you again for 
being here, both of you. We'll go with Secretary Campbell 
first, and then Ambassador Bosworth.

 STATEMENT OF HON. KURT CAMPBELL, ASSISTANT SECRETARY OF STATE 
 FOR EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Dr. Campbell. Thank you very much, Mr. Chairman and Senator 
Lugar. It's an honor to be before you today. I want to 
associate myself with each of your statements and thank you for 
holding this hearing today.
    As you mentioned, Senator Kerry, although the United States 
is decisively engaged in critical historic developments in the 
Middle East, it's extraordinarily important for every element 
of the U.S. Government to send a message to the world that we 
recognize that we have global interests and that there are 
critical issues that are playing out in Asia. And the United 
States remains consequentially involved in these developments. 
If you look at the 21st century, this will be a region and an 
era of remarkable opportunity for the United States in Asia. 
And we must keep our focus in Asia as we go forward, even with 
dramatic developments playing out in the Middle East.
    I want to also say how grateful I am to be here with my 
friend and colleague Steve Bosworth and Bob King. Unlike 
occasionally in previous administrations, I think we have tried 
to approach extraordinarily challenging issues with a very high 
degree of confidence and collegiality, and I think you will 
hear that in our testimony today.
    I would ask that my full statement be submitted for the 
record. And I would just very quickly make some opening 
comments to give you both, and others, the opportunity to ask 
questions and to perhaps go into details as we go forward.
    Let me just also thank both of you for your opening 
comments about New Zealand. As you indicated, I was with a team 
of Americans, both on the private side and also government 
officials, in Christchurch during the devastating earthquake, 
which has destroyed a large part of this lovely historic city. 
I have to say, during this tragedy we were able to witness 
firsthand the remarkable fortitude and courage, and indeed 
humanity, of the people of New Zealand. And I just want to 
commit to you both that the U.S. Government will do everything 
possible to support New Zealand, a country which we are again 
developing a very strong relationship, in making their way 
through an enormous challenge, probably the biggest crisis ever 
to hit New Zealand, in their history.
    My primary job today, Senators, is to put the North Korean 
situation in a larger regional context and give you a sense of 
how we approach our overall strategy in the Asian-Pacific 
region. I'll just skim through some of the key elements and 
principles as we go forward.
    I have to just underscore that one of the great benefits of 
our Asia policy is that we are able to build on a remarkably 
strong bipartisan consensus about what it takes to be 
successful in the Asian-Pacific region. I think the Obama 
administration has recognized that and has sought to build on a 
succession of successful elements in our overall approach to 
the Asian-Pacific region.
    At the top of that list is continuing to build and maintain 
very strong bilateral security ties and treaty alliances; and 
that's with Japan, South Korea, Australia, our friends in 
Thailand and the Philippines. Currently, I think it would be 
fair to state that we are enjoying the strongest bilateral 
relationship that we've ever enjoyed with South Korea. I think 
our ties are remarkable and that the very strong relationship, 
both between our two leaders and in our bureaucracies and 
between our peoples, have allowed us to deal with the 
extraordinary provocations that you have, I think, rightfully 
underscored, Senators, when it comes to North Korea.
    In addition to these security and political ties, we've 
also sought to strengthen our overall engagement in Southeast 
Asia and ASEAN. Clearly that will be a region of growing 
importance to the United States in the period ahead. We have 
sought to pursue a consistent and principled engagement with 
China. At the core of that set of discussions has indeed been 
North Korea. There are some areas of consensus, and we have had 
areas of disagreement. We have sought to make a very strong 
case to China that they need to play a more active role in 
diplomacy with North Korea, along the lines that you have 
described.
    We are also committed to playing a larger role in the 
international institutions that are growing in Asia, including 
the East Asia summit. President Obama will attend the first 
East Asia summit as a--first East Asia summit of an American 
leader--later this year, in Bali, in Indonesia.
    We're also committed to maintaining a strong and robust 
military presence in the Asian-Pacific region, that we provide 
security and stability for a region that is the engine room of 
the global economy. And that role continues to be essential. 
And then, frankly, the Asian-Pacific region continues to look 
at the United States as a key player in the economy and the 
macroeconomic issues in the Asian-Pacific region.
    We are committed to engaging openly and consistently in the 
trade agenda of Asia. I think, as you know, we will be 
submitted, shortly, the Korea Free Trade Agreement for 
consideration to the U.S. Congress. And obviously, we are 
involved in very consequential diplomacy associated with the 
TPP, which will be, if successful, one of the most important 
trade agreements in Asia in many years.
    These form the overall basis of our approach to Asia.
    And I must say that, despite the tremendous opportunities 
that we see in Asia, that have become part of our popular 
discourse, one country, indeed, stands out as an outlier--and, 
in fact, an impediment--to the region's promising future: the 
DPRK, North Korea. And the DPRK's brazen attack on the South 
Korean corvette Cheonan, which you have both referred to, in 
March of last year, its recent disclosure of a uranium 
enrichment program, its shelling of Yeonpyeong Island, with 
civilians stationed there, that resulted in a large loss of 
South Korean life, coupled with the Cheonan sinking and its 
ongoing human rights violations, underscore the threat that 
North Korea's policies and provocations, including its nuclear 
and ballistic missile programs and proliferation activities, 
pose to regional stability and, indeed, global security.
    We are committed to addressing these issues through an 
active and determined diplomacy, using all elements of our 
policy at our disposal, with all the parties involved.
    You stated at the outset, Senator Kerry, that our goal must 
be to break the cycle. And that is, indeed, what the United 
States is determined to do.
    I look forward to exploring the various elements that each 
of you have laid out in your opening statements in the 
discussion subsequently.
    Thank you both very much.
    [The prepared statement of Dr. Campbell follows:]

               Prepared Statement of Dr. Kurt M. Campbell

    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for inviting me to testify today on North Korea, one of our most 
enduring foreign policy challenges. I would also like to personally 
thank this committee for its leadership in advancing discussion and 
opportunities for American engagement in the Asia-Pacific region. 
Today, I would like to use this occasion to focus on the 
administration's North Korea policy through a broader regional context.

                              INTRODUCTION

    The primary strategic objective for U.S. engagement in the Asia-
Pacific region is to promote a peaceful and stable security environment 
that advances the interests of the United States, our allies, and 
partners in the region. Essential to this approach is the security and 
stability that our alliances with Japan, the Republic of Korea (ROK), 
Australia, Thailand, and the Philippines provide. These relationships 
underwrite peace and security in the region and provide a context for 
the region's tremendous economic dynamism and vitality. In addition, 
our alliances are buttressed by a network of partnerships ranging from 
Indonesia to New Zealand and an evolving regional political and 
security architecture that will help create rules of the road for this 
rapidly evolving and strategically critical region. China is also a key 
U.S. partner in promoting peace and security in the Asia-Pacific region 
and globally, and the joint statement issued during President Hu's 
January 2011 to Washington underscored that ``in coordination with 
other parties, the United States and China will endeavor to increase 
cooperation to address common concerns and promote shared interests.''
    Despite the tremendous opportunities in Asia that have become part 
of our popular discourse, one country stands out as an outlier, and in 
fact an impediment, to the region's promising future: the Democratic 
People's Republic of Korea's (DPRK). The DPRK's brazen attack on the 
ROK corvette Cheonan in March of last year, its recent disclosure of a 
uranium enrichment program, its shelling of Yeonpyong Island that 
resulted in the tragic loss of South Korean lives, and its ongoing 
human rights violations underscore the threat that the DPRK's policies 
and provocations, including its nuclear and ballistic missile programs 
and proliferation activities, pose to regional stability and global 
security.
    The verifiable denuclearization of the Korean Peninsula, which is 
the core objective of the 2005 joint statement of the six-party talks, 
is an essential ingredient to the Asia-Pacific region's long-term 
success and to our own security. Progress toward this goal requires 
close coordination between the ROK, Japan, and the United States, as 
well as with China and Russia. Our Northeast Asian alliances play an 
essential role in maintaining regional security, deterring North Korean 
provocations, providing a reliable and robust strategic deterrent 
posture, and bringing maximum leverage to bear on the DPRK to change 
its current course and become a member of the community of nations. To 
this end, we have actively engaged our regional partners to ensure 
robust implementation of U.N. Security Council Resolutions (UNSCR) 1718 
and 1874 on North Korea, and though there is still work to be done, 
strong regional cooperation, particularly with Japan and South Korea, 
has made it more difficult for North Korea to successfully engage in 
proliferation and other illicit activities. We will continue to take 
steps to enhance and broaden our bilateral political, economic, and 
security relations, as well as make progress on key alliance 
modernization initiatives. We will also work to develop a more 
integrated trilateral framework for cooperation and coordination 
between Seoul, Tokyo, and Washington. Furthermore, we are taking steps 
to enhance coordination with China and Russia--both of which have 
important relationships with North Korea--to create a more favorable 
context for denuclearization and peace and security. In addition to the 
aforementioned five key parties, we are working more closely with other 
stakeholders like the Association of Southeast Nations (ASEAN), India, 
and Australia to broaden regionwide efforts to compel North Korea to 
abide by its denuclearization commitments and obligations, as well as 
with the U.N. Security Council.

The Republic of Korea
    The United States-ROK alliance is grounded in the threat that North 
Korea poses to the ROK. However, over the course of the past few years, 
the United States has undertaken steps to expand alliance cooperation 
in both regional and global settings. In 2011, we will aggressively 
pursue initiatives to increase collaboration in the peninsular, 
regional, and global contexts.
    The ROK's security is critically affected by North Korea due to 
their complex historical relationship, geographic proximity, and the 
tangible threat that North Korea's conventional military capabilities, 
nuclear programs, and ballistic missile developments pose to South 
Korea. As President Obama stated during his November 2010 visit to 
Seoul, ``In the face of these threats, the U.S.-ROK alliance has never 
been stronger . . . The United States will never waver in our 
commitment to the security of the Republic of Korea.'' Following the 
attack on Yeonpyong Island, President Obama stated that we will stand 
``shoulder to shoulder'' with the ROK and reaffirmed our commitment to 
its defense. This commitment is being translated through efforts to 
bolster ROK defensive capabilities. For example, last November the ROK 
participated in USS George Washington carrier group exercises. We 
continue to hold regular joint military exercises to enhance extended 
deterrence, interoperability, and the readiness of alliance forces to 
respond to threats to peace.
    Over the last 60 years, our alliance with the ROK has continued to 
expand from its military roots into one of the most vibrant, full-
spectrum strategic partnerships in modern history, encompassing dynamic 
political, economic, and social cooperation. The U.S.-Korea Free Trade 
Agreement is a way not only to strengthen United States-ROK economic 
ties and increase American jobs through exports to Korea but also to 
enhance the enduring strength of this strategic relationship. 
Regionally, we are working closely with the ROK on a number of key 
issues, such as improving maritime security through the ASEAN Regional 
Forum and advancing the capacities of countries in the Lower Mekong 
region. We welcome and support the ROK Government's efforts to realize 
its ``Global Korea'' vision, expanding its global reach to be 
commensurate with its economic status. We applaud the ROK's leadership 
in addressing global concerns, such as proliferation, counterpiracy, 
and development assistance. Last year's G20 summit in Seoul and the 
upcoming Nuclear Security Summit in Seoul in 2012 are a testament to 
the ROK's global leadership.
    Close coordination and the broadening and deepening of our security 
commitments with the ROK are key guiding principles for how we approach 
North Korea. The steps that our two militaries are taking, for example, 
to enhance our joint interoperability and strategic deterrent, are 
critical to creating a security environment that deters North Korean 
provocations, increases our collective leverage on Pyongyang to change 
course, and maintains peace and stability in the broader East Asia 
environment. A United States-ROK relationship that will only grow 
stronger and continued close bilateral coordination on our strategies 
for the way forward on North Korea will reinforce our common message to 
Pyongyang--that taking irreversible steps toward denuclearization, 
abiding by the terms of the Armistice Agreement, and improving 
relations with the ROK and its other neighbors is the only way for the 
DPRK to break free from its isolation and enjoy the security, 
political, and economic benefits that come with integrating into the 
international community.
    In the short-term, the United States supports direct talks between 
the DPRK and the ROK to address the South's legitimate grievances, 
including North Korea's sinking of the Cheonan and its shelling of 
Yeonpyong Island. We believe that North-South dialogue is an important 
initial step toward the resumption of the six-party talks. North 
Korea's decision to walk out of the recent colonel-level North-South 
military-to-military talks squandered a valuable opportunity to improve 
North-South relations and demonstrate its commitment to dialogue. We 
will carefully monitor events on the Korean Peninsula for evidence of a 
North Korean commitment to improving inter-Korean relations.

Japan
    President Obama underscored the importance of the United States-
Japan alliance during his November 2010 trip to Japan: ``As allies for 
over half a century, the partnership between Japan and the United 
States has been the foundation for our security and our prosperity--not 
only for our two countries, but also for the region.'' Last year, we 
celebrated the 50th anniversary of the United States-Japan alliance. 
This year, we are working to create a roadmap for the next 50 years to 
broaden and deepen this cornerstone alliance. In this context, 
Secretaries Clinton and Gates will cohost their Japanese counterparts 
in Washington, DC, for a 2+2 Security Consultative Committee meeting. 
This meeting will focus on reaffirming the core mission of our 
alliance--the security of Japan and maintaining peace and security in 
the Asia-Pacific--as well as articulating new common strategic 
objectives and approaches that demonstrates the expanse of our 
relationship. Progress on key issues associated with modernizing our 
military relationship will continue and is essential to adapt our 
alliance to better manage the complex evolutions in the Asia-Pacific 
strategic environment, as well as promote and protect the global 
commons. We think that Japan should follow the ROK and take steps to 
accede to the Hague Convention on International Parental Child 
Abduction.
    North Korea remains Japan's most immediate national security 
concern and a key feature of our diplomatic engagement with Tokyo. 
North Korea's nuclear and ballistic missile programs and past abduction 
of Japanese citizens underscore the tangible threat the DPRK poses to 
Japan's national security. North Korea's recent provocative actions 
have reinforced Japan's concerns and led to enhanced ROK-Japan 
cooperation and closer trilateral U.S.-ROK-Japan coordination. We 
welcome the commitment of ROK and Japanese leaders to deepen the ROK-
Japan bilateral relationship. We appreciate Japan's key role in working 
to resolve the North Korea nuclear issue peacefully and its commitment 
to implementing unilateral and multilateral sanctions against the DPRK 
to curb its proliferation activities. The United States fully supports 
Japanese efforts to resolve the issue of Japanese citizens abducted by 
North Korea.

Trilateral U.S.-ROK-Japan Coordination
    In addition to strengthening U.S. alliances with the ROK and Japan, 
we will take ambitious steps to increase trilateral cooperation to 
further develop a more integrated Northeast Asia security architecture. 
Robust trilateralism is essential to deal with the DPRK's provocative 
behavior and to shape the emerging regional strategic environment. 
Trilateral engagement demonstrates to North Korea that its reckless 
actions will be met with collective resolve. The benefits of trilateral 
coordination were on full display when Secretary Clinton hosted 
Japanese Foreign Minister Maehara and ROK Foreign Minister Kim in a 
historic United States-Japan-ROK Trilateral Ministerial meeting in 
December 2010. At this meeting, the three countries jointly affirmed 
the importance of unity and ways to enhance policy coordination on 
myriad issues from ASEAN to North Korea. On North Korea, they declared 
that the DPRK's belligerent actions threaten all three countries and 
will be met with solidarity from all three countries. The United States 
reaffirmed its security alliances with both Japan and the ROK, and all 
three countries jointly condemned the DPRK's uranium enrichment 
facility as a violation of the DPRK's commitments under the September 
2005 joint statement of the six-party talks and its obligations under 
UNSCR 1718 and 1874. Institutionalization of trilateral cooperation 
will be an important focus of U.S. diplomatic efforts in the coming 
year and a point of conversation when Secretary Clinton meets with the 
ROK and Japanese Foreign Ministers in the coming year. Additionally, 
with our Japanese and South Korean allies, we are continually working 
to enhance cooperation with China and Russia on ways to deal with the 
DPRK--underscoring the strategic benefits of strong five-party unity 
and coordination in denuclearization negotiations.

China
    North Korea remains a key foreign policy issue in our bilateral 
relationship with China. We share the same goals of peace and stability 
on the Korean Peninsula, as well as North Korea's verifiable 
denuclearization in a peaceful manner. China is uniquely positioned to 
influence the DPRK because of its significant economic and humanitarian 
aid to the DPRK, its shared border with the DPRK, and historical ties. 
We have urged China to press North Korea to take appropriate steps to 
improve relations with South Korea and to denuclearize. We also 
continue to work with China to enhance effective implementation of 
sanctions under UNSCR 1718 and 1874.
    During the January 2011 China state visit, President Obama 
emphasized to President Hu that North Korea's nuclear and ballistic 
missile programs are increasingly a direct threat to the security of 
the United States and our allies. The President also expressed 
appreciation for China's role in reducing tensions on the Korean 
Peninsula but underscored the need for China to leverage its unique 
relationship with North Korea to compel Pyongyang to abide by its 
commitment to the 2005 joint statement of the six-party talks as well 
as its obligations under UNSCR 1718 and 1874. Both leaders agreed that 
the complete denuclearization of the Korean Peninsula remains our 
paramount goal and that North Korea must avoid further provocations.
    The joint statement issued during President Hu's visit also 
reflects our shared concern over the DPRK's claimed uranium enrichment 
program. The United States and China jointly ``expressed concern 
regarding the DPRK's claimed uranium enrichment program . . . opposed 
all activities inconsistent with the 2005 joint statement and relevant 
international obligations and commitments . . . and . . . called for 
the necessary steps that would allow for the early resumption of the 
six-party talks process to address this and other relevant issues.'' We 
are working closely with China and our other partners and allies at the 
U.N. to develop an appropriate U.N. response to the DPRK's uranium 
enrichment program.

Russia
    We value our continuing cooperation with Russia, another key 
partner in the six-party talks, to achieve our shared goal of 
denuclearization in North Korea. As a result of its historical 
relationship with the DPRK and its status as a Permanent Member of the 
U.N. Security Council, like China, Russia is well positioned to 
influence the DPRK through both direct bilateral diplomacy and 
multilateral efforts.
    In the wake of the DPRK's provocations over the last year, we 
welcome the constructive role that Russia has played to press Pyongyang 
to refrain from further destabilizing actions, to abide by its 
international commitments and obligations, and to take irreversible 
steps toward denuclearization. Russia has publicly stated that it backs 
U.N. Security Council discussion of the North Korean uranium enrichment 
program, and we seek further cooperation from Russia in our efforts to 
affirm unequivocally that the DPRK's uranium enrichment activities 
violate the relevant UNSCR.

Other Key Regional Players: ASEAN, India, Australia
    Due to the security threats posed by North Korea to the entire 
Asia-Pacific region, our deep diplomatic activity and coordination on 
North Korea extend beyond the five parties to other key partners in the 
region. As a fulcrum of regional multilateralism, ASEAN has been 
actively engaged on regional security issues. The ASEAN-centered East 
Asia summit presents a unique opportunity to engage with traditional 
allies and new partners on a range of areas central to U.S. interests 
in Asia, which may grow to include North Korea. We will continue to 
work closely with ASEAN to identify ways for the organization to play a 
more engaged role in denuclearization discussions.
    India and Australia also share our goal of enhancing peace and 
security in the Asia-Pacific. The United States and India have 
discussed North Korea in our Strategic Dialogue and other bilateral and 
multilateral exchanges. India's growing security and political 
relations with Japan and South Korea will also enhance prospects for 
security and stability in Northeast Asia. Australia has strongly 
supported international implementation of UNSCR 1718 and 1874, 
participated in the international investigation of the sinking Cheonan, 
and supported efforts to bring the issue before the U.N. Security 
Council.

                               CONCLUSION

    The goal of the United States and our allies and partners remains a 
stable, peaceful Korean Peninsula free of nuclear weapons. To achieve 
this goal, the United States intends to maintain strong solidarity with 
South Korea, Japan, and other states with a vested interest in the 
future of the Korean Peninsula and the stability and prosperity of 
Northeast Asia. We will continue to encourage the DPRK to engage in 
meaningful negotiations on denuclearization and to honor its 
commitments and international obligations. At the same time, we will 
work to ensure the implementation of U.S. and international sanctions 
against North Korea's nuclear, missile, and proliferation networks and 
its involvement in other illicit activities. We will also carefully 
watch internal political and economic developments in North Korea, 
particularly as they relate to succession and the promotion of heir 
apparent Kim Jong-un, the third son of Kim Jong-il.
    The Obama administration has repeatedly stressed that there remains 
a positive path open to North Korea. North Korea has the choice to take 
a path that will lead to security and economic opportunity or to 
continue in its pattern of confrontation and isolation. The United 
States remains committed to meaningful dialogue, but we will not reward 
North Korea for shattering the peace or defying the international 
community. If North Korea improves relations with South Korea and 
demonstrates a change in behavior, including taking irreversible steps 
to denuclearize, complying with international law, and ceasing 
provocative behavior, the United States will stand ready to move toward 
normalization of our relationship. However, if it maintains its path of 
defiance and provocative behavior and fails to comply with its 
obligations and commitments, it stands no chance of becoming a strong 
and prosperous nation.
    Our concerns with North Korea are not limited to the threat it 
poses to regional stability and global security. Human rights 
violations harm the North Korea people and violate international norms 
for the rule of law and respect for individual rights. Respect for 
human rights by North Korea will also be necessary for it to fully 
participate in the international community. Human rights are a top U.S. 
priority and an addressing of human rights issues by the DPRK will have 
a significant impact on the prospect for closer United States-DPRK 
ties.
    Thank you for the opportunity to appear before you today and I 
welcome any questions that you may have.

    The Chairman. Thank you, Secretary.
    Mr. Ambassador.

 STATEMENT OF HON. STEPHEN W. BOSWORTH, SPECIAL REPRESENTATIVE 
 FOR NORTH KOREA POLICY, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Bosworth. Thank you very much, Mr. Chairman, 
Senator Lugar. It's a pleasure to be here with you, both of 
you, this morning. And I look forward to a useful exchange of 
views and will try very hard to respond to all of your 
questions.
    The Chairman. Can you pull the mic a little closer, please?
    Ambassador Bosworth. Sure.
    The Chairman. Thanks.
    Ambassador Bosworth. Is that better?
    The Chairman. Yes.
    Ambassador Bosworth. Oh, yes. Sorry. [Laughter.]
    I would just, to sort of introduce this subject, supplement 
the prepared statement that has been submitted and say that the 
United States has been struggling with the issue of nuclear 
weapons in North Korea for the past 25 years. There have been 
times when we have made some progress, only, unfortunately, to 
see it largely slip away. We have been able to deal with its 
provocations, but North Korea poses an enduring challenge to 
U.S. interests in the region and the interests of all other 
countries in the region.
    They are a pole of instability in the heart of what is 
arguably the most important economic region of the world today. 
They are also, of course, a major threat to American and other 
norms regarding proliferation of nuclear weapons. So, this is a 
challenge that must be dealt with. We do not have the option, 
in my judgment, of simply biding our time and ignoring them.
    In response to the provocations which Kurt Campbell has 
described, what we have pursued is essentially a two-track 
policy. On the one hand, working very closely with our allies 
and our partners in the six-party talks, we have, through the 
United Nations and bilaterally, tightened our sanctions on 
North Korea. It is difficult to measure the exact effect of 
those sanctions, but this is something we work at every day. We 
are constantly coordinating with all of the partners in the 
North--in the six-party process to ensure that the sanctions 
achieve maximum effectiveness. And I think there is no question 
that the sanctions have made life more complicated and more 
difficult for the DPRK.
    At the same time, however, we recognize that sanctions are 
not, in and of themselves, a full policy toward this problem. 
So, we have remained, and will remain, open to constructive 
dialogue. And we view diplomacy, ultimately, as the best way of 
solving these difficulties in this challenge.
    We have been in constant coordination with our partners in 
the region, particularly with South Korea and Japan, but also 
with China and Russia. We are engaged in efforts to make sure 
that, on the one hand, the sanctions remain effective, 
tightened, and, on the other hand, to demonstrate that we are 
serious about the use of diplomacy, but serious in the sense 
that we want assurance that North Korea regards these 
prospective talks seriously. We are not interested in talking 
just for the sake of talking. We want talks which produce 
concrete results. We remain committed, as do our other partners 
in the six-party process, at least South Korea, Japan, China, 
and Russia, to full implementation of the agreed statement--the 
joint statement of September 2005, which pledged continued 
concentration on nonproliferation and other elements to bring 
about stability on the Korean Peninsula.
    On the subject of food aid, which has been raised earlier, 
we continue to pursue a longstanding U.S. policy on food aid. 
We do separate humanitarian assistance from political issues, 
but we provide food aid when we see a perceived need and in a 
situation in which we can monitor how the food aid is used, who 
are the recipients of that food aid, and does it go to the 
people for whom we intend it.
    On the subject of human rights and other humanitarian 
issues, I am very pleased to be working very closely with my 
friend and colleague, Bob King, who is part of our office. We 
talk frequently and closely coordinate on all issues. Bob has 
just returned from an extended trip to South Korea, where 
subjects, including North Korean human rights performance, food 
aid, the general situation on the Korean Peninsula, in North 
Korea, have been very prominent on his agenda. So, I think that 
this relationship gives evidence of the fact that, as we 
approach the problems of North Korea and the challenges that it 
poses, we are very concerned about human rights and we are very 
concerned about the condition of the North Korean people.
    So, I will stop there and, like my friend Kurt Campbell, 
make myself available for your questions.
    Thank you.
    [The prepared statement of Ambassador Bosworth follows:]

             Prepared Statement of Hon. Stephen W. Bosworth

    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for inviting me to testify today on Democratic People's Republic of 
Korea (DPRK). The North Korea issue is one of the most important 
foreign policy challenges of our time. North Korea's nuclear and 
ballistic missile program and proliferation activity pose an acute 
threat to a region of enormous economic vitality as well as to our 
global nonproliferation efforts and to our security interests more 
generally.
    North Korea has repeatedly reneged on its commitments under the 
September 2005 joint statement made in the context of the six-party 
talks. It has also failed to comply with a number of U.N. Security 
Council Resolution (UNSCR) obligations. At the beginning of his 
administration, President Obama expressed a willingness to engage North 
Korea. It responded by conducting missile tests, expelling IAEA 
inspectors, announcing a nuclear test, disclosing its uranium 
enrichment program, and stating that the six-party talks were ``dead.'' 
It also expelled the U.S. personnel delivering food aid to the North 
Korean people. The United States has been a leader of a unified 
international response to these North Korean provocations. The U.N. 
Security Council adopted UNSCRs 1718 and 1874, calling on North Korea 
to immediately cease its nuclear activities and provocative actions.
    North Korea's provocative actions have continued this past year, 
with its sinking of the Republic of Korea (ROK) corvette Cheonan in 
March and its artillery attack of South Korean Yeonpyong Island in 
November. The United Nations Security Council issued a strong statement 
condemning the attack which lead to the sinking of the Cheonan.
    Following the attack on Yeonpyong Island, President Obama 
reaffirmed our commitment to the defense of the ROK and emphasized that 
we will stand ``shoulder to shoulder'' with our ally. The United States 
continues to demonstrate our commitment to deter North Korean 
provocations through joint military exercises with the ROK. For 
instance, the ROK participated in the November 27-30 USS George 
Washington carrier group exercises. We also continue to strengthen our 
nonproliferation efforts with regard to North Korea, including the 
adoption of new unilateral sanctions targeting DPRK illicit activities.
    We strongly believe that North-South dialogue that takes meaningful 
steps toward reducing inter-Korean tensions and improving relations 
should precede a resumption of the six-party talks. We believe North-
South talks are an important opportunity for North Korea to demonstrate 
its sincerity and willingness to engage in dialogue. Ultimately, if 
North Korea fulfills its denuclearization commitments, the Five Parties 
are prepared to provide economic assistance and help to integrate North 
Korea into the international community.
    In November, North Korea disclosed a uranium enrichment program and 
claimed that it was building a light-water nuclear reactor. These 
activities clearly violate North Korea's commitments under the 2005 
joint statement and its obligations under UNSCRs 1718 and 1874. The 
United States is working with Japan, South Korea, and the UNSC to make 
clear that its Uranium Enrichment Program is prohibited by its 
commitments and obligations to UNSC resolutions 17818 and 1874 and the 
2005 joint statement.
    Looking into the future, we continue to firmly believe that a dual-
track approach to North Korea offers the best prospects for achieving 
denuclearization and a stable region. We are open to meaningful 
engagement but will continue to pursue the full and transparent 
implementation of sanctions. We are looking for demonstrable steps by 
North Korea that it is prepared to meet its international obligations 
and commitments to achieve the goal of the 2005 joint statement: the 
verifiable denuclearization of the Korean Peninsula in a peaceful 
manner.
    In the meantime, the United States is continuing to consult closely 
with our partners in the six-party process. President Obama and 
Secretary Clinton have been at the forefront of this effort, reaching 
out to leaders in Japan, South Korea, China, and Russia. In early 
January, I led an interagency delegation to the Republic of Korea, 
China, and Japan. In all three capitals, I met with senior government 
officials to discuss next steps on the Korean Peninsula. I was 
accompanied by special envoy for the six-party talks, Sung Kim, who 
coordinates U.S. efforts on the six-party talks and leads day-to-day 
engagement with six-party partners.
    During a mid-January visit to the United States by PRC President Hu 
Jintao, we made progress on greater cooperation with the Chinese on 
North Korea issues. In a joint statement issued during the visit, both 
sides agreed that the complete denuclearization of the Korean Peninsula 
remains our paramount goal. The United States and China also jointly 
``expressed concern regarding the DPRK's claimed uranium enrichment 
program,'' ``opposed all activities inconsistent with the 2005 joint 
statement and relevant international obligations and commitments,'' and 
``called for the necessary steps that would allow for the early 
resumption of the six-party talks process to address this and other 
relevant issues.''
    Immediately following this visit in late January, Deputy Secretary 
Steinberg led a mission to Seoul, Tokyo, and Beijing to further 
coordinate our approach to the Korean Peninsula.
    In addition, we have further solidified our alliances with the ROK 
and Japan and have improved trilateral cooperation among the three 
countries in responding to the DPRK's provocative and belligerent 
behavior. For example, at the December 6, 2010, U.S.-Japan-ROK 
Trilateral Ministerial meeting, Secretary Clinton, Japanese Foreign 
Minister Maehara, and ROK Foreign Minister Kim affirmed unity among the 
three nations and declared that the DPRK's provocative and belligerent 
behavior threatens all three countries and will be met with solidarity 
from all three countries.
    In the meantime, the United States continues to improve the 
implementation of unilateral and international sanctions on North Korea 
to constrain its nuclear and missile programs. On August 30, the 
President signed Executive Order (E.O.) 13551, giving the U.S. 
Government new authorities to target North Korea's conventional arms 
proliferation and illicit activities. The new E.O. designated one North 
Korean individual and five North Korean entities. The Departments of 
State and Treasury also recently designated five additional entities 
and three individuals under existing E.O. 13382, which targets North 
Korean WMD-related proliferation activities. We continue to urge the 
international community to implement UNSCRs 1718 and 1874 fully and 
transparently. At the same time, we have stated unequivocally that we 
will not lift sanctions on the DPRK just for their returning to talks.
    In March 2009, the DPRK terminated the U.S. food aid program, 
ordering our humanitarian personnel out of the country and requiring 
that they leave behind 20,000 metric tons of undelivered U.S. food 
items. The United States remains deeply concerned about the well-being 
of the North Korean people, particularly in light of continuing reports 
of chronic food shortages. The U.S. Government policy on humanitarian 
assistance and food aid is based on three factors: (1) level of need; 
(2) competing needs in other countries; and (3) our ability to ensure 
that aid is reliably reaching the people in need. This policy is 
consistent with our longstanding goal of providing emergency 
humanitarian assistance to the people of countries around the world 
where there are legitimate humanitarian needs. However, consistent with 
our practices worldwide, the United States will not provide food aid 
without a thorough assessment of actual needs and adequate program 
management, monitoring, and access provisions to ensure that food aid 
is not diverted or misused.
    The United States also remains deeply concerned about the human 
rights situation in North Korea. We work closely with the United 
Nations, including the Human Rights Council, other international and 
nongovernmental organizations, and other governments to try to improve 
the human rights situation in North Korea. The State Department's 2009 
Country Report on Human Rights Practices for North Korea reports that 
the DPRK Government continued to commit numerous serious abuses. 
Advancing human rights is a top U.S. priority in our North Korea 
policy. Any long-term improvement in U.S.-DPRK relations will be 
contingent, among several factors, on the DPRK making a serious effort 
to address human rights issues. Special Envoy for North Korean Human 
Rights Issues Robert King traveled to South Korea in early February to 
meet with South Korean Government officials, as well as North Korean 
defectors, civil society groups, and North Korea experts. Ambassador 
King reports from his meetings that North Korea's human rights and 
humanitarian situation continues to worsen.
    We are also working closely with the U.N. and other organizations 
to protect North Korean refugees. The United States has urged China to 
adhere to its international obligations as a party to the 1951 Refugee 
Convention and its 1967 Protocol, including by not expelling or 
refouling North Koreans protected under those treaties and undertaking 
to cooperate with UNHCR in the exercise of its functions. Although the 
vast majority of North Korean refugees choose resettlement in the ROK, 
the United States will consider resettling eligible North Korean 
refugees who express an interest in resettlement to the United States 
directly to U.S. Embassies and consulates or through the United Nations 
High Commissioner for Refugees (UNHCR). We support increasing the flow 
of balanced information into the DPRK through independent broadcasters 
based in the ROK and in collaboration with the Broadcasting Board of 
Governors and its partners Voice of America and Radio Free Asia. The 
United States considers remains recovery operations to be an important 
humanitarian mission. We remain committed to achieving the fullest 
possible accounting for U.S. POW/MIAs from the Korean war, as well as 
from other conflicts.We are also carefully watching internal 
developments in North Korea, particularly as they relate to leadership 
succession and the promotion of heir apparent, Kim Jong-un, the 
youngest son of Kim Jong-il, to key regime positions. In conclusion, we 
continue to work closely with our six-party partners in an effort to 
promote peace and stability on the Peninsula and achieve the goals of 
the 2005 six-party joint statement. We believe we can make progress in 
cooperation with our partners in Tokyo, Beijing, Moscow, and Seoul. We 
are also working with our partners and the United Nations to advance 
human rights in North Korea, protect the status of North Korean 
refugees, and monitor the need for humanitarian assistance in North 
Korea. The door is open to Pyongyang to join and benefit from such an 
effort but only if it abandons the misguided notion that violence, 
threats, and provocation are the path toward achievement of its goals.
    We face enormous challenges when dealing with North Korea. The 
denuclearization of the Korean Peninsula will not be easy to achieve, 
but we cannot abandon the goal. Through a strategy that combines 
openness to dialogue with a continuation of bilateral and multilateral 
sanctions, we believe we have an opportunity to bring about important 
improvements to the global nonproliferation regime and to regional and 
global security. We believe that our partners in the six-party process 
share this assessment and we will continue to work closely with them as 
we move forward.
    Thank you for the opportunity to appear before you today. I welcome 
any questions you may have.

    The Chairman. Thank you very much, Ambassador, and thanks 
for your continued service in this regard.
    Let me try to probe this thing a little bit, get 
underneath, if we can, what you've been talking about, in terms 
of the efforts to strengthen our initiatives.
    Mr. Secretary, some people suggest--you know they're the--
sort of these polar opposites: isolate them, don't talk to 
them, basically let the regime collapse by bringing all this 
external pressure on them, and then hopefully, there's 
something new to get engaged with; versus, you know, getting 
engaged now, going along with this cycle of concessions, which 
you can't distinguish before the talks whether it is going to 
occur or not. I mean, you just said, Mr. Ambassador, we don't 
want to talk to them for the sake of talking, but, I mean, they 
can come to us and say, ``Hey, we're really ready. Yes, we'll 
sit down. Let's go talk. We'll go through this. We're 
absolutely prepared to get good results.'' They're not going to 
serve up the results until you have talked, correct? So, you're 
going to have to go through some kind of measure of testing 
whether or not it's real.
    Ambassador Bosworth. I think that's correct. I mean, one of 
the things that we are looking for, however, is evidence that 
the agreements that we have reached with them in the past are 
agreements which they are now prepared to carry out.
    The Chairman. Do you want that evidence in terms of their 
adhering to the agreement, or saying they will?
    Ambassador Bosworth. Well, we want evidence that they treat 
these things seriously and that they are not making agreements 
just for the sake of getting talks started. We want to see 
concrete results.
    The Chairman. Does that----
    Ambassador Bosworth. We also----
    The Chairman. Does that put a hurdle in the way of getting 
to the other talks?
    Ambassador Bosworth. No, I don't believe it does.
    The Chairman. What if they think that's part of the 
bargain?
    Ambassador Bosworth. Well, these are agreements they've 
already made. It's very difficult to go forward with confidence 
and make new agreements if they are not able to adhere to the 
ones that we've already put in place.
    The Chairman. And if they're not, do you give a deadline? 
Is there a greater capacity to bring pressure on them to go the 
regime-collapse route?
    Ambassador Bosworth. Well, I'm not very confident about 
regime collapse as a route toward stability on the Korean 
Peninsula. One can argue that we've been waiting for that 
regime to collapse for a long time, and it's still there. No, I 
think we have to deal with North Korea as we find it, not as we 
would like it to be perhaps at some point in the future.
    The Chairman. Let me go further than that, if I can, for a 
moment, both of you. Isn't it fair to say that regime collapse 
is distinctly against China's interests?
    Dr. Campbell. I would say so, Senator. In fact, I think one 
of the things that has animated China's positions on North 
Korea in recent years has been a concern about stability in 
North Korea. And they have taken steps to strengthen their ties 
militarily, at the party level, and economically with the 
regime's elite. I think it would be fair to say, though, that, 
in some of our discussions with our Chinese interlocutors, 
they, too, have expressed concerns about developments in North 
Korea.
    The Chairman. But, this doesn't break us through yet. I 
mean, my frustration, a little bit, is that they keep paying 
lipservice to the notion that North Korea's activities are 
threatening, and they don't want them to be an expansive 
nuclear power, and they don't want them to proliferate, but 
then they keep throwing this very traditional Chinese concern 
about stability--I think, partly because of their own internal 
politics and partly because of what the impact would be on 
them, of refugees and collapse and other things.
    So, there's a tension here. We just don't get beyond that. 
And the question is whether or not you think China is prepared 
to get beyond it. It seems to me China--if China wanted to flex 
a little muscle here--could have a profound impact on what 
North Korea's attitude is about its future.
    Ambassador Bosworth. Well, clearly, China has enormous 
interest in North Korea, in general. I am convinced that we 
share one large common interest between the United States and 
China, and that is that neither of us want to see North Korea 
as a nuclear-weapon state on an ongoing basis.
    North Korea is also, as you point out, Mr. Chairman, very 
concerned about stability in North Korea; stability in 
Northeast Asia, in general. And it is, I think, obvious that 
there are, at times, understandable tensions between their 
objective of denuclearization and their objective of reducing 
or avoiding serious tension on the peninsula.
    We work with China on this issue on an ongoing basis. I've 
made, since I've been in this position, about seven trips to 
Beijing. The Chinese have come here. It is a subject of primary 
tension when our two Presidents meet, as they did in January of 
this year. This is an issue which is at the very center of the 
United States-China relationship.
    So, we continue to work this problem. I have no magic 
bullet that is going to align our interest and China's interest 
entirely, with regard to North Korea. But, like so many other 
problems in the world, we have to keep working at it, chipping 
away, trying to advance the ball, if you will, because I am 
also of the view that it's very difficult to see an acceptable 
result to the challenges posed by North Korea without China's 
active participation.
    The Chairman. Do you----
    Sorry, did you want to add to that?
    Dr. Campbell. I would just add one thing to that, Senator, 
if I could. You had the opportunity to visit with President Hu 
Jintao when he visited Washington not long ago. In the 
intensive diplomacy surrounding his visit and the release of 
the United States-China joint statement, one of the central 
issues of our discussion was the developments on the Korean 
Peninsula.
    And it's clear that the recent revelations associated with 
the alleged UEP program in North Korea have caused anxiety in 
Beijing. And they acknowledge that, for the first time, in our 
joint statement. It is the case that China takes very seriously 
the 2005 joint statement, whereby North Korea has made specific 
commitments about what it's prepared to do in the nuclear 
realm. And Chinese interlocutors view actions that North Korea 
has taken with regard to this program as being inconsistent 
with their declarations associated with the 2005 agreement.
    The Chairman. Would you say that we have additional arrows 
in our quiver?
    Ambassador Bosworth. Well, we always have, I think, in 
almost every situation, arrows in our quiver that we could 
employ. The question is: Do those contribute to bringing about 
a solution that is acceptable to us?
    The Chairman. Well, if--I mean----
    Ambassador Bosworth. But, I think--I don't mean to be----
    The Chairman. No, but if you don't, then they're not 
usable. Maybe, I should----
    Ambassador Bosworth. Well----
    The Chairman [continuing]. Say ``usable''----
    [Laughter.]
    Ambassador Bosworth. I think--and this is the way I kind of 
approach this issue of China and North Korea--that both of us 
have a major stake in demonstrating that working together with 
our other partners in the region, we can solve this problem or 
at least manage this problem over the longer term, because I 
think, in some sense, it is a litmus test to the ability of the 
United States and China to work together on broader issues.
    The Chairman. To what do you attribute the increase of this 
volatility, active events between the North and the South, over 
the course of the last year or so?
    Ambassador Bosworth. That's a very good question, and it's 
one that our intelligence community has worked at very 
assiduously. There is some belief that it is related to issues 
regarding succession in North Korea. There is some belief that 
it is related to jockeying among various factions in North 
Korea. I think it's also very important to look at the 
historical origins of these particular provocations as they 
arise.
    I don't have an overall explanation for why these things 
have happened. I do think it is a useful reminder--an important 
reminder--of the extraordinary tension that exists along that 
border, along the DMZ, and of the importance of the United 
States and all of our other partners in trying to work to 
reduce that tension and manage the situation.
    The Chairman. Last question, Secretary, if you don't mind. 
With respect to the North, this tension, do you believe that if 
we put the regime change/stability, whatever you want to call 
it--longevity--in other words, if the end product were that if 
they behave in XYZ ways, then we're not setting out to change 
the regime, that there's an open thing, and if China were to 
agree to that--is that the big, final enchilada for them? Is 
that the big deal that----
    Ambassador Bosworth. Well, I think, clearly, for the North 
Koreans, regime continuity is the essential objective of 
everything that they do. We have indicated to them strongly, on 
a number of occasions over the last few years, that we do not 
regard regime change as the outcome of our policy. But, we do 
regard a change in regime behavior as necessary to any 
fundamental improvement in the overall relationship. We have, 
in the past, under various administrations in this country, 
held out the prospect of negative security assurances. We have 
repeatedly told them, particularly in the last 2 years, that 
regime change is not the objective of our policy. I told my 
interlocutors that when I visited North Korea in December 2009.
    So, I think it may be that they don't believe us or that 
they don't fully trust us. But, I don't think they should be 
operating under the fear that somehow we are dedicated and 
determined to undermine the regime.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    As I mentioned in my opening statement, I asked the 
Congressional Research Service to evaluate the implementation 
of U.N. Security Council Resolution 1874, and they reported 
that implementation with regard to the sanctions has been 
uneven globally and, in cases, diminished over time. Now, in 
addition to that problem, there is the problem of the trading 
partners and the actual or potential proliferation of elements 
of the nuclear program to other countries.
    I would like for your comment on the Congressional Research 
Service's finding about the uneven or even diminishing 
application of sanctions.
    Ambassador Bosworth. Well----
    Senator Lugar [continuing]. And the sending out by the 
North Koreans, either for profit in the regime or personally, 
of elements of the nuclear program.
    Ambassador Bosworth. Well, first of all, I would agree that 
implementation has been uneven. But, to improve implementation 
has been one of the fundamental goals of our multilateral 
diplomacy. And we have a number of people, who travel the 
world, in fact, talking to individual governments about the 
need to tighten sanctions against North Korea and to fully 
implement the sanctions resolutions of the U.N. Security 
Council.
    Dr. Campbell. Can I just--also, if I could, Senator, just 
to add to that. I think it would be fair to say that North 
Korea is probably the most heavily sanctioned country in the 
world. As Ambassador Bosworth has indicated, we have a fairly 
elaborate set of steps that we are taking in a variety of 
countries.
    And I would point to a number of successes that perhaps do 
not get enough attention. In the last year, a number of states 
who had previously never been involved in, shall we say, 
interdicting or helping us with the transfer of illicit cargoes 
from North Korea to sites either in Asia or in the Middle East 
have assisted us in turning back shipments. We've also been 
able to target some specific entities that are involved in 
providing hard currency to elite groups around the leadership. 
And our evidence suggests that, in fact, many of these efforts 
do indeed bite and have created some difficulties, overall, for 
the leadership.
    I think it'd be fair to say that there is more to be done 
and that this is an issue that we engage actively on, 
particularly with our friends, not just in Japan and South 
Korea, but also in China. As we speak right now, we have a 
senior team in China discussing these very matters.
    Senator Lugar. Well, there were some allegations, for 
example, that North Korean nuclear materials reached Syria at 
one point. I'm just curious--maybe these are only elements that 
our intelligence services are examining, but are there periodic 
reports, by the State Department or by somebody, as to how the 
sanctions are working? In other words, reports that detail, 
country by country, what the nature of the cooperation is. What 
have we caught? What got away? This sort of thing.
    Ambassador Bosworth. Sure. No, we look at all those issues 
very carefully. And I think I can commit the administration--if 
you would like us to follow up in an executive session, and 
examine some of these specific cases, I think we would be very 
happy to do so. For reasons I know you will understand, some of 
these are a little too sensitive to discuss in an open hearing.
    Senator Lugar. I do understand that, but I wanted to raise 
the issue----
    Ambassador Bosworth. Sure.
    Senator Lugar [continuing]. Because I think it's a critical 
one, not just in terms of our relations with North Korea, but 
in terms of difficulties elsewhere in the world, where some of 
this material may wind up.
    Ambassador Bosworth. Without question. And I would say, for 
the record, that proliferation of nuclear materials and missile 
materials coming out of North Korea is one of our major 
concerns and is one of the major factors driving American 
policy in this regard.
    Senator Lugar. I'd like to inquire about North Korea's work 
with the Burmese military. There have been reports, from time 
to time, that we have tried to dissuade a North Korean ship 
from reaching a projective destination in Burma. But, what is 
the general consensus as to where that relationship is? And how 
does it affect the six-power talks or others in which Burma is 
not a part?
    Dr. Campbell. Thank you, Senator. I appreciate the 
question.
    I think it would be fair to say that, in the past, most of 
North Korea's proliferation activities have affected the Middle 
East. But, in the recent period, they have increased 
substantially, we believe, the provision of certain 
conventional technologies--small arms and also some missile 
components--to Burma, in strict and clear violation of U.N. 
Security Council resolutions. We continue to monitor other 
allegations closely, associated with illicit activities between 
North Korea and Burma.
    This is a subject of enormous concern. And we have worked 
closely with a number of countries in Southeast Asia to assist 
us in establishing a greater degree of confidence about illicit 
transfers, largely by ship, coming from North Korea.
    This is one of those areas that Ambassador Bosworth has 
indicated that we'd be pleased to perhaps engage with you in 
private session. I will tell you, we've had some successes, but 
this is an enormously challenging problem. And, in fact, North 
Korea, in many of these areas, has demonstrated itself, that 
they are a determined proliferator. And, as Ambassador Bosworth 
has indicated, this is at the top of our list, in terms of our 
overall concerns.
    Senator Lugar. Well, I appreciate the sensitivity. Once 
again, perhaps this could be more thoroughly discussed in a 
classified session.
    Let me, finally, ask: Recently, a South Korean lawmaker 
suggested the United States redeploy tactical nuclear weapons 
to South Korea as a deterrent to North Korea. What is the 
perspective of either of you on that suggestion?
    Ambassador Bosworth. Well, I've seen those reports. Let me 
just say that our mission in South Korea is to deter any 
aggression by North Korea. And we are very confident that we 
have more than adequate tools at our disposal to accomplish 
that mission of deterrence.
    Senator Lugar. So, as a result of that, you----
    Ambassador Bosworth. We have no--I mean, this is not an 
issue that is under active consideration.
    Senator Lugar. I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Risch.
    Senator Risch. Thank you, Senator Kerry.
    Gentlemen, thank you for your service. Certainly, you've 
got one of the most difficult tasks of anybody in Foreign 
Service.
    And, you know, I've read your opening statements and 
listened carefully. And I've been to South Korea and compared 
the two governments. Obviously, I've never been to North Korea. 
But, the one thing that, in my mind, makes this such a knotty 
problem is, you can't really understand what makes these people 
tick. You know, before you can resolve a problem, you've got to 
understand the problem. And I'm at a loss as to an explanation 
as to what motivates the North Korean regime. What is it that 
makes them feel good? What is it that makes them feel bad? Why 
do they do the things that they do?
    I mean, you know, if they were an individual human being, 
they'd probably be committed because of their inconsistencies 
and what the psychiatrists call ``inappropriate behavior.'' 
It's just--it's nonunderstandable. Can you try to shed some 
light on that for me?
    Ambassador Bosworth. Well, I'm not sure that I can 
illuminate that whole question, but what I would say is that 
what I find useful in trying to understand North Korean 
behavior is to understand that everything that the North Korean 
Government does, domestically and internationally, is aimed at 
one goal, and that is perpetuation of the regime.
    Senator Risch. And I understand that. But, you know, that's 
not unique to North Korea. I mean, there's----
    Ambassador Bosworth. No----
    Senator Risch [continuing]. There's many, many countries in 
the world--now, I agree it's--that is there, on steroids, but 
there's a lot of regimes in the world that are focused on----
    Ambassador Bosworth. I think when you combine that singular 
goal with the existence of what is probably one of the most 
comprehensive police states in the history of the organized 
world, you can get some insight into how that place operates. 
But, it remains, as Churchill said about the Soviet Union in 
the 1940s, ``an enigma wrapped in a mystery,'' or maybe it was 
the other way around. We don't know that much about how North 
Korea works, internally. We don't know that much about how 
decisions are made. And, in the end, we don't know that much 
about who makes them.
    Senator Risch. Well, I appreciate that. And again, you 
know, when you step back and you look at people who are in 
power or in charge, and you look at the way they treat their 
fellow human beings that are the same--their fellow 
countrymen--I mean, it is just--it's just staggering to try to 
get your arms around it and understand what--how they think. 
And--Mr. Campbell, you want to take a run at it?
    Dr. Campbell. Well, thank you, Senator. I would associate 
myself with the comments of Ambassador Bosworth.
    I will say that it is among our most difficult intelligence 
challenges, to understand what goes on. And I would say that 
it's not simply the survival of the regime; I'd be more 
particular. It's the survival of the family, of Kim Jong-il and 
its very, very narrow group of people at the very, very top of 
the system.
    And indeed, they have practiced internal brutality of a 
kind that we've seen in very few places globally. And the level 
of isolation that their population generally experiences is 
probably unmatched anywhere else in the world. And that is a 
very determined effort on the part of the leadership.
    And I will tell you, one of the interesting tensions that 
exists, I think, between China and North Korea is that for 
years China has attempted to encourage the leadership to open 
up economically, to practice a form of, shall we say, 
authoritarian reform of the kind that the Soviet Union--that 
China practiced after Deng Xiaoping came to power. And I think 
they have been very discouraged by the fact that North Korea 
has essentially chosen not to follow that path. It is still an 
extraordinarily isolated country.
    And I think that the general prism that Ambassador Bosworth 
laid out, which is to try to think about every step they take 
as part of a larger strategy to try to maintain and secure the 
leadership of Kim Jong-il and his chosen successor.
    Senator Risch. I understand the proposition that they want 
to stay in power and they do everything they can--that's their 
single objective. But, you know, really, what they do on these 
brinksmanship things doesn't really mesh with that, because, I 
mean, if you wanted to stay in power, what you'd want is to 
keep the seas calm and keep things the way they are. Instead, 
they go out and they sink a ship or they do an artillery attack 
on South Korea. Why would you do that if you truly did want to 
keep things just exactly as they were? I mean, it----
    Ambassador Bosworth. Well----
    Senator Risch [continuing]. Just doesn't make sense.
    Ambassador Bosworth [continuing]. They want to preserve the 
regime, but they also want the world's attention, because they 
need things from the outside world. And so, they do this--these 
provocations, both to demonstrate that they remain a force to 
be reckoned with--they do not want to be ignored--and they do 
them because they think, as the cycle advances, that our 
response will provide them benefits.
    Senator Risch. Thank you.
    Again, gentlemen, thank you so much for your service. And I 
can tell you, I sincerely appreciate the difficult Rubik's Cube 
you're dealing with here.
    Thank you.
    Senator Lugar [presiding]. Well, thank you, Senator Risch.
    Senator Rubio.
    Senator Rubio. Thank you, Secretary and Ambassador.
    I want to just kind of build on what Senator Risch was 
talking about, and then maybe focus more tightly on the nuclear 
ambitions of North Korea, which just takes so much of our 
attention and energy.
    It sounds--I'm neither an expert on Korea or on Asia, but 
it sounds, from the testimony here today and what I read before 
being here today, and following all the things that have been 
written about the region leading up to this hearing here today, 
that clearly at the core of the nuclear ambitions of this 
country is survival, in essence. Most countries develop a 
nuclear capacity, (a) because, for example, India and Pakistan 
are largely focused on each other, and clearly the cold war is 
something we fully understand. From North Korea's perspective, 
it doesn't seem like they're in fear of a Japanese invasion or, 
quite frankly, an American one. This is, basically--as far as I 
can see, is an insurance policy. It is the--it is something 
that they--their ability to have a nuclear program makes them, 
not just a force to be reckoned with in the region, because of 
the damage they can do, but, quite frankly, gives them some 
level of security and fear that there's limits on what the 
United States or any other actor can do against North Korea's 
interests, because of their capacity to react with a nuclear 
weapon. Is that a--I mean, is that basically a accurate 
description of the purpose----
    Ambassador Bosworth. Well, let me----
    Senator Rubio [continuing]. Of the nuclear program?
    Ambassador Bosworth. Let me try to respond to it, then 
maybe Kurt Campbell will have something to add.
    I think they view a nuclear weapons program as the ultimate 
deterrent. This is a country that has, for 60 years or more, 
lived in, sort of, day-to-day fear of being invaded or being 
attacked from the outside. Rightly or wrongly--they may 
exaggerate that, but, rightly or wrongly, that's what they 
believe. So, for them, a stockpile of nuclear weapons 
constitutes the ultimate deterrent. And they consider it 
essential to their regime's survival.
    Senator Rubio. If I could just touch upon that. They don't 
actually even have to have the weapons, right? They just have 
to show the capacity to build them and to deliver it, if they 
ever wanted to.
    Ambassador Bosworth. I think that's correct.
    Senator Rubio. What I'm trying to get at is, is that we 
spend all this time and energy trying to convince ourselves 
that we're going to be able to ever talk them out of the 
program. It sounds to me that, in essence, the program is the 
regime. It is the core and essence of its existence and ability 
to survive. I mean, they're certainly not going to stay in 
power because they're doing a good job managing the economy. 
They're not going to stay in power because they do a good job 
of distributing justice. The one thing that keeps them in power 
is the ability to crack down on internal dissent and the 
ability to repel foreign intervention in their affairs, because 
of this nuclear program. And so, it seems to me like this idea, 
that we're going to somehow be able to pressure and/or convince 
them to abandon this program--the price of pressuring them 
seems like it's extraordinarily high, given the central 
importance that this has on their regime; I mean, on its very 
survival.
    Ambassador Bosworth. I don't think anyone in the 
administration--I certainly do not underestimate the difficulty 
of negotiating on the path that we are on, toward a 
comprehensive and irreversible, verifiable end to North Korea's 
nuclear weapons program. I have some belief that, in the longer 
term, as we pursue this program, if we can pursue this policy 
effectively, that a mix of incentives and disincentives can be 
found which will make North Korea more willing to contemplate 
giving up the program. In the meantime, along the way, there 
are important things that I think we can try to achieve 
relating to the question of proliferation, relating to their 
production of fissile material, both from their plutonium 
program and from their uranium enrichment program.
    So, I think simply to say now, ``Well, we'll never convince 
them to give up these weapons,'' is probably an error, because, 
as we pursue the ultimate goal--and I think, given our global 
nonproliferation policy, we must pursue that ultimate goal--
but, as we pursue it, I think other things become achievable 
and, in the end, we may actually get ``yes'' for an answer. 
But, if we don't try, we're certainly not going to get ``yes'' 
for an answer.
    Ambassador Bosworth. Yes.
    Senator Rubio. But--and I'm not suggesting that we should--
but, the question, I guess, is there's two separate topics; one 
is proliferation. And clearly, that's the one that I do believe 
we could have some influence over. But, what I'm trying to 
really kind of arrive at an answer--is this mix of incentives 
versus disincentives of even having a program or having the 
capacity to have a program. It's hard for me to envision what 
that mix of disincentives that would lead to them abandoning 
the program is.
    Dr. Campbell. Can I, Senator, just take one other shot at 
that? I like very much the way Ambassador Bosworth laid this 
out. But, I will say, it was only a few years ago that a number 
of people, who, for instance, were looking at some of the 
developments in Libya, thought that it would be impossible to 
create any kind of program whereby a very secretive but 
determined program that Gaddafi was undertaking in the nuclear 
realm would be stopped. But, through purposeful diplomacy in 
the Bush administration, we achieved that. And just imagine the 
circumstances today in Libya if there was a nuclear dimension. 
There'd be--it's tremendously dangerous now, but it would be 
horrifically so if there was an added nuclear dimension.
    So, I think that the diplomacy aimed at this is a worthy 
goal, overall. And I think that you have to take it in pieces. 
And one of the most important elements here is on the matter of 
proliferation, as Ambassador Bosworth indicated.
    I will also say that, you know, North Korea is one of the 
most militarized states in the world. And so, it not only has 
the nuclear program that we have been discussing, but it has 
one of the largest conventional forces, including artillery, 
that is arrayed just above the DMZ within easy, and 
unfortunately, ready striking distance of one of the largest 
cities in the world: Seoul. And so, it has other means at its 
disposal to be able to provide some form of deterrent.
    I think the truth is that the risks, particularly on the 
proliferation side, are so great, and the concerns associated 
with other elements that are transpiring inside the country 
suggest that this sort of determined approach to diplomacy is 
the right course for the United States.
    Senator Rubio. And I guess what I'm really trying to get 
at--and I think it's going to be an ongoing dialogue--is, I'm 
trying to picture, in my head, what that would look like. What 
set of conditions or disincentives or incentives, what kind of 
package of those would it take to tilt the scales for a regime 
of this nature? And these are--this is not just a pragmatic--
this is not some sort of pragmatic government that's looking to 
build its economy and grow its country. Above everything else, 
according to the testimony here today and everything we've 
seen, what they're really interested in is owning this country 
for as long as they can, and staying in power, as a family. I'm 
just trying to figure out what set of incentives/disincentives 
it would take to tilt that scale toward abandonment of this 
capacity and this program. Obviously, sitting here, it's not 
a--you know, the ideal setting to, kind of, have a----
    Ambassador Bosworth. Right.
    Senator Rubio [continuing]. Conversation about that--but 
how that's developed, and, in our mind, whether that's even 
realistic. And I think we have a similar conversation going on 
with regards to Iran and other parts of the world. But, this 
one's even more problematic, because we know so little about 
its decisionmaking process and things of that nature.
    I don't know if I have time, Chairman, to ask a real quick 
question, because I know I'm a little bit----
    Senator Lugar. Go ahead.
    Senator Rubio. Just, I wanted to talk briefly about the 
humanitarian aid. Again, this is an issue of first impression, 
to me, having--this is my second meeting on this committee. I'm 
interested in the food program in the past. And how problematic 
has it been, in terms of seeing those resources diverted to 
elites or the military?
    Ambassador Bosworth. Well, as I indicated earlier, Senator, 
one of the conditions that we have imposed--I think, 
successfully, for the most part--on our provision of food aid, 
has been a very careful process of monitoring. Now, I wouldn't 
want to exaggerate that. We don't have an outside monitor 
following every bag of grain that is put into the country. But, 
we agree with the North Koreans, in advance, on the recipients 
of the USAID, which includes, of course, children, older 
people, et cetera. And then, through frequent inspection, we 
have been able to verify--quite effectively, we think--that the 
aid has gone to the recipients for whom it was intended.
    Now, we negotiated this monitoring arrangement back in 
2007, I believe--2007/2008. In 2009, the North Koreans threw 
out our food assistance team--some people believe, because they 
became concerned that having Korean-speaking outsiders--and 
many of the United States team were Korean speakers--was not in 
their long-term interest, so they threw them out, which is 
another indication that perhaps they were quite effective.
    But, as we indicated in our respective testimonies, we are 
currently assessing need. We have some other things that we 
need to do in response to North Korea's request for renewed 
food aid. And then we will talk to the North Koreans about a 
monitoring system, which, at its minimum, would be as effective 
as the one that we had there last time.
    Dr. Campbell. Can I just add to that, Senator?
    Just, as part of this, we would also be in very close 
coordination with our colleagues on Capitol Hill, who have a 
very keen interest in this and have provided very useful 
context for how to think about this overall program.
    I just want to underscore that no decisions have been made. 
We are still in the study phase. And we are taking this matter 
very seriously. And we're in close coordination with our South 
Korean colleagues, as well.
    I will say, one of the key conditions that I find most 
powerful is that the packaging--and I've seen them myself and 
would love to send one up to your office--makes very clear to 
the recipients that this food assistance comes from the United 
States, from the people of the United States. And so, it's very 
clear, impossible to disguise, that when this food is 
distributed, it is well understood that it comes from the 
benevolence of United States people.
    The Chairman [presiding]. Senator, thank you.
    Just a couple of quick questions.
    What's the impact of the uranium enrichment program 
disclosure, in terms of our overall interests there?
    Ambassador Bosworth. Well, first of all, this did not come 
as a complete surprise to us. We have long--as you know, Mr. 
Chairman--long suspected that North Korea was pursuing a 
program of uranium enrichment. They then, of course, as we all 
know, showed this facility to a group of visiting Americans, 
including one of our more prominent nuclear scientists. We know 
that the centrifuges are there. We cannot verify that they are 
operating. And we cannot verify that they've had any production 
of enriched uranium.
    But, I would say, without question, two things. One, this 
means that, assuming we do get back to the table with them, 
that is very much going to be the No. 1 issue on our list of 
concerns and things that we have to talk about. The other is 
that a viable uranium enrichment program does present a 
complication to our efforts to negotiate a denuclearization 
agreement with the North Koreans, no question about it. 
Verification becomes an even more difficult question. And 
obviously, these are subjects that we're going to have to get 
at with them.
    The Chairman. To what degree do South Korean interests and/
or politics constrain what we might or might not want to do at 
this point?
    Ambassador Bosworth. On the matter of uranium enrichment?
    The Chairman. No, on the matter of----
    Ambassador Bosworth. Or just in general?
    The Chairman [continuing]. In general, engagement/talks. 
Bilateral.
    Ambassador Bosworth. Well, I don't think they constrain our 
reaction and our ability to act. We have said, to both the 
South Koreans and, more importantly, to the North Koreans, 
that, from our point of view, an improvement in South/North 
relations, particularly after the blatant provocations of the 
last year, is a necessary step before we can resume a more 
multilaterally oriented negotiating process or dialogue. And we 
saw, early last month, a tentative step forward in that regard, 
on the part of the North and South Korean militaries. We are 
optimistic--or hopeful, at least--that that step will be 
followed by others. We've made it very clear to North Korea and 
to China that South Korea is the aggrieved party in this 
instance, and, as our ally, we're standing with them. And we 
want to see some change and improvement in North Korean 
attitude on key points of interest to South Korea.
    Dr. Campbell. Let me just add to that, if I could, Senator, 
very quickly.
    I think it's very important for Americans to understand the 
tremendous forbearance and, frankly, the courage that the South 
Korean, particularly President Lee Myung-bak, have demonstrated 
in the face of repeated outrageous provocations. And the fact 
that they have been calm and not responded in a retaliatory way 
is a tremendous testament to their leadership.
    And I would probably even go further than what Ambassador 
Bosworth has said, although I agree with everything he has 
said, that very few countries in the world have demonstrated 
how much they are prepared to work with the United States, not 
just on the Peninsula, but globally. South Korea's foreign 
assistance, their commitment to Afghanistan, to what we're 
doing globally, is remarkable. They are emerging as a key 
player on the international stage. They have played an 
important role in the G20. I think this emerging partnership 
between the United States and South Korea in this new phase is 
one of the most important success stories of Northeast Asia.
    So, I would say, overall, our diplomacy and our approaches 
are reinforcing. And I think one of the reasons why South Korea 
was able to respond so carefully to these provocations was 
indeed the strength and confidence they had of the relationship 
with the United States.
    The Chairman. What could either of you share with us about 
Japan's back-channel efforts with this--in this regard, over 
the course of the last year?
    Ambassador Bosworth. Let me first talk about the front-
channel efforts. One of the things that's been most important 
over the course of the last year has been the extent to which 
this new Japanese Government is prepared to work constructively 
with South Korea. I think, as you know, we have some long 
memories in Asia. There have been some historical differences 
and challenges between Japan and South Korea. What we have seen 
has been a forward-looking and progressive effort by Japan to 
support South Korea in the face of these provocations.
    Last December, Secretary Clinton hosted, for the first 
time, a ministerial-level trilateral, with her colleagues from 
Japan and South Korea, in which all three countries worked very 
closely together to demonstrate cooperation with respect to 
North Korea.
    I think Japan is prepared to be extraordinarily supportive 
within the context of the six-party framework. And they have 
been very transparent in all their activities in Northeast 
Asia, with both South Korea and the United States.
    The Chairman. Ambassador, I mentioned, a little while ago, 
you'd made seven trips to Beijing. But, it's my understanding 
you've only made one to Pyongyang. Have we----
    Ambassador Bosworth. That is correct.
    The Chairman. Have we kind of isolated ourselves, here?
    Ambassador Bosworth. No; I don't believe so. You know, 
we've made it clear, I'm prepared to go to----
    The Chairman. What's the seven-to-one ratio? Why wouldn't 
you pop over----
    Ambassador Bosworth. It's an even larger ratio with regard 
to my trips to South Korea, because I think, at this stage in 
our efforts to deal with this set of problems, we find that 
it's, above all, first, important to coordinate our efforts 
with our partners in the six-party process.
    The Chairman. Somebody--I mean, is there a resistance, 
here, to saying, ``Let's get back to the table''?
    Ambassador Bosworth. No, I think we are very open to 
getting back to the table, provided, as I indicated earlier, 
that's done under the right set of circumstances and in the 
right framework.
    The Chairman. Who's going to figure that out?
    Ambassador Bosworth. Well, we're all, collectively, trying 
to figure that out. And I----
    The Chairman. Do you have to talk to them to figure it out?
    Ambassador Bosworth. Well, we are not without ways of 
communicating with them. And we do communicate with them. But, 
I think, ultimately, we may have to have further conversations 
with them, bilaterally, in order to figure out how to move 
forward multilaterally.
    The Chairman. Senator Lugar, do you have any additional----
    Senator Lugar. One short question, sort of referring back 
to my mention of the 8,000 Americans from the Korean war that 
are not accounted for. First of all, is there any information 
on this matter coming from the North Koreans? And, second, 
apparently there has been some search, in Chinese military 
archives, as to who might have been taken into China from North 
Korea during that conflict, and perhaps some cooperation with 
the Chinese. On either front, do you have information or an 
idea of whether this is being pursued?
    Dr. Campbell. Thank you, Senator Lugar.
    First of all, let me just underscore that we, in the U.S. 
Government, have had a consistent policy that the recovery of 
remains, the identification of Missing in Action, remains an 
extraordinarily high priority for our activities. And we've 
demonstrated that in Southeast Asia in other conflicts, and 
also on the Korean Peninsula.
    I think it would be fair to say that we view the program in 
North Korea as a critical humanitarian effort. I think the 
North Koreans view it largely as an opportunity to raise hard 
currency. We are prepared, under the right circumstances, to 
resume this overall effort.
    I think, particularly when it relates to the interactions 
that we've had with China over the course of many years 
associated with the North Korean--excuse me, with the Korean 
war--let me take that question for the record, and I will get 
back to you directly with where this specifically stands. I 
remember it very closely from my time working in the Department 
of Defense, but I'm not sure where it stands currently. And I 
will get back to you directly.

  [Editor's note.--the information requested above was not 
available when this hearing went to press.]

    Senator Lugar. I would thank you for that report.
    Thank you, sir.
    The Chairman. Senator Rubio, do you have any questions 
for----
    Senator Rubio. Just one more, kind of, question/
observation, to either one of you, and maybe both. You know, 
I've read in a couple of places some--whether it's opposition 
folks outside of North Korea or what have you--one of the 
arguments that has been made is that, clearly, in a country 
that's struggling with poverty and a lot of suffering, you have 
a government willing to spend between 15 and 25 percent of its 
gross domestic product on the military, particularly a very 
expensive nuclear program, a nuclear ambition. And the argument 
is that the--in a country that's willing to do that, that this 
food assistance is basically going to be taken and used to feed 
the elites and the military, and that, in essence--I've read 
somewhere, and I'm not saying I agree with this--but that food 
program, in many respects, relieves the pressure on the North 
Korean Government to divert funds away from the nuclear program 
and divert it toward--and place it to where it should be, which 
is feeding and caring for its people. Do you have thought--and 
you probably have read some of those statements that have been 
made by some--and do you have any thoughts on that, in general?
    Ambassador Bosworth. My general thoughts on that, Senator, 
would be that it's, I think, indicative of the nature of that 
regime that they're prepared to do this. My second observation 
would be that, in my experience, the last group of people in 
North Korea who will not have food are the military. So, if we 
provide food, and if we can monitor it carefully and we know 
that it's going to children, institutional needs, I think it's 
the right thing to do.
    Senator Rubio. I think that the argument that some have 
made--and not that I'm making it today, but the argument that 
some have made is that, the fact that we--that, to the extent 
that food does get to people in North Korea--and it's a very 
calloused approach, I understand--but someone have made the 
argument that, to the extent that food and goods does gets to 
people, what it does is, it takes pressure off the regime to 
have to take that money away from its nuclear program and 
instead divert it to its people, where it should be in the 
first place.
    Dr. Campbell. Can I say, Senator, I don't think--that would 
be the kind of calculus that a Western government that heeds 
the needs of its people would perhaps take into account--I 
don't think the North Korean leadership believes in these kinds 
of tradeoffs. I think they are committed to these programs that 
you have described. And they have demonstrated, historically, 
that they are prepared to allow enormous suffering. Very 
substantial component of its population suffered through 
starvation in parts of the 1990s. And so, the choice really, 
here, is whether these people are allowed to starve. And 
that's, frankly, a humanitarian issue, really not a one of 
political discourse.
    Ambassador Bosworth. North Korea's national strategy 
continues to be, as it has been for several years, something 
called a military-first strategy. And they allocate resources 
accordingly.
    Senator Rubio. It sounds like the testimony, basically, is 
that they're willing to let their people starve. In essence, 
they don't respond to that kind of pressure; it's not part of 
their decisionmaking matrix.
    My last question. And again, because this is kind of an 
issue of first impression to me. Unification and--as a 
realistic goal in the long term or midterm, you know, what--is 
there a national identity that crosses from North to South? And 
I--No. 2, my first impression on this--and you may be able to 
elaborate more on it--is that a unification of North and South 
Korea, from a pragmatic standpoint, looks like it would be even 
more difficult than an East and West Germany unification was, 
for example, just given the dramatic differences between the 
two economies. But, what is the status of that? How realistic 
is that? How much is that discussed? How much is that desired?
    Ambassador Bosworth. Well, I think most South Koreans would 
agree that the cost of reunifying the Korean Peninsula is going 
to be enormous. That does not mean, however, that they do not 
hold this, still, as a strongly desired national objective. 
But, the sense of Koreanness between South and North remains 
very deep, even though, over the last several decades, the two 
countries have gone in such different directions that it is 
very difficult to, sort of, automatically see the way in which 
that will happen.
    I think, quite clearly, it's not going to happen on the 
basis of the North Korean political economic model. It is--and 
the South Korean political economic model would be a more 
feasible route. But, that presumes all sorts of things 
happening, over which we have very little way to forecast right 
now.
    Dr. Campbell. Can I just----
    Senator Rubio. Is there----
    Dr. Campbell. Can I just----
    Senator Rubio. I'm sorry.
    Dr. Campbell. Sorry, Senator. I didn't mean to--I would say 
the--what I find interesting, in interacting with Korean 
friends, is I think they have both a bond--a deep, historical, 
cultural bond--but it coexists with a deep alienation. So, I 
think what's challenging about the Korean Peninsula is that, 
for most, particularly South Korean citizens, they feel both--
both an attraction, a deep recognition of historical kinship, 
and cultural sameness, but also a deep alienation. And spanning 
that gap will be enormously challenging in the future.
    Senator Rubio. My last question.
    What is the Chinese view--is there an official Chinese view 
on unification--officially, unofficially--your impressions on 
how they would view that. Particularly since I think we would 
all agree that any reunification would look more like South 
Korea than North Korea, for obvious reasons.
    Ambassador Bosworth. My impression is that, from Beijing, 
the current organization on the Korean Peninsula looks about as 
good as they would--they could imagine.
    Senator Rubio. In essence, you think they like it just the 
way it is.
    Ambassador Bosworth. Yes. Not all aspects of it just the 
way it is, but Korean reunification is not one of the major 
objectives of the Chinese Government.
    Senator Rubio. So, suffice it to say that a unified Korea 
that looks like South Korea and has the kind of close 
relationship with the United States that South Korea now has is 
not high on their wish list.
    Ambassador Bosworth. I would put it that way, yes.
    The Chairman. Thank you.
    Thank you, folks.
    Mr. Secretary and Mr. Ambassador, thanks a lot for being 
here.
    We're going to leave the record open for a week. We had 
some colleagues who wanted to be here, who couldn't be here. 
So, if you don't mind, we'll try not to burden you, but we do 
want to make sure the record is complete.
    If I could ask for the second panel to come up while this 
panel is departing: L. Gordon Flake, executive director of 
Mansfield Foundation; Marcus Noland, Peterson Institute for 
International Economics; and Robert Carlin, Center for 
International Security and Cooperation, Stanford.
    And if--I'd ask, Mr. Carlin, if you would lead off; 
Director Noland, if you'd go second; and, Mr. Flake, if you'd 
wrap up.
    Thank you.
    Can we keep order, please, in the hearing. I want to keep 
moving forward.
    Mr. Carlin.

 STATEMENT OF ROBERT CARLIN, CENTER FOR INTERNATIONAL SECURITY 
       AND COOPERATION, STANFORD UNIVERSITY, STANFORD, CA

    Mr. Carlin. Thank you, sir. It's a pleasure and an honor to 
be here.
    Once upon a time, we learned three useful lessons dealing 
with North Korea: It was possible to advance key U.S. interests 
through talks with them. In those talks, our negotiators could 
break down complex problems into component parts, and then deal 
with those parts in logical order. And finally, contrary to the 
common wisdom, if an agreement was well conceived, constructed, 
and implemented, the North Koreans would abide by the core of 
it, as long as we did. We knew, of course, that they'd game the 
process and hedge their bets.
    These are not theoretical lessons; they come from hard 
experience. But, we did a bad job explaining this to the 
Congress and to the American people. And so, everything that we 
learned and accomplished was buried under a mountain of myth. 
Instead, today the phrase, ``We won't buy the same horse 
twice,'' is considered wisdom. Though it is based on the 
mistaken belief that negotiating with the DPRK is simple 
flimflammery.
    Some in Washington may remember, in the early 1990s, that 
discussions on North Korea policy had, as part of the agenda, 
preparing for something that was called a ``soft landing.'' The 
goal was to prevent a calamity of the destabilizing situation 
that would result from a collapse of the North.
    This concept of a soft landing had a number of advantages 
for us. Notably, it didn't handcuff us to fixed goals. It 
allowed us room to maneuver, to protect and pursue our national 
interests, as the situation warranted. Then, as now, many 
people did not see the point in talking to the North Koreans, 
because they considered our problems in Korea primarily 
military. But, the North's development of a nuclear program in 
the late 1980s meant that the issue for us had become as much 
diplomatic as military. And it still is.
    It was clear that the North Koreans wanted to talk. But, 
why? We developed a fairly good understanding, over hundreds 
and hundreds of hours, as we listened to them. But, then 
abruptly in 2001, the talking stopped, and apparently so did 
the listening. And, not incidentally, all of our previous gains 
were cast overboard. As a result, the situation today is much 
more difficult. Our leverage is smaller, not greater. And our 
room for maneuver has become even more curtailed.
    If there was a chance, 10 years ago, of stopping the North 
from building a small nuclear arsenal, the gain has now 
changed, and it has not changed in our favor.
    I worked under seven U.S. Presidents. I don't think our 
problem dealing with the North is confined to one 
administration or one party. I think, in the deepest sense, the 
problems reflect a very curious national inability to fathom 
how states like North Korea work and how they see the world.
    Our difficulties are compounded by the fact that our public 
discourse in this country about North Korea has for too long 
been condescending and irrelevant. The general impression in 
the United States is that North Koreans live in a blasted 
moonscape. And any observer contradicting that image, even 
purely as a matter of fact, becomes suspect.
    As we heard earlier, the word has gone out that we aim to 
force the North to change its unacceptable behavior. If that is 
our goal, I'm afraid that the climb is going to be steeper than 
we imagine, because the North Koreans believe, if they behave 
simply on our say-so, they will become part of the woodwork of 
the great powers.
    We constantly hear that the North Koreans inhabit the most 
isolated country on Earth. Yet, in some ways, we are more 
isolated from them than they are from the rest of the world. 
DPRK officials travel. They tune in outside radio. And they 
read outside books and newspapers detailing our politics and 
our society. By contrast, at least at the official level, we 
remain pristine. We don't go there. We rarely let them come 
here. And overall, we seem to keep contact as limited as we 
can.
    The result? Well, to substitute for knowledge and 
experience, we have developed a fog of myths about North Korea. 
And amidst this fog, the North Koreans have learned to maneuver 
like Drake's small ships among the galleons of the Spanish 
Armada.
    Ultimately, progress on the North Korean issue depends not 
on the pressures we bring to bear, but on how well we 
understand the regime. If we don't grasp that North Koreans 
believe they have legitimate national interests, then we fall 
into the trap of thinking we can force them, sweet-talk them, 
or bribe them into doing as we want. Diplomacy worked with 
North Korea when it's searched for those places where interests 
overlap. But, when we signal the North Koreans that there is no 
place for them in our vision of the future, we undermine the 
basis for serious discussion of circumstances in which we 
might, for now, coexist.
    Do, in fact, such areas of overlapping interests still 
exist? It's hard to imagine getting at an answer if we don't 
actually sit down and explore the landscape.
    Thank you.
    [The prepared statement of Mr. Carlin follows:]

                  Prepared Statement of Robert Carlin

    Once upon a time, not so long ago, we learned three valuable 
lessons about dealing with North Korea.
    First, it is indeed possible to advance U.S. national security 
interests through negotiations with Pyongyang. We even found that we 
had considerable leverage with the North Koreans if we did more than 
merely paint pictures for them of a sweet and fanciful future.
    Second, in talks with the North it is possible to break down 
complex, seemingly insurmountable problems into component parts and 
then focus on the parts in a logical order, so that successfully 
dealing with the first (usually the easiest) boosts the chances of 
dealing with subsequent, more difficult items.
    Third, contrary to the common wisdom, if an agreement is 
thoughtfully constructed and implemented, the North Koreans will abide 
by the core of it as long as we do. It should not be a surprise to 
discover, however that they are likely to game the process, exploiting 
ambiguities and hedging their bets.
    These are not theoretical classroom lessons or the fruit of idle 
speculation. They come from real experience over many years.
    Yet we did a poor job of explaining this experience to the Congress 
and to the American people. As a result, what we learned, as well as 
what we accomplished, was buried under a mountain of myth, where it has 
remained for many years.
    Today, the catch phrase ``we won't buy the same horse twice'' is 
taken as wisdom in dealing with the challenges posed by North Korea. 
Unfortunately, it is based on the mistaken but all too easily accepted 
belief that negotiating with the DPRK is an exercise in flimflammery.
    Twinned with that is an assumption, fervently held by many who 
should know better, that we have, or can garner, enough power to 
dictate outcomes to the North Koreans. And if they don't do as we 
insist, the thinking goes, we can wait until they collapse or the 
Chinese make them come around.
    There may be a few still in Washington who remember that in the 
early 1990s, discussion about North Korea policy centered around the 
idea of preparing for a ``soft landing''--that is, preventing the very 
scenario that takes up so much nervous energy in various capitals these 
days, a calamitous and highly destabilizing collapse of North Korea. 
The concept of a soft landing had a number of advantages as a core 
policy precept. Notably, it did not handcuff us to fixed and 
unachievable goals. Instead, it provided necessary maneuver room to 
pursue our national interests in dealing with the North as the 
situation warranted. What it did not allow or envision was sitting and 
waiting while another country shaped the future of Northeast Asia.
    I am not attempting to describe a golden era of a lost age. For one 
thing, in those days, we still had much to learn about dealing with 
North Korea, at that point not having engaged the North except in the 
Military Armistice Commission talks at Panmunjom. In fact, then as now 
many people didn't see the point in even talking to the North Koreans. 
Our problem on the peninsula was still seen as largely military.
    A number of changes in the late 1980s, however, drove home that 
sending an aircraft carrier to cow the North was no longer a sufficient 
response. Inter-Korean dialogue and the North's development of a 
nuclear program meant that the issues for Washington had multiplied and 
that the challenges presented by the North had become as much 
diplomatic as military.
    It was clear to us that the North Koreans wanted to talk--but why? 
We developed a pretty good idea 10 years ago as we listened to what 
they said and observed their reactions over hundreds and hundreds of 
hours of formal and informal contacts. Nor did we merely listen. We 
explained, we educated, and on occasion, we pounded the table.
    But then, abruptly in 2001, we stopped talking and, apparently, 
stopped listening. As a result, we have lost a decade in which to deal 
with the situation on the Korean Peninsula. Not only that, in the 
bargain we tossed overboard all that we had previously gained. As a 
result, the situation we face today is much more difficult, our 
leverage is smaller not greater, and our room for maneuver is even more 
curtailed. If there was a chance 10 years ago that we might have 
stopped the North from conducting nuclear tests and building a small 
nuclear arsenal--and I believe we did have a good chance--the game has 
now changed, and not in our favor.
    Let me be clear. Our problems dealing with North Korea are not 
confined to one administration or one party. In the deepest sense, they 
reflect our national inability, intellectually and emotionally, to 
understand how states like North Korea work. We fall into overly 
simplistic thinking. We trap ourselves into seeing only two dimensional 
figures. Our difficulties are compounded by the fact that public 
discourse about the North in the United States has long been crippled, 
condescending, irrelevant, and, like heartburn, episodic. There is a 
general impression in the United States that North Koreans live in a 
blasted landscape similar to the moon, and that all but a privileged 
few are hollow-eyed and slack-jawed. Any observer contradicting that 
image, even purely as a matter of fact, becomes suspect.
    The word has gone out that we and our allies aim to force the North 
to change its ``unacceptable behavior.'' We will not negotiate until 
the North creates the ``conditions'' for negotiations. If that is our 
goal, the climb is steeper than we imagine. Years ago, the North 
Koreans were taught, and the lesson has since been endlessly 
reinforced, that the world rarely rewards them for good behavior, 
because whatever they do is never deemed good enough. If they 
``behave,'' many North Koreans have become convinced that they will 
become part of the great power woodwork, something to be ignored and 
scuffed by the furniture on the way out.
    It is widely and confidently stated that North Koreans inhabit the 
most isolated country on earth. How one would measure such a thing I 
have no idea, but assuming it approaches the truth, then it must also 
be true that we are isolated from them. Isolation, after all, is a two-
way street.
    Yet, in fact, we are more isolated from the North Koreans than they 
are from the rest of the world. Though the numbers are small in 
comparison to what are now world standards, DPRK delegations are 
constantly traveling abroad. DPRK officials tune in outside radio and 
television, read outside books and newspapers detailing our politics 
and society. By contrast, at the official level, we keep ourselves 
largely pristine, don't go there, rarely let them come here, and 
overall keep contact as limited as we can on the grounds that exposing 
them to our thinking and our society, our culture and our values is a 
benefit, a present, a gift. No visas for the DPRK State Orchestra 
because . . . well, because. The result? The North Koreans reap 
tactical benefit from our ignorance, while we develop as a substitute 
for knowledge a fog of myths about them. And through this fog the North 
Koreans have learned to maneuver pretty well, like Drake's small ships 
among the galleons of the Spanish armada.
    Now that Pluto is no longer a planet, some people seem to think it 
has been replaced by North Korea in the universe of strange, cold, and 
distant places. As it happens, we could define Pluto out of existence. 
We cannot do the same with North Korea, even if at times our fondest 
hope is to hold our breath until the country goes away.
    Ultimately, progress toward our goals in dealing with North Korea 
depends not so much on the weight of the force we bring to bear--
sanctions, U.N. resolutions--but on how well we understand the North 
Korean regime and its views of domestic and foreign policy challenges. 
If we fail to grasp that North Koreans believe they have their own 
national interests, then we fall into the trap of thinking we can force 
them, sweet talk them, or bribe them into doing what we want.
    To return to my first point, diplomacy has proven it can work with 
North Korea if it seeks to discover those places where interests 
overlap. To the extent that we signal to the North Koreans that we 
don't see a place for them in our vision of the future of the region, 
we undermine the basis for realistic discussion of the circumstances in 
which we might coexist. Do, in fact, such areas of overlapping 
interests still exist? It is hard to imagine getting at an answer if we 
don't actually sit down and explore the landscape. Insisting that the 
North Koreans must first demonstrate a strategic decision to accept our 
outcome is a sure way of going nowhere fast.
    We don't have to know everything about the North to know enough to 
operate intelligently and effectively in our dealings with them. Here 
are five interrelated subjects on which a lot of homework remains to be 
done.
    The threat. Compared to where we used to be in our perception of 
the North Korean military threat, I think we are now on firmer ground, 
certainly more realistic. I applaud the careful assessment in DNI 
Clapper's testimony earlier this month, as well as recent comments on 
this subject by General Sharp, the Commander of U.S. Forces Korea. 
North Korea is largely in deterrent-defensive mode--militarily, 
diplomatically, and in every other way. That, indeed, has been the case 
for quite a while, and to the extent we can factor that into our 
calculations and our actions, I believe it more likely we can make 
progress in dealing with the North. At the same time, and this is 
crucial, we should not fool ourselves into thinking that we have the 
North in a box. They have teeth, and as we have seen, they will use 
them if they feel threatened or toyed with.
    The economy. Certainly within the memory of many people in North 
Korea, there was a time when the North was far ahead of China 
economically and was, to some extent, seen by parts of the Third World 
as a beacon of development. We tend to look at the North and see a 
country hopelessly backward; they see themselves as capable and modern 
thinking but down on their luck. They make occasional runs at fixing 
things. Whether they can actually sustain economic revitalization 
policies long enough to show results, I do not know. If history is a 
guide, they seem unlikely to get very far on that path without 
significant changes in how they formulate and apply such policies. 
Nevertheless, they know very well their economy is not doing well, and 
they are constantly looking for ways to do better. Again, taking this 
into account in our own approach can pay dividends. We're not talking 
here about ``bribes'' or a ``buyout,'' but rather using the North's own 
momentum and goals in a way the helps us achieve our own.
    The succession. At this point, there is no question that Kim Jong-
il's youngest son is being groomed and, more than that, moved into 
position as the successor. Chinese visitors have met him several times. 
I trust that we have asked them for their impressions of him. Given how 
grossly inaccurate early assessments by many outside observers were of 
Kim Jong-il, I would urge caution in accepting most of what appears in 
the press (or even official reporting) about the son's personality or 
potential. In the absence of very good information to the contrary, I 
wouldn't operate on the assumption that the succession will fall apart, 
especially if it has several more years to take root. It was an article 
of faith of many analysts and governments in 1994 when Kim Jong-il took 
over from Kim Il-sung that he wouldn't last a year. Nearly 17 years 
later, one hopes they have learned from their mistakes.
    The ``collapse.'' Anything is possible once the dam breaks in a 
society that has for years been under extremely tight political and 
social constraints, but I wouldn't put my money on the likelihood of 
near-term North Korean collapse. Yes, of course it makes sense to think 
about that possibility and to develop scenarios for dealing with such a 
contingency. In my view, however, it does not make sense to base a 
policy on the assumption that a collapse will happen soon--that is, in 
the next 2-3 years. Even those in South Korea normally anxious to 
portray the North Korean regime as fraying at the edges do not want to 
lean too far forward at this moment in predicting the likelihood that 
the uprising contagion from the Middle East will reach North Korea. One 
thing that ought to be of concern, if we are to look at scenarios, is 
the possibility that if and when serious social and political unrest 
ever arrives in the North, it will quickly descend into violence that 
could make Libya look like a tea party, dragging outsiders into a 
prolonged, bloody struggle for power.
    The role of China. One can get very cogent advice from any number 
of China experts. All I can say is that having watched Sino-North 
Korean relations for 30 years, my feeling is that many China experts 
tend to miss the point that Beijing views North Korea differently than 
how it views the rest of the world. Consequently, Beijing's policies 
toward the North often do not track with its broader foreign policy. 
Sino-Korean relations have had numerous ups and downs over the years. 
They are very warm right now, perhaps the closest they have ever been. 
They are unlikely to stay good forever, and we should not treat North 
Korea as if it is (nor should we want it to be) in China's pocket. But 
for several years to come, unless, South Korea or the United States do 
something to provide the North with an alternate future, the Chinese 
shadow over North Korea will grow more pronounced. Even if that 
translates into increased Chinese leverage over the North (which I tend 
to doubt), it doesn't mean we can breathe a sigh of relief.
    North Korea obviously isn't the jewel in the crown in Northeast 
Asia, but how the Korean issue is handled will probably be a decisive 
factor influencing the region for decades to come. The basic problem we 
face on the Peninsula today is a hangover from the first half of the 
20th century. It is, or ought to be, a constant reminder of policy 
missteps made many years ago by all sides.
    I'd hope we would spare a little time and effort to ensure we don't 
make similar mistakes again. As much as fires in the rest of the world 
and issues at home loom large, there is no reason for us, through 
inattention or ignorance, to sow the seeds of problems that could 
bedevil East Asia for a long time to come.

    Senator Lugar [presiding]. Mr. Flake, would you please 
proceed.

STATEMENT OF L. GORDON FLAKE, EXECUTIVE DIRECTOR, THE MANSFIELD 
                   FOUNDATION, WASHINGTON, DC

    Mr. Flake. Thank you, Senator Lugar. It's my honor to be 
here, as well.
    First, let me extend my compliments on the particular focus 
of this hearing. Rather than another kind of broad effort to 
understand the entirety of the North Korean conundrum, I think 
this focus on breaking out of the cycle of provocations is 
extremely useful, particularly given the fact that there has 
been a marked shift, over the last several years, that warrants 
the attention of our government and this committee in 
particular.
    I would start by talking a little bit about where we stand. 
The previous panel identified several specific recent North 
Korean provocations which have been the cause for our 
attention. But, I think if you step back and look at the last 2 
years alone in a broader context, there's a very disturbing 
trend.
    For example: In early 2009, you had a North Korean long-
range missile test and a North Korean nuclear test, both of 
which resulted in a very concerted response from the United 
Nations Security Council. If North Korea goes that route again, 
it's a pretty well-known and well-traveled road through which 
the international community will respond.
    Following that, there were notable inter-Korean incidents, 
including the killing of a South Korean tourist in the Diamond 
Mountain tourist zone; and in November 2009, what the South 
Koreans call the Battle of Daecheong, another ship-to-ship 
incident on the West Sea. In both of these cases the likely 
South Korean response now is quite clear. And so, in some 
respects, the door on those types of provocations are closed, 
as well.
    Of course, the events of last year are very well known. 
Without the option to confront South Korea ship-to-ship, the 
North Koreans proceeded to sink, in the dead of night, a South 
Korean Corvette, the Cheonan. We have now spent 6 or 7 months 
developing very strong antisubmarine warfare capabilities 
between the United States and South Korea. So, again, in some 
respects, that option is foreclosed to North Korea.
    And yet, the fallacy remains that we are somehow deterring 
North Korea when recent events would indicate that they're just 
moving on to the next provocation. In this context, something 
that nobody expected came completely out of the blue, the 
shelling of Yeonpyeong Island and the dramatic declarations of 
the week prior about North Korea's uranium enrichment program. 
Again events which shocked the world and put us in the 
situation where we are today.
    While recognizing that there has, at the same time, been a 
bit of a pendulum-swing between North Korean's inducements/
offers for talks, but also, at the same time, this gradual 
escalation, I think, again, that the focus of this particular 
hearing is very useful. How do you break that cycle of 
provocations, given the trajectory that we see right now?
    Rather than go down the rabbit's hole of trying to 
interpret North Koreans' intentions or explain why they do what 
they do, I think it's useful, in the short time I'm allotted 
today, to focus on what's different. What has changed in the 
region in particular vis-a-vis 2 or 3 years ago, that has 
either caused or perhaps enabled this recent escalation of 
North Korean provocations? I will make four short points in 
this regard.
    First and foremost, I think the influence of, and the role 
of, the United States in this cycle of provocations is less 
than we may want to think. There is a very compelling narrative 
which holds each North Korean action is somehow ``all about 
us,'' that they are reaching out to us, that they want talks 
for us. Unfortunately, if you look at the last 2 years, no 
matter what the action of North Korea, whether it is a charm 
offensive or an attack or a provocation of some other sort, 
they're always presumed to be influenced by the exact same 
motivating factor in North Korea, which is a desire to talk to 
the United States. I would think that domestic developments in 
North Korea, changes in inter-Korean relations, and changes in 
Chinese behavior have far greater explanatory power, in terms 
of understanding what is going on inside of North Korea right 
now.
    The second major point I would make in this regard is 
precisely that the primary driver of North Korean actions, 
statements, and provocations is domestic, inside North Korea. I 
think Dr. Noland will address some of that quite well, 
following my remarks. While my assigned focus on the regional 
picture doesn't allow me to dwell on this in depth, I would 
point out that the more North Korean actions are linked to 
domestic developments in North Korea, and the more they're 
linked, in particular, to the question of succession, the less 
influence we have on those, as the United States.
    As such, I think our time today is well served on focusing 
on those areas where we do have greater influence. And I will 
spend the bulk of my short time focusing on two developments in 
particular, those in South Korea and those in China.
    In that regard, the third point upon which I would focus is 
that the biggest change in the region, over the last 3 years in 
particular, has been a change in inter-Korean relations, and in 
particular a change in South Korean policy toward North Korea. 
We had 10 years of progressive governments in South Korea; two 
successive administrations who pursued a policy of sunshine and 
active--proactive engagement with North Korea, where they 
became a major source of fertilizer, of food, of economic 
assistance, and of outright cash. That policy has changed 
dramatically. And so, in many respects, I think what you see 
right now is that, after 3 years of a remarkably principled and 
consistent application of the Lee Myung-bak administration's 
approach to North Korea, you've seen North Korea vacillating 
back and forth between inducements or a charm offensive on the 
one hand, and on the other hand threats and outright 
provocations, in their openly stated attempt to break the Lee 
Myung-bak policy.
    The other factor that is related directly to South Korea 
has been a historic and commendable amount of close 
coordination and cooperation between the United States and 
South Korea, which also includes Japan as a United States ally. 
Secretary Campbell addressed this, but I think that that level 
of such coordination is historic. I think it has served us very 
well. Unfortunately, as we are consistent, that consistency 
itself has been a factor in the rising cycle of North Korean 
provocations, precisely because of that pendulum-swing. When 
one day inducements do not work, North Korea returns to 
provocations. I'm sorry to say that the failure of the North/
South military-to-military talks, at the preliminary level a 
couple weeks ago now, do not bode well for where we are going. 
In fact, just in the last 2 days, we've seen a new round of 
North Korean vitriolic and threats coming out. That pendulum-
swing, in some respects, is the very definition of the cycle. 
President Obama has repeatedly declared his intention to break 
that pattern of behavior. If we go back into negotiations in 
response to those threats, then obviously we're back in the 
cycle.
    I would argue, in some respects, for the last 2 years, and 
from--in the North/South perspective, for the last 3 years--
that we really have broken that cycle. That cycle, that Senator 
Kerry so eloquently described, of us going back into 
negotiations in response to this escalation, really hasn't 
taken place. But, in that refusal to go back to the cycle, 
there is the inherent risk of further escalations. And I think 
that is the situation we are facing right now.
    The final point I'll deal with, really, is what I think is 
perhaps the most important factor here, and the factor which 
has seen the biggest change. That is a change in Chinese 
behavior. If you look over the last 8 years, United States-
China cooperation on North Korea has been a major factor or a 
major selling point for the importance of the United States-
China relationship. During the bulk of the Bush administration 
and the early months of the Obama administration, such United 
States-China cooperation on North Korea was, again, a 
highlight. We cooperated very well in response to the missile 
tests in early 2009, and in the United Nations, in response to 
the nuclear test in early 2009, as well, agreeing, together, on 
a historic U.N. Security Council Sanctions Resolution in June 
15, 2009.
    Somehow, in the summer of 2009 or the early fall of 2009, 
that changed, in terms of China's perspective. And would argue 
that China, as a nation, has always had three ``no''s, in 
regarding North Korea: no collapse, no nukes, and no war. And 
they've always
tried to balance those three priorities in regards to the 
Korean Peninsula. But, beginning, I presume, with the questions 
of Kim Jong-il's health, his stroke, succession, economic 
problems in North Korea, Chinese leadership, I believe, has 
prioritized the question of ``no collapse.'' They are more 
concerned about collapse in North Korea than the other issues.
    As such, beginning in August 2009, China stopped 
cooperating with us actively on implementing sanctions 
resolutions. And, if you look over the last year and a half, 
they've been very proactive, in public, in their support of the 
North Korean regime. One immediate impact of that has been to 
encourage North Korea toward, I believe, further negative 
behavior.
    For example, even after the sinking of the Cheonan, the 
Chinese leadership decided to double down on their bet on North 
Korea. President Hu Jintao hosted Kim Jong-il, not just once, 
but twice, and Chinese officials very publicly argued that 
theirs was the appropriate approach. In late October, Chinese 
diplomats were almost smug in their discussions with me about 
the rectitude of their approach, saying that, because they had 
publicly backed Kim
Jong-il during this time of instability with a risk of 
collapse, that there had been no more nuclear tests, there had 
been no missile tests, and there had been no disruption of the 
G20 meetings in Seoul, in November.
    Unfortunately for that approach, November of last year was 
a very bad month. The North Korean revalation of a uranium 
enrichment program, their construction of a new light-water 
nuclear reactor, and the shelling of Yeonpyeong Island, I 
think, exposed to all the impotence of, and the 
counterproductive nature of, the Chinese approach.
    In a nutshell, I think that's a fundamental factor. That's 
something that is very different than was the situation 2 years 
ago. And that has to be addressed, as we look at how to break 
out of the cycle.
    Let me just wrap up very quickly by looking at some of the 
implications for policy. First and foremost, I would say that 
there's a need to stay the course. If we are out of the cycle, 
indeed, right now, then the continued emphasis on close 
coordination and cooperation with our primary allies in the 
region--in this case, South Korea and Japan--is the foundation 
upon which any other approach will go. Second, based on the 
strength of that approach, we have to continue to convince 
China that its actions have been counterproductive to the 
stability of the overall region; that by emphasizing overly on 
avoiding a collapse in North Korea, they have actually caused 
the risk of war in the region to go up, and actually let the 
North Korean nuclear program to develop to a degree that it 
should not have.
    Essentially, what we're asking China to do is, not to 
abandon its North Korean ally, but to recalibrate its 
prioritization.
    I must say that the events in the Middle East in the last 
several weeks probably have reinforced the negative behavior 
and negative perceptions in China. And so, I'm not overly 
optimistic that China will recalibrate its approach. I would 
say that if China does not do that, I think, just as the 
President has said and Secretary Campbell said today, it is 
incumbent upon the United States to make sure that we work 
closely with our ally to respond to the provocations as they 
come, again, as a way of breaking out of the cycle.
    The final point I will make is that I do think there is a 
wonderful roadmap for going forward, if we focus on it. During 
the summit meeting, between President Obama and President Hu in 
January of this year, there was only one paragraph in their 
joint statement which was dedicated to North Korea. But, in 
that one statement, three times they referenced the September 
19, 2005, Joint Statement of the Six-Party Talks. I think 
that's extremely helpful, because what it has done is define 
what ``denuclearization'' means, it has defined the parameters 
of the six-party talks, and it has defined precisely what you, 
Chairman Kerry, asked, in terms of: What are the basic 
requirements of what North Korea needs to do to come back to 
talks? I'm hopeful that such definition will lead us going 
forward.
    And I'll end my remarks there.
    Thank you.
    [The prepared statement of Mr. Flake follows:]

                 Prepared Statement of L. Gordon Flake

    BEYOND THE BILATERAL: UNDERSTANDING THE CHALLENGE OF NORTH KOREA
                         IN A REGIONAL CONTEXT

    One of the particular challenges in dealing with an opaque regime 
like North Korea is the difficulty in assessing the intentions or 
motivations behind particular policies or positions taken by the North 
Korean Government. Absent reliable information on North Korea's 
internal decisionmaking process, a common conceit in the United States 
is to assume that North Korean actions and statements are somehow ``all 
about us,'' motivated by and targeted to an audience in the United 
States. Given the asymmetry of U.S. power globally, such assumptions 
are not limited to U.S. dealings with North Korea. Yet in the absence 
of alternative explanations from Pyongyang, this narrative often holds 
sway as analysts, journalists, and government officials alike attempt 
to interpret the most recent North Korean provocation or charm 
offensive.
    The problem with this approach is that the conclusion drawn 
inevitably seems to be the same no matter what the North Korea action, 
and again it is all about us. Thus, North Korea's long-range missile 
tests and nuclear tests are purported to be attempts to force the 
United States into direct bilateral talks. Pyongyang's August 2009 
decision to divest itself of two imprisoned U.S. journalists for the 
price of having former President Clinton pick them up is likewise seen 
as a sign of outreach to the United States, as was the decision to turn 
over the unfortunate Ajalon Gomes to former President Carter in August 
2010.
    More recently, in early November 2010 when North Korea showed 
separate delegations from the United States evidence of construction on 
a new light-water nuclear reactor and a surprisingly sophisticated 
uranium enrichment facility, calls for the United States to resume 
negotiations with North Korea were both immediate and predictable. Even 
after North Korea shelled the South Korean coastal island of Yeonpyeong 
on November 23, 2010, in a drastic and highly provocative escalation of 
the longstanding inter-Korean tensions in the West Sea, some Americans 
persisted in interpreting this action in context of United States-North 
Korean relations. For example, former President Jimmy Carter authored a 
New York Times op-ed entitled ``North Korea Wants to Make a Deal'' \1\ 
following his August visit to Pyongyang. He again urged the U.S. to 
listen to ``North Korea's Consistent Message to the U.S.'' \2\ in a 
Washington Post op-ed that described the North's unprecedented 
provocation as ``designed to remind the world that they deserve respect 
in negotiations'' and repeated North Korea's insistence on ``direct 
talks with the United States.''
---------------------------------------------------------------------------
    \1\ http://www.nytimes.com/2010/09/16/opinion/16carter.html.
    \2\ http://www.washingtonpost.com/wp-dyn/content/article/2010/11/
23/AR2010112305808.html.
---------------------------------------------------------------------------
    Of course, there are alternate if equally improvable 
interpretations of North Korean intentions or the motivations behind 
North Korean actions and statements. Given the fact that North Korea 
has now repeatedly declared itself a nuclear power and declared its 
intent to develop nuclear deterrence as well as nuclear energy, its 
decision to test nuclear weapons and to construct both a light-water 
nuclear reactor facility and a uranium enrichment facility might more 
logically be understood in the context of North Korea's stated 
intentions and goals. The notion that ``all politics is local'' is not 
only applicable to democracies. The Democratic People's Republic of 
Korea (DPRK) has made ample use of its nuclear tests and status in its 
internal propaganda and there is increasing evidence to suggest that 
with the continued decline of its conventional military capacity, 
chronic food shortages, and a moribund economy, the legitimacy of the 
Kim regime is increasingly tied to its nuclear status. This should 
weigh heavily on the decades-old debate as to whether the North Korean 
nuclear program is primarily--or at this point even possibly--a 
bargaining chip.
    In addition to such domestic factors, North Korean actions are also 
far better understood in the context of the DPRK's more immediate 
relationships with its primary patron China and its chief rival, the 
Republic of Korea (ROK). Given the priority that China has placed upon 
the moribund six-party talks, it would be foolish not to interpret 
North Korea's reluctant references to the possibility of returning to 
such talks squarely in the context of Chinese demands. Likewise, given 
the relatively dramatic shift in South Korea's policy toward its 
northern neighbor after a decade of ``sunshine'' (during which the 
Government in ROK was a major source of food, fertilizer, and capital 
for the DPRK), many of Pyongyang's actions and statements are better 
explained by such immediate concerns than by any aspirations it might 
have vis-a-vis the United States. Accordingly, this testimony focuses 
primarily upon the regional context of recent North Korean actions and 
upon the importance of a regional approach to responding to 
developments in North Korea, regardless of their nature or direction. 
While Japan and Russia have and continue to play important roles 
related to North Korea and the six-party talks, this testimony focuses 
primarily on changes in South Korea and in China that are most directly 
related to the current cycle of North Korean provocations.

              PENINSULAR PRIMACY: THE INTER-KOREAN DYNAMIC

    The country with the most interest--and the most to lose--in 
increased tensions with North Korea is undeniably its neighbor to the 
south, the Republic of Korea. Changing political dynamics in South 
Korea are also one of the most important factors in understanding the 
changed inter-Korean political relationship. After the better part of 
four decades of inter-Korean relations defined primarily by ongoing 
hostility and deterrence, South Korea's policy toward the North shifted 
dramatically after the costs of German unification became readily 
apparent. Beginning with the inauguration of the Kim Dae-Jung 
administration in 1998, South Korea began to pursue a policy of 
``peaceful coexistence'' with North Korea. This was followed by a 
policy of proactive engagement which was primarily manifest by the 
rather one-sided provisions of South Korean investment, fertilizer, and 
humanitarian aid to North Korea. This approach was initially intended 
to affect change in North Korea in the manner of Aesop's famed fable of 
``The North Wind and the Sun.'' However, over the next decade the 
primary objective of ROK policy toward North Korea, particularly during 
the Roh Moo-hyun administration, apparently shifted to one of ensuring 
stability in North Korea--at least in the short run.
    While the South Korean Presidential election of 2007 was primarily 
a mandate on the management style and failings of the Roh 
administration, it was also somewhat of a referendum on President Roh's 
policy toward North Korea. Still, President Lee Myung-bak entered 
office espousing a long-term vision for inter-Korean relations that 
included significant South Korean investment in North Korea and a 
stated goal of dramatically increasing North Korean per capita GNP. 
This approach, however, was premised on changes on North Korean 
behavior, particularly on progress toward denuclearizing North Korea, 
an issue that had gained renewed salience following North Korea's 
October 9, 2006, test of a nuclear device. In practice, President Lee's 
policy was a sharp departure from that of his predecessors. The 
President and his advisers more openly raised issues such as North 
Korean human rights, participated in international efforts to curb 
North Korea's illicit activities, and changed they manner in which they 
handled development and humanitarian aid--all changes that were very 
unwelcome in Pyongyang.
    In another respect, President Lee's approach to North Korea was at 
least in part a reflection of changing South Korean attitudes toward 
Pyongyang. Not only was there a growing sense that South Korea's decade 
of largess was unappreciated and unreciprocated, but during the first 
years of the Lee administration, a series of North Korean actions 
further influenced underlying South Korean public opinion and as a 
result Seoul's policy toward the North. On July 11, 2008, North Korean 
soldiers shot a South Korean tourist in the back at the Diamond 
Mountain resort. North Korea's subsequent refusal to engage in a joint 
investigation of the incident led to a shuttering of the Hyundai-Asan 
operated tourist zone. The fact that this event took place in the 
context of a North Korean long-range missile test and nuclear test on 
April 5 and May 25, 2009, respectively, further hardened South Korean 
public opinion. Despite these and subsequent events, South Korea has 
yet to pull its support from the Kaesong Industrial Complex, however 
the detention of a South Korean employee for 137 days during the summer 
of 2009 further colored South Korean views of that project and the 
prospects for engagement with North Korea. Tensions again rose in the 
West Sea with a naval altercation \3\ South Korea calls the ``Battle of 
Daecheong'' on November 10, 2009. This resulted in severe damage of a 
North Korean patrol boat and North Korean threats of retaliation, which 
may have found their realization in the sinking of the South Korean 
corvette the Cheonan on March 26, 2010.
---------------------------------------------------------------------------
    \3\ After nearly 50 years of relative quiet on the West Sea, in 
mid-1999 North Korea began a concerted effort to challenge the Northern 
Limit Line (NLL), which it has never officially recognized, but which 
has served as a de facto maritime border since the signing of the 
armistice. Of the many subsequent naval clashes along the NLL, it is 
worth noting that both the first and second ``Battle Yeonpyeong'' (June 
15, 1999, and June 29, 2002) occurred despite the ROK's then-engagement 
policy toward the North.
---------------------------------------------------------------------------
    While the sinking of the Cheonan and the tragic loss of 46 South 
Korean sailors shocked the South Korean public, initial uncertainty 
about the cause of the tragedy, the lengthy investigation, the fact 
that the incident took place out of sight and at night, and the fact 
that the initial findings of the investigation were announced shortly 
before South Korean local elections all served to make this particular 
incident politically divisive within South Korea. That was not the case 
with the November 23, 2010, shelling of Yeonpyeong Island. The North 
Korean artillery barrage took place in broad daylight, and if a picture 
is worth a thousand words, live video must certainly be worth many 
times more. Real time images of columns of smoke streaming skyward from 
the island as panicked refugees fled the scene served to affect the 
most fundamental shift in South Korean public opinion toward North 
Korea in over a decade. Suddenly President Lee Myung-Bak who in some 
circles was still considered to be a hard-liner was accused of failing 
to protect the nation and threatened with impeachment by some members 
of his party. President Lee, whose apparent first instinct and first 
statements focused on avoiding an escalation of the crisis, was 
gradually pushed by public outrage to revise the rules of engagement 
and to state clearly that any future such incidents would be met with a 
considerable show of force.
    In this political context tensions on the Korea Peninsula rose 
dramatically in December 2010 with South Korea's decision to proceed 
with further live-fire exercises in the area surrounding Yeonpyeong 
Island in the face of North Korean threats to retaliate. While these 
exercises as well as joint U.S. and South Korean naval exercises went 
forth without immediate North Korean retaliation, it is useful to 
remember that North Korea's retaliation does not always take place at a 
time and place of the allies' choosing and tensions on the peninsula 
remain high. If the sinking of the Cheonan was indeed the promised 
North Korean response to the Battle of Daecheong 5 months earlier, U.S. 
and South Korean defense planners would be wise to watch for a 
similarly out of the blue, seemingly unprovoked response to Seoul's 
decision to continue its live-fire exercises in the face of North 
Korean threats.
    Perhaps encouraged by Chinese pressure in advance of President Hu 
Jintao's January visit to Washington, Pyongyang began this year with 
calls for ``unconditional'' talks with South Korea. On the surface, 
this would seem to be a welcome development, particularly following the 
tensions surrounding the shelling of Yeonpyeong Island last November. 
However, even if one is inclined to take such diplomatic overtures from 
North Korea at face value, this offer is anything but 
``unconditional.'' To begin with, an unspoken condition of such talks 
was that South Korea ignore what were by almost any measure two recent 
acts of war by North Korea. Absent any reference to its actions, the 
North Korean offer of talks seems less like a sincere offer for 
negotiations and more like an attempt to cause political divisions in 
South Korea by casting itself as the willing party and the Lee Myung-
bak administration as the obstacle to diplomacy.
    The content of the talks proposed by North Korea provides further 
indication of its intentions. In the initial North Korean offer, there 
was scant mention of security issues, military-to-military dialogue, or 
North Korea's nuclear program. Instead, Pyongyang proposed to talk 
about economic cooperation with a transparent objective of seeking to 
renew the flow of South Korea aid and the cash that accompanied past 
cooperation. What North Korea has to gain from such talks is obvious, 
the benefit for South Korea is less clear. Even during the decade of 
engagement and summitry under two successive progressive governments in 
South Korea, Pyongyang steadfastly resisted recognizing South Korea as 
a legitimate partner for a meaningful dialogue on security issues on 
the peninsula including the armistice, a potential peace agreement, or 
North Korea's nuclear program.
    In this context, North Korea's mid-January 2011 proposal for high-
level military-to-military talks with the South was certainly a 
positive development. Given the events of the preceding months, South 
Korea responded cautiously and proposed preparatory talks in early 
February that broke off amidst mutual recriminations. Of note, the 
question of North Korea's nuclear program was not on the agenda, and 
South Korea's attempts to ensure that the Cheonan and Yeonpyeong Island 
incidents were on the agenda for the senior-level meeting appears to 
have been the primary area of dispute and the cause for breakdown of 
the talks. Despite the apparent stalemate, South Korean officials have 
repeatedly stated that an apology for the incidents is not a 
precondition nor is it formally linked to the resumption of six-party 
talks. While President Lee himself has repeatedly and recently 
emphasized his desire for talks with the North and resumption of the 
six-party talks, in the short-term progress on that front appears 
unlikely.
    South Korea's changing approach to North Korea has also had a 
direct impact on United States-South Korean relations and upon the 
United States ability to coordinate its own policies toward North 
Korea. For example, much of the political difficulties experienced 
between Washington and Seoul during the tenure of President Roh Moo-
hyun can be attributed to what were then rapidly diverging threat 
perceptions regarding North Korea. Over the past 3 years, due in part 
to the laundry list of provocations noted above, there has been a 
dramatic reconvergence in U.S. and ROK perceptions of North Korea. This 
alone, however, cannot explain the dramatic improvement in United 
States-ROK relations. The improvement began with the election of 
President Lee during the last year of the Bush administration and 
accelerated dramatically given the high priority the incoming Obama 
administration placed upon prior consultation and coordination with its 
ally Seoul on all matters regarding North Korea. The June 19, 2009, 
Joint Vision Statement for the U.S.-ROK Alliance \4\ is a historic 
document. This, along with the Korea U.S.-Free Trade Agreement, the ROK 
role in and hosting of the G20, and its role in and hosting of the next 
Nuclear Security summit, lends substance to the claim that United 
States-ROK relations are the best that they have ever been.
---------------------------------------------------------------------------
    \4\ http://www.whitehouse.gov/the_press office/Joint-vision-for-
the-alliance-of-the-United-States-of-America-and-the-Republic-of-
Korea/.
---------------------------------------------------------------------------
    The result of this convergence has been a remarkably principled, 
consistent, and well-coordinated policy between Seoul, Washington, and 
Tokyo in regards to North Korea. Historically both the U.S. and ROK 
approaches toward North Korea have vacillated, while North Korea has 
remained relatively consistent in its demands and intransigence. The 
inevitable failure of one approach has led successive democratic 
governments in both Seoul and Washington to try different approaches at 
different times over the past two decades. One need only contrast the 
vastly different approaches to North Korea during the first and second 
term of the Bush administration for evidence of this tendency.
    Ironically, one of the most immediate causes of the most recent 
cycle of North Korean provocations may be the consistent and 
coordinated approach with which the Obama and the Lee administrations 
have responded to North Korea. President Obama has repeatedly framed 
the joint United States-ROK approach in the context of the need to 
``break the pattern'' of responding to North Korean provocations with 
concessions and talks that do not make progress on core issues at hand. 
In response, it is North Korea that has vacillated between threats, 
inducements, provocations, charm offensives, and outright attacks in 
their attempt to force or cajole the U.S. and South Korea to abandon 
their current approach. While this approach may portend further 
tensions in the months ahead, to abandon principles at this point would 
be to surrender to the cycle.

                        CHINA: PARTNER OR PATRON

    While somewhat simplistic, one way to understand Chinese priorities 
in North Korea is to focus upon the more negative scenarios that China 
clearly hopes to avoid on the peninsula. There are the three ``no's''--
no nukes, no collapse, and no war. China has long sought to balance 
what have oftentimes been competing priorities in this regard. For the 
better part of the past 8 years cooperation on addressing the 
challenges posed by North Korea and in particular the North Korean 
missile and nuclear programs has been a highlight of United States-
China cooperation. A perfunctory review of official U.S. statements 
regarding China during the bulk of the Bush administration and the 
early months of the Obama administration will turn up a veritable 
mantra highlighting the importance of the United States-China 
relationship in working together on North Korea. Indeed, in the early 
months of the Obama administration, United States-China cooperation on 
North Korea reached its arguable peak as, despite their initial 
misgivings, China supported a strongly worded Presidential statement at 
the U.N. Security Council in response to North Korea's testing of a 
long-range missile. Shortly thereafter, on June 12, 2009, China signed 
on to the most meaningful sanctions resolutions on North Korea to date, 
UNSC 1874.
    While the exact cause of the shift is as of yet unknown, after 
initially cooperating with the United States and the international 
community in implementing these sanctions, beginning sometime around 
the early fall 2009 there appears to have been a marked shift in 
Chinese priorities and views on how best to address the North Korean 
problem. Not only did they scale back their cooperation on implementing 
the U.N. Security Council sanctions, but they also began to be overtly 
and actively supportive of the Kim Jong-il regime. One possible 
explanation is that given the concern over North Korean leader Kim 
Jong-il's health, the uncertainties surrounding the succession process 
in North Korea, and evidence of ongoing economic turmoil in North 
Korea, the Chinese leadership felt it necessary to place a higher 
priority on its objective of avoiding collapse in North Korea. Stepped-
up Chinese support for North Korea continued over the fall, and even 
when faced with the sinking of the Cheonan in March 2010, the Chinese 
leadership decided to double their bet on the Kim Jong-il regime rather 
than altering course. Chinese President Hu Juntao met with Kim Jong-il 
not just once but twice in the aftermath of the Cheonan sinking and 
China repeatedly refused to hear evidence on or except conclusion that 
North Korea was responsible for this tragic event. As recently as 
October 2000 Chinese officials were almost smug in their assessment of 
the rectitude of their approach, noting with some satisfaction that 
since China had begun to seek an easing of pressure on North Korea and 
had become more overt in their backing for the Kim Jong-il regime, 
North Korea had not tested another nuclear weapon, had not tested 
another long-range missile and had not disrupted the G20 meetings with 
President Hu in Seoul.
    This defense of the Chinese approach unraveled dramatically in 
November 2010 when in quick succession North Korea announced that it 
had begun construction of light-water nuclear reactor and showed a 
visiting U.S. delegation what appeared to be a uranium enrichment 
facility replete with 2000 centrifuges in three different cascades and 
what appeared to be highly sophisticated modern control facilities. 
These were both developments that were clearly in violation not only of 
three different sets of standing U.N. Security Council sanctions 
resolutions, but more specifically in violation of the September 19, 
2005, joint statement of the six-party talks. These disturbing 
revelations were then capped by the North Korean shelling of 
Yeongpyeong Island, an act that killed two South Korean marines and two 
South Korean civilians. While North Korea claimed that its artillery 
barrage was in response to a South Korean live-fire exercise in the 
area earlier that morning, the shelling of the South Korean island 
marks the first time since the end of hostilities in the Korean war 
that artillery shells were fired and landed upon South Korean. Despite 
the dramatic and shocking nature of these activities, China once again 
prevaricated and called for calm on all sides.
    It is notable that over the period of shifting Chinese priorities 
in regards to North Korea there has also been a shift in U.S. views of 
China's role, beginning with disappointment over Chinese implementation 
of UNSC sanctions resolutions that China has voted for. By the summer 
of 2010 these concerns were expressed as criticisms of China's willful 
ignorance of North Korean behavior. U.S. views shifted further still 
following the most recent revelations regarding North Korea's nuclear 
program and its November artillery barrage. China was openly accused of 
``enabling'' North Korean bad behavior--the implication being that 
China's decision to shield North Korea from the consequences of its 
actions was at least in part responsible for the continuation of such 
provocations. Secretary of State Clinton perhaps said it best when, 
immediately prior to the Obama-Hu summit, she openly questioned whether 
China's failure to respond to the sinking of the South Korean corvette 
was not in some way responsible for the North Korean willingness to go 
forward with its artillery barrage: ``We fear and have discussed this 
in depth with our Chinese friends, that failure to respond clearly to 
the sinking of a South Korean military vessel might embolden North 
Korea to continue on a dangerous course. The attack on Yeonpyeong 
Island that took the lives of civilians soon followed.'' \5\ In short, 
after the better part of a decade of being viewed as part of the 
solution to North Korea there is a growing concern that absent a 
readjustment of its priorities, China is increasingly part of the 
problem.
---------------------------------------------------------------------------
    \6\ http://www.theglobeandmail.com/news/world/americas/prepared-
text-of-clintons-speech/article1870858/.
---------------------------------------------------------------------------
    In this context, there was particular importance placed upon the 
January summit meeting between President Obama and Chinese President Hu 
Jintao. While there were obviously many issues to be addressed in the 
summit meeting given the risk of conflict on the Korean Peninsula and 
the proximity of recent attacks, it is safe to presume that North Korea 
was a high priority in discussions. While for his part President Hu 
could not muster a willingness to even mention North Korea by name--
preferring instead to refer obliquely to the ``Korean Peninsula issue'' 
or the ``Korean nuclear problem''--there was some evidence of progress, 
at least in examining how the issue was framed.
    While it may seem arcane, there is some cause for optimism to be 
found in the single paragraph of the joint statement issued by 
President.

          The United States and China agreed on the critical importance 
        of maintaining peace and stability on the Korean Peninsula as 
        underscored by the joint statement of September 19, 2005, and 
        relevant U.N. Security Council Resolutions. Both sides 
        expressed concern over heightened tensions on the Peninsula 
        triggered by recent developments. The two sides noted their 
        continuing efforts to cooperate closely on matters concerning 
        the Peninsula. The United States and China emphasized the 
        importance of an improvement in North-South relations and 
        agreed that sincere and constructive inter-Korean dialogue is 
        an essential step. Agreeing on the crucial importance of 
        denuclearization of the Peninsula in order to preserve peace 
        and stability in Northeast Asia, the United States and China 
        reiterated the need for concrete and effective steps to achieve 
        the goal of denuclearization and for full implementation of the 
        other commitments made in the September 19, 2005, joint 
        statement of the six-party talks. In this context, the United 
        States and China expressed concern regarding the DPRK's claimed 
        uranium enrichment program. Both sides oppose all activities 
        inconsistent with the 2005 joint statement and relevant 
        international obligations and commitments. The two sides called 
        for the necessary steps that would allow for early resumption 
        of the Six-Party Talks process to address this and other 
        relevant issues.\6\
---------------------------------------------------------------------------
    \6\ http://www.whitehouse.gov/the-press-office/2011/01/19/us-china-
joint-statement.

    In that short statement the September 19, 2005, joint statement of 
the six-party talks was mentioned three times. Such a reference to an 
obscure unimplemented agreement of talks that increasingly appeared 
defunct may seem a bit odd. However, one of the fundamental challenges 
of dealing with North Korea has been its frequent and continued 
assertion that it is a nuclear power and must be dealt with as such. 
When North Korea makes vague references to its support of 
denuclearization, its definition of denuclearization should be 
clarified and challenged. The apparent North Korean interpretation is 
that, as a nuclear power and an equal with the United States and the 
other nuclear powers in the world, it is willing to discuss the 
denuclearization of the Korean Peninsula, including the removal of the 
U.S. nuclear umbrella, the end of the United States-ROK alliance, and 
overall global disarmament of other nuclear powers' positions. This 
interpretation understandably is not acceptable to the United States, 
China, any other member of the six-party talks, or ostensibly any other 
signatory of the Nuclear Nonproliferation Treaty (NPT) (from which 
North Korea is the only country in history to withdraw). As such, a 
clear reference to the September 19, 2005, joint statement in which 
North Korea committed to ``abandoning all nuclear weapons and existing 
nuclear programs and returning, at an early date, to the Treaty on the 
Non-Proliferation of Nuclear Weapons and to IAEA safeguards'' \7\ helps 
set a clear definition of what the U.S. and China now jointly mean when 
we refer to ``denuclearization'' including the denuclearization of the 
Korean Peninsula. Related to this is the question of the parameter of 
the six-party talks. With the September 19 joint statement the six-
party talks are now more than format, but also have function and 
content. Given that in the joint statement ``the six parties 
unanimously reaffirmed that the goal of the six-party talks is the 
verifiable denuclearization of the Korean Peninsula in a peaceful 
manner,'' by focusing upon this joint statement the U.S. and China once 
again jointly defined the parameters of--and indirectly a core 
requirement for--the resumption of the six-party talks. Also of note, 
the January 19, 2011, Obama-Hu joint statement also placed U.S. and 
Chinese ``concern regarding the DPRK's claimed uranium enrichment 
program'' clearly in the context of the September 19, 2005, joint 
statement.
---------------------------------------------------------------------------
    \7\ http://www.state.gov/p/eap/regional/c15455.htm.
---------------------------------------------------------------------------
    Despite what appears to have been some progress during the January 
summit, there is at present some frustration at China's apparent 
refusal to allow the U.N. Security Council to take up the question of 
the North Korea uranium enrichment program. Given the clarity of this 
issue and its importance to the broader objective on denuclearization, 
China's current position is if anything difficult to understand and 
will be a key indicator of China's role going forward.
    Few analysts realistically expect China to abandon its erstwhile 
North Korean ally or to be proactive in putting major pressure on 
Pyongyang. However, at a minimum it is reasonable to expect China to 
recalibrate its position to make sure that it recognizes that in the 
process of trying to avoid collapse in North Korea, its approach to 
North Korea is actually increasing the risk of conflict and the 
likelihood of the further advancement of North Korea's nuclear program. 
At this point the key contribution China could make toward helping 
break the cycle of North Korean provocations would be to simply stop 
shielding North Korea from the consequences of its actions. In no small 
part, the current cycle of North Korean provocations has been abetted 
by, if not encouraged by, apparently unconditional support from China.

                               CONCLUSION

    The particular focus of this hearing is helpful in that it 
distinguishes between the much longer term task of solving the myriad 
issues related to North Korea and its inherent insecurity and the more 
immediate task of breaking free of the current cycle of North Korean 
provocations. Any effort to seriously address the recent cycle of North 
Korean provocations must begin with an attempt to understand the root 
causes of North Korean actions.
    Although these causes cannot be fully addressed in this testimony, 
there is disturbing evidence that suggests that much of the current 
crisis in North Korea is related to internal developments inside North 
Korea. Following Kim Jong-il's apparent stroke in 2008, the process of 
succession planning in North Korea appears to have been rushed. Given 
the multitude of economic, societal, and security challenges faced by 
the current regime in North Korea, the prospects for a smooth 
transition to a third generation of Kims appears daunting. As much as 
recent North Korean provocations are directly related to the succession 
and the internal situation within North Korea, they may simply be 
beyond our control. Just as recent events in the Middle East have 
demonstrated the limits of American influence, even in countries where 
we have overriding national security interests, so too are there very 
real limitations on our ability to directly influence ongoing dynamics 
within Pyongyang.
    However, given that the primary context--and in some cases 
facilitation--of many recent North Korean actions lies firmly in the 
countries bordering North Korea, understanding this dynamic and working 
together with American allies and other partners in the region offers 
the best hope of breaking the cycle of North Korean provocations.
    On a regional level, there are two factors most directly related to 
North Korea's most recent cycle of provocation. First and foremost is 
the change in South Korean policy toward the North, which now deprives 
the North of key inputs to its economy and government upon which the 
DPRK had come to rely. Related to this factor is, of course, the 
remarkably well-coordinated approach between the United States, South 
Korea and Japan and the consistency with which this approach has been 
applied in response to North Korean actions. In some respects, the 
pendulum swing of North Korean provocations and diplomatic initiatives 
is an indication of the success of this approach. Perversely, however, 
if the United States and its allies are serious about ``breaking the 
pattern'' of North Korean negotiating behavior, there are inherent 
risks of escalation and miscalculation related to that approach.
    The best way to mitigate such risks is to ensure as close as 
possible coordination with all other partners in the region. Here lies 
the second factor related to the current escalatory cycle--China's 
increased support for Pyongyang despite North Korean actions. This is 
not to shift full responsibility to China or to imply that China has 
either the will or the capacity to somehow ``solve'' the North Korean 
problem. But in the current context there is ample evidence to suggest 
that China's efforts to avoid the downside risk of instability in North 
Korea are at least in part responsible for enabling recent North Korean 
provocations, thereby increasing the risk of conflict. China's 
disproportionate focus on internal stability in North Korea has made a 
challenge related to North Korea's nuclear program infinitely more 
complex.
    China has already clearly demonstrated that, left to its own 
devices, it is prepared to tolerate, if not actively support, the North 
Korean regime despite the downside risks as long as it can avoid 
instability. This is a tendency within China that is likely stronger 
today after the dramatic events of the past month in the Middle East.
    The question is thus how best might the United States and its 
allies influence Chinese decisionmaking. While there is no easy answer, 
the importance of a unified approach cannot be overstated. The U.S. and 
its allies must continue to as clearly as possible make the case to 
China that North Korea's actions are detrimental to the stability of 
the region and to China's own strategic national interests. As long as 
China is not willing to cooperate and continues to shield North Korea 
from the consequences of its actions, the U.S. and its allies should 
make clear that they must prepare to respond to likely future North 
Korean provocations outside of the context of coordination with China, 
a scenario which is in no one's interest.
    While this conclusion may appear stark, it is also firmly grounded 
in the political realities of a crisis with North Korea that appears to 
offer fewer options with each passing day. For example, a fundamental 
precondition for resumption of the six-party talks is a willingness on 
North Korea's part to abandon its assertion that it is a nuclear power. 
In their January 19 joint summit statement, President Obama and 
President Hu rightly defined that precondition as adherence to the 
September 19, 2005, joint statement of the six-party talks. Put simply, 
if China continues to bolster the North Korean regime, there is little 
hope that North Korea will make the minimum necessary compromises for 
resumption of meaningful dialogue. At the same time, given the severity 
of the acts perpetrated against South Korea, the United States cannot 
help but be supportive of its allies, and the underlying fact remains 
that it is impossible to conceive of progress in the six-party talks 
framework or even in a bilateral United States-North Korea talks absent 
meaningful progress in North-South relations.
    In this process it is always useful to step back and remember that 
the United States fundamental strategic interests in Northeast Asia are 
the peace, prosperity, and economic progress of the region as a whole. 
In some respects, North Korea is best understood as the hole in the 
Northeast Asian donut. Our first priority is rightly placed on 
strengthening our alliance relationships in the region. Based upon a 
foundation of strong relations with Japan and Korea, the United States 
has considerably more influence with China and Russia than it would 
have otherwise. Likewise, the United States and its allies have a 
shared interest in ensuring that no matter what happens in North 
Korea--whether it collapses, instigates further conflict or, more 
hopefully, chooses a different path--that North Korea does not become 
an issue of contestation or conflict in the region more broadly.

    The Chairman [presiding]. Thank you very much.
    Dr. Noland.

   STATEMENT OF DR. MARCUS NOLAND, DEPUTY DIRECTOR, PETERSON 
     INSTITUTE FOR INTERNATIONAL ECONOMICS, WASHINGTON, DC

    Dr. Noland. Thank you. It's an honor to appear before this 
committee this morning.
    I have provided a written statement to be entered into the 
formal hearing record.
    I would like to make four basic points.
    The growing centrality of markets in the North Korean 
economy over the past two decades is primarily due to state 
failure, not proactive reform.
    The market is emerging as a semiautonomous zone of social 
communication and potentially political organizing. And, on its 
own terms, the state is right to fear the market. It's this 
fear of the market that prevents the North Korean authorities 
from embracing the sorts of economic reforms that would allow 
them to address their chronic food problems, which appear to be 
worsening.
    One aspect of the economy's unplanned marketization has 
been the substantial growth in cross-border exchange, 
particularly with China, which now accounts for a rising share 
of North Korean trade. China, however, appears utterly 
uninterested in implementing sanctions in response to North 
Korean provocations.
    The tragedy of North Korea is, the government is almost 
wholly unaccountable for its manifest failures, and has an 
almost unlimited capacity for inflicting misery on its people. 
Under such circumstances, conditional on agreement on 
procedural protocols, resumption in humanitarian aid is 
warranted. It is reasonable, however, to require greater policy 
conditionality on broader forms of engagement.
    While attention is understandably focused on the high 
diplomacy of the nuclear issue, it's worthwhile to examine what 
is going on beneath the surface, as well. Research derived from 
large-scale surveys of refugees, as well as surveys of Chinese 
businesses doing business in North Korea, document a society 
characterized by growing inequality, criminality, and 
corruption. A significant share of the North Korean population 
has effectively delinked from the state and now exists in a 
kind of Hobbesian market economy.
    And, paradoxically, while the state provides increasingly 
meager benefits to its population, contact with the state 
apparatus has grown ever more intimate. The government has 
undertaken legal code changes, which have effectively 
criminalized much of daily economic life, and facilitated the 
use of the penal system for extortion. In addition to its 
traditional role as an instrument of political repression, the 
penal system now serves as a mechanism for economic predation 
on the population, as well.
    North Koreans have increasing access to foreign media 
sources. And, importantly, inhibitions against consuming 
foreign media have disappeared. As a consequence of obviously 
self-inflicted catastrophe, such as the failed currency reform, 
as well as increasing exposure to foreign media, the regime's 
meta-narrative, which ascribes all the country's problems to 
hostile foreign forces, is increasingly disbelieved. But, the 
society remains atomized and characterized by low levels of 
trust. While discontent is almost surely widespread, there 
appears to be an almost complete absence of civil society 
institutions capable of channeling that dissent into effective 
political action. And while overt demands for political change 
go unarticulated, the state retains a massive apparatus to 
compel compliance.
    North Korea experienced a famine in the 1990s that killed 
perhaps 3 to 5 percent of the population, and has experienced 
chronic food shortages since. At present the food situation 
appears to be deteriorating as a result of an expected decline 
in domestic harvests, together with North Korean provocations 
and rising world food prices, which have contributed to a 
reduction in both aid and commercial imports. Prices are rising 
rapidly, internally, and a consortium of U.S. NGOs has now 
produced a firsthand assessment, which documents acute 
malnutrition among children and low-birth-weight newborns.
    The North Korean Government has never exhibited any real 
buy-in to the norms of humanitarian assistance, as practiced 
elsewhere around the world, and establishing acceptable terms 
for a humanitarian aid program remains an ongoing challenge.
    Historically, North Korea's international trade was small 
and politically determined. But, a byproduct of the famine and 
the unplanned marketization of the economy has been an 
expansion of decentralized trade, particularly with China, 
which in 2009 accounted for approximately 35 percent of North 
Korean trade, a figure that is likely to rise in 2010, once the 
data are available.
    As in the case of the domestic market economy, the North 
Korean regime does not appear entirely comfortable with this 
phenomenon of decentralized border exchange. And the government 
appears to be attempting to execute a highly controlled 
opening, in which North Korean state organs would engage in 
cross-border commerce with China, but activities not controlled 
by the state would be quashed. And, as I indicated earlier, the 
Chinese have shown no interest in enforcing U.N. sanctions on 
North Korea.
    North Korea's chronic food insecurity once again appears to 
be worsening. Externally, the country is increasingly relying 
on China, which is reluctant to sanction North Korea in 
response to its provocations. The regime faces a looming 
succession, driven by Kim Jong-il's age and health. Surveys 
document widespread discontent among the North Korean people, 
but also a dearth of civil-society institutions capable of 
channeling that mass discontent into constructive political 
action.
    Access to information plays an essential political role. 
Connecting individuals to the outside world serves a crucial 
function of undermining state propaganda, thereby encouraging 
the government to respond to a more informed public. In this 
context, the market represents a zone of personal autonomy and 
freedom. We should be promoting its expansion through a process 
of engagement, but engagement with our eyes open. The goal 
would be not only to address North Korea's chronic material 
needs, but to also encourage economic and political evolution 
in constructive directions.
    Information and markets alone will not immediately 
transform the North Korean regime. But, they are a start. The 
expansion of the market internally, exposure of more North 
Koreans to new sources of information, new ways of doing 
business and organizing their lives, even exposure to foreign 
countries, will foster conditions amenable to the North Korean 
people exerting greater constraints on the behavior of what is 
now an effectively unaccountable regime.
    Thank you.
    [The prepared statement of Dr. Noland follows:]

                Prepared Statement of Dr. Marcus Noland

    The North Korean regime resembles a surfer attempting to maintain 
his balance on top of a changing, unstable foundation. While attention 
has understandably focused on the nuclear issue, it is worthwhile to 
examine the wave as well as the surfer to understand how the ride may 
end.
    I would like to make three basic points:

  <bullet> The growing centrality of markets in the North Korean 
        economy over the past two decades is primarily due to state 
        failure, not proactive reform. The market is emerging as a 
        semiautonomous zone of social communication and, potentially, 
        political organizing. On its own terms, the state is right to 
        fear the market.
  <bullet> This fear of the market prevents the North Korean 
        authorities from embracing economic reforms that would allow 
        them to address their chronic food problems, which appear to be 
        worsening.
  <bullet> One aspect of the economy's unplanned marketization has been 
        a substantial growth in cross-border exchange, particularly 
        with China, which accounts for a rising share of North Korean 
        trade. China appears utterly uninterested in implementing 
        sanctions in response to North Korean provocations. In turn, 
        North Korean authorities are attempting to recentralize trade, 
        eliminating the decentralized market-oriented participants, and 
        replacing them with intermediaries subject to greater direct 
        political control.

    The tragedy of North Korea is that while the circumstances of many 
are abysmal the government is almost wholly unaccountable for its 
manifest failures.
                 changing economic practices and mores
    North Korea historically has been a planned economy. The growing 
centrality of markets over the last two decades is best interpreted as 
a product of state failure, most conspicuously with respect to the 
famine in the 1990s that killed perhaps 3-5 percent of the 
population.\1\ Since then policy has been ambivalent, sometimes 
acquiescing to facts on the ground, at other times attempting to roll 
back these developments. Since roughly 2004-05, the policy trend has 
been negative or illiberal, prioritizing control over deepening or 
extending reform. A failed November 2009 currency reform and the 
government's subsequent backtracking destroyed an unknown share of 
household savings and accelerated inflation.\2\ Against the backdrop of 
a failed agricultural policy and chronic food shortages, grain prices 
are again rising rapidly in part due to renewed military procurements 
and global market conditions.\3\ Official state media has already begun 
to blame the rising prices on world markets.\4\
---------------------------------------------------------------------------
    \1\ Stephan Haggard and Marcus Noland, ``Famine in North Korea: 
Markets, Aid, and Reform'' (Columbia University Press, 2007).
    \2\ Stephan Haggard and Marcus Noland, ``The Winter of Our 
Discontent: Pyongyang Attacks the Market,'' Policy Briefs in 
International Economics 10-1 (Washington: Peterson Institute for 
International Economics, 2010).
    \3\ Stephan Haggard and Marcus Noland, ``Food Prices. Monetary 
Policy, and Currency Reform (It's More Interesting Than It Sounds),'' 
January 28, 2011, http://www.piie.com/blogs/nk/?p=89.
    \4\ Stephan Haggard and Marcus Noland, ``A Hostile Environment? The 
Case of Food,'' February 17, 2011, http/www.piie.com/blogs/nk/?p=338.
---------------------------------------------------------------------------
    Research derived from two large-scale refugee surveys, involving 
more than 1,600 respondents, one conducted in China and the other in 
South Korea, suggest that in some sense a significant share of the 
population has effectively delinked from the state.\5\ Many people 
derive most if not all of their income from market activities rather 
than employment in the state sector, and when we asked the refugees 
what was the best way to make money in North Korea, the majority 
responded ``engage in market activities'' but a growing number said 
``corrupt or criminal activities.''
---------------------------------------------------------------------------
    \5\ Stephan Haggard and Marcus Noland, ``Witness to Transformation: 
Refugee Insights into North Korea'' (Washington: Peterson Institute for 
International Economics, 2011).
---------------------------------------------------------------------------
    When asked about the best way to get ahead, the dominant response 
was state and party. But it appears that state positions are 
increasingly desired not out of patriotism but rather as a platform for 
corruption. Refugees who had formerly been employed in government or 
party offices reported increased corruption among their former 
colleagues. Similar accounts of corruption among state officials were 
reported by more than 300 Chinese businesses interviewed about their 
activities in North Korea.\6\ The central authorities have responded by 
requiring party and government offices to devote more time to 
ideological indoctrination.
---------------------------------------------------------------------------
    \6\ Stephan Haggard, Jennifer Lee, and Marcus Noland, ``How China-
North Korea Trade Works,'' February 19, 2011, http://www.piie.com/
blogs/nk/?p=351.
---------------------------------------------------------------------------
    Paradoxically, while the state provides increasingly meager 
benefits to the population, contact with the state apparatus has grown 
ever more intimate. The government has undertaken legal code changes 
that have in effect criminalized much of daily economic life and 
facilitated the use of the penal system for economic predation. The 
police are given extraordinary discretion with respect to whom to 
arrest and detain, and conditions in detention facilities where many of 
these ``economic criminals'' are confined are horrific, rivaling those 
in felony prisons and the political gulag.
    This system is a perfect instrument for extortion. The police can 
arbitrarily place individuals and their families in institutions where 
beatings, torture, and death in custody occur regularly. 
Unsurprisingly, people will pay bribes to avoid getting entangled in 
this system. In short, in addition to its traditional role as an 
instrument of political repression, the penal system now serves as a 
mechanism for economic predation as well.

                    POTENTIAL POLITICAL IMPLICATIONS

    North Koreans have increasing access to foreign media sources, and 
importantly, inhibitions against consuming foreign media have 
disappeared. As a consequence of obviously self-inflicted catastrophes 
such as the failed currency reform, as well as increasing exposure to 
foreign media, the regime's meta-narrative, which ascribes all the 
country's problems to hostile foreign forces, is increasingly 
disbelieved.
    But the society remains atomized, characterized by low levels of 
trust. Even among the refugees, a self-selected group expected to have 
both more negative views of the regime and a lower aversion to risk 
than the remaining resident population, only a minority reported having 
discussed or joked with their peers about their circumstances while in 
North Korea. But this may be changing.
    Participation in market activities is associated with a cluster of 
characteristics:

  <bullet> A greater likelihood to cite ``political'' motives for 
        emigration;
  <bullet> A 50-percent higher likelihood of being arrested;
  <bullet> Distinctly negative views of the regime and crucially;
  <bullet> A greater propensity to communicate those views to peers.

    In short, the market is emerging as a semiautonomous zone of social 
communication and, potentially, political organizing. When asked at a 
recent event what North Koreans are talking about in the market, former 
U.K. Ambassador to North Korea, John Everhard, responded, ``Egypt.'' 
\7\
---------------------------------------------------------------------------
    \7\ Ambassador John Everhard, ``The Markets of Pyongyang,'' Korea 
Economic Institute of America, Washington, February, 2, 2011.
---------------------------------------------------------------------------
    The question naturally arises as to how representative the refugees 
are of the remaining resident population. At some level this is 
unanswerable--there are no public opinion surveys in North Korea. But 
extensive multivariate statistical testing of the results suggest that 
while the raw pool of respondents may oversample individuals with 
demographic characteristics or life experiences predisposing them to 
hold negative views, the hypothesis that the results obtained 
adequately represent the remaining resident population cannot be 
rejected statistically. And the results line up with those reported 
from other sources such as the survey of Chinese businesses, which are 
not subject to the same concerns regarding bias. In short, the survey 
results should be taken seriously.
    While discontent is almost surely widespread, there appears to be 
an almost complete absence of civil society institutions capable to 
channeling dissent into effective political action. And while overt 
demands for political change go unarticulated, the state retains a 
massive apparatus to compel compliance.

                           THE FOOD SITUATION

    North Korea suffers from chronic food shortages born of the state's 
pursuit of the understandable goal of food security through an 
inappropriate strategy of self-sufficiency. At present, driven by a 
variety of factors, the situation appears to be deteriorating.
    Roughly two-thirds of the grain consumed in North Korea is produced 
locally, so the size of the domestic harvest matters for food security. 
The harvest, in turn, depends on both the weather and the availability 
of inputs such as fertilizer. During the last harvest cycle the weather 
was suboptimal, and North Korea's poor diplomatic relations with South 
Korea have resulted in a reduction in South Korean aid, in terms of 
both food and agricultural inputs. Although the United Nations' Food 
and Agriculture Organization (FAO) estimated that the 2010 fall harvest 
was slightly above the previous year's, the 2011 spring harvest is now 
expected to be significantly lower than initially projected, so that 
heading into the ``lean months'' of mid-2011, domestically produced 
supply will be down relative to the previous year.
    North Korea receives food aid bilaterally from China and South 
Korea and multilaterally through the World Food Programme (WFP), to 
which the United States is the largest donor. Imports on commercial 
terms are limited. However, both commercial imports and aid are 
affected by global prices, which are now rising. Higher world prices 
are likely to contribute to a reduction of commercial imports.
    Aid could be affected as well. There is an understandable tendency 
to interpret aid policy as a function of diplomatic maneuvering and as 
a consequence ignore the role of domestic political considerations in 
determining outcomes. A Chinese reduction in aid in 1993, undertaken in 
response to rising grain prices at home, was the proverbial straw that 
broke the camel's back and sent North Korea into famine. A similar 
episode played out in December 2007, when in response to rapidly rising 
grain prices, China embargoed exports, including those to North Korea, 
contributing to the biggest intensification of hunger since the end of 
the famine period.\8\ The current backdrop of rising world grain prices 
does not augur well for the availability of external supply via any 
channel.
---------------------------------------------------------------------------
    \8\ Stephan Haggard and Marcus Noland, ``Famine in North Korea 
Redux?'' Journal of Asian Economics (September 2009): 384-95.
---------------------------------------------------------------------------
    Local prices appear to be rising much more rapidly than world 
prices, however, possibly due to high levels of inflation in the wake 
of the failed currency reform, as well as removal of supply from the 
market to restock inventories maintained by the North Korean military 
and possibly to build up inventories for political celebrations.
    It is impossible to know with any precision what this means for 
food security. The FAO/WFP balance sheet exercises are flawed and at 
the aggregate level overstate the actual level of distress. 
Additionally, these balance sheet exercises ignore inventory destocking 
or accumulation, which can have large immediate effects on supplies 
actually available on the market, in either direction. If recent 
reports are to be believed, the impact of such activities are likely to 
be in the direction of reducing effective supply.
    Moreover, the distribution of food insecurity is highly uneven in 
North Korea, both geographically and socioeconomically, and even 
apparently adequate supply at the macro level may disguise what could 
be severe distress in specific locales or among particular population 
groups. A recent assessment by a consortium of American nongovernmental 
organizations (NGOs) reports intensifying distress in three provinces 
which were visited.\9\ Among other things, the report documents cuts in 
rations delivered by the government run rationing system; extraordinary 
shares of household income devoted to the purchase of food; and 
eyewitness accounts of acute malnutrition among children and a 
prevalence of low birth-weight newborns.
---------------------------------------------------------------------------
    \9\ Penelope Anderson and David Austin, ``Rapid Food Security 
Assessment Democratic People's Republic of Korea,'' February 22, 2011.
---------------------------------------------------------------------------
    Unfortunately, the North Korean Government has never exhibited any 
real ``buy-in'' to the norms of humanitarian assistance as practiced 
elsewhere around the world. As a consequence of this fundamental lack 
of cooperation by the recipient government, the quality of the official 
multilateral aid program in North Korea has never met international 
standards. Anecdotal accounts suggest that relative to the WFP, the 
American NGOs were able to achieve a higher level of effectiveness 
during their involvement in 2008. Recent North Korean provocations have 
further undercut political support among major donors, with the 
possible exception of China. In short, the food situation in North 
Korea appears to be deteriorating once again, though our understanding 
remains limited and as does our confidence in the quality of the aid 
program.
    The ultimate solution to North Korea's chronic food insecurity is a 
revitalization of the North Korean economy, which would allow the 
country to earn foreign exchange and purchase bulk grains from more 
efficient producers worldwide. The regime is reluctant to embrace the 
reforms necessary to achieve this outcome, however, and if anything, 
economic policy is heading in a negative direction.

                      EXTERNAL ECONOMIC RELATIONS

    Historically, North Korea's international trade has been small and 
politically determined. A byproduct of the famine was the development 
of decentralized trade, mostly with China, which arose as a wide 
variety of organizations including work units, local government and 
party offices, and even military units initially engaged in barter 
transactions to secure grain, a process that eventually broadened to 
include monetized transactions over a wide range of products. In 2009 
China accounted for approximately 35 percent of North Korean trade, a 
figure that will likely rise when data are available, insofar as 
bilateral trade expanded in 2010, while North Korea's trade with other 
partners appears to have stagnated. (One sometimes reads accounts that 
attribute to China 70 or 80 percent of North Korea's trade; these 
statements involve a fundamental misunderstanding of the data.) \10\
---------------------------------------------------------------------------
    \10\ Marcus Noland, ``Just How Big are Those Lips and Teeth?'' 
February 10, 2011, http://www.
piie.com/blogs/nk/?p=281.
---------------------------------------------------------------------------
    As in the case of the domestic market economy, the North Korean 
regime does not appear to be entirely comfortable with this phenomenon 
of decentralized cross-border exchange, which potentially poses 
profound challenges to the North Korean leadership. When economic 
circumstances deteriorate, the incentives rise to move into China 
either permanently or in search of business opportunities and food. 
Informal trade channels became important means of earning foreign 
exchange and financing much-needed imports. This movement and trade 
eroded the government's monopoly on information about the outside 
world. Cross-border trade has also come to include an array of 
communications and cultural products, which directly undermine the 
government's monopoly on information: from small televisions capable of 
receiving Chinese broadcasts in border areas to South Korean videos and 
DVDs and even mobile phones. In response to these developments, in 
recent months the government appears to be attempting to execute a 
highly controlled opening in which North Korean state organs would 
engage in cross-border commerce with China, but activities not 
controlled by the state would be quashed.
    In parallel, the government has established a supra-cabinet body 
called the Joint Venture Investment Committee to act as a central 
approvals agency for all incoming investment. It is possible that this 
``one-stop shop'' could serve as a mechanism for disciplining the 
cascading corruption at all levels that has deviled foreign investors. 
However, the centralization of control may also simply serve to channel 
bribery in politically approved directions, and as such, the 
composition of the group could be read as a map of power relationships 
within the regime. The committee is reportedly chaired by Ri Chol, a 
former North Korean Ambassador to Switzerland, who in his 30 years 
there was reputed to have been involved in the deposit in Swiss 
institutions of Kim family wealth, as well as the Swiss schooling of 
two of Kim
Jong-il's sons.\11\ Similarly, the Korea Taepung International 
Investment Group, whose board is chaired by a Korean-Chinese with 
commercial ties to the North Korean military but otherwise consists of 
regime heavyweights, was awarded a central place in the recently 
announced 10-year development plan, which notionally includes large 
Chinese investments in the Rason area in extreme northeastern North 
Korea. The government has also established a State Development Bank, 
reputedly at Chinese urging. These moves could be interpreted as 
indicating a renewed commitment to economic development and/or as a 
means of disciplining corrupt practices that have deterred investment. 
But there are also examples from other post-communist economies where 
such centralization has been accompanied by an increase in corruption, 
typically to the benefit of the leader, his family, and close 
associates.
---------------------------------------------------------------------------
    \11\ Yonhap, North Korea Newsletter no. 142, January 27, 2011, 
http://english.yonhapnews.co.
kr/northkorea/2011/01/26/52/0401000000AEN20110126010400325F.HTML.
---------------------------------------------------------------------------
                              CONCLUSIONS

    North Korea's chronic food insecurity once again appears to be 
worsening. Externally, the country is increasingly reliant on China, 
which is reluctant to sanction North Korea in response to its 
provocations. The regime faces a looming succession driven by Kim Jong-
il's age and health. Our surveys document widespread discontent among 
the North Korean people but also a dearth of civil society institutions 
capable of channeling that mass discontent into constructive political 
action.
    Access to information plays an essential political role. All 
societies, even democracies, are vulnerable to government propaganda 
and misinformation. But in closed societies, authoritarian governments 
have particular leeway to develop elaborate propaganda machines that 
fundamentally distort information about the outside world. Connecting 
individuals to the outside world serves the crucial function of 
undermining these distortions by providing information, encouraging the 
government to respond to a more informed public. Our surveys suggest 
that the North Korean public is receptive to alternative, non-state-
controlled sources of information that not only expand freedom of 
thought but potentially increase capabilities as well.
    In this context, the market represents a zone of personal autonomy 
and freedom. We should be promoting its expansion through a process of 
engagement--but engagement with our eyes open. The goal would be not 
only to address North Korea's chronic material needs but also to 
encourage economic and political evolution in constructive directions.
    Humanitarian aid should be divorced from politics. We should not 
punish poor families in Chongjin or school children in Wonsan for the 
behavior of a government over which they have no influence. In 
practical terms this puts us back in the slog of trying to achieve the 
best outcomes possible given the fundamentally uncooperative stance of 
the North Korean Government. We appear to care more about vulnerable 
North Koreans than their own government does.
    Development assistance is a different matter, however, and policy 
conditionality is justified. And while development assistance will be a 
component of an eventual reconstruction of the North Korean economy 
under whatever political circumstances prevail, official aid alone will 
be not be sufficient. Bringing prosperity to North Korea will require 
the establishment of a principled and sustainable basis for commercial 
engagement. This outcome, in turn, depends first and foremost on the 
stance of the North Korean Government, and recent developments in this 
regard have not been auspicious.
    Information and markets alone will not immediately transform the 
North Korean regime. But they are a start. The expansion of the market 
internally, exposure of more North Koreans to new sources of 
information, new ways of doing business and organizing their lives, 
even exposure to foreign countries, will foster conditions amenable to 
the North Korean people exerting greater constraints on the behavior of 
what is now an effectively unaccountable regime.
    The Chairman. How do you get that exposure?
    Dr. Noland. How do I get the----
    The Chairman. Yes. I mean, it sounds good, but how do you--
how are you going to do that--create the exposure of the North 
Korean people to these other things?
    Dr. Noland. What we should be doing is encouraging North 
Korean Government to get involved in institutions, such as the 
World Bank. When those institutions are formulating their 
economic policies, there should be an attempt to put an 
emphasis on engagement with these sort of--I don't want to call 
them ``nonstate institutions,'' because that would be an 
exaggeration, but these economic actors that are effectively 
operating outside central government control.
    The Chairman. Why would they do that?
    Dr. Noland. They don't want to do that, that's for sure. 
And the question is----
    The Chairman. Well, what leverage do we have to get them to 
do that? I mean, I'm not sure where that beginning begins.
    Dr. Noland. It begins in their current deteriorating 
conditions. They are faced with a situation----
    The Chairman. It seems to me--I mean, listening to both Mr. 
Carlin and Mr. Flake, I get a sense that we're really 
misinterpreting what our interests are, vis-a-vis them and how 
they view us. And, if we are--if indeed everything they're 
doing is regime-survival-based and stability-based--and it 
seems, listening to Mr. Carlin, that they're not particularly 
concerned about talking to us or being engaged with us; they're 
kind of happy moving along and doing what they're doing--where 
does our leverage come from?
    Dr. Noland. I think----
    The Chairman. Am I----
    Dr. Noland [continuing]. The way----
    The Chairman [continuing]. Misinterpreting what you said, 
incidentally?
    Mr. Carlin. A little bit.
    The Chairman. A little bit. OK. Well, correct me. I mean, I 
got a sense that you were saying that we're sort of presuming 
they want to talk to us, and that we're kind of going along 
this track of assumptions we're making that are incorrect.
    Mr. Carlin. Then I apologize if I was unclear. I think they 
are interested in talking to us, maybe less so than they were 
several years ago, but that, as you have suggested, until we 
sit down and explore what's possible, we can't know. We can't 
make assumptions, because, in fact, there is a track record. 
There is a history of a period when they were deeply engaged 
with us. And there's always a possibility we could get back to 
something like that again.
    The Chairman. Yes, Mr. Flake.
    Mr. Flake. The broader question of getting information into 
North Korea is a very important one. While I would agree with 
Dr. Noland about the utility of trying to do that on a 
government level, the truth is, the real game is inter-Korean, 
at this point. In fact, if you saw the media yesterday and this 
morning, there is considerable North Korean angst about South 
Koreans sending weather balloons over to North Korea with 
propaganda leaflets, which is kind of a small scale way to do 
it. But, the greater factor is that there are now 20,000 North 
Korean defectors living in South Korea who are pumping back 
money and information to their relatives all throughout North 
Korea; and probably double/triple that number in China, doing 
something very similar. You now have information flows in North 
Korea that you've never had before. And that's a fundamentally 
different dynamic than we were facing 20 years ago. And it's a 
destabilizing dynamic for the regime, which is, I think, again, 
part and parcel, wrapped up with the succession and other 
instability issues, an explanatory factor in looking at their 
recent provocations.
    The Chairman. So, you were going to say--yes, Dr. Noland.
    Dr. Noland. What I was going to say is, if they had the 
capacity, if they had the resources, yes, they would shut 
everything down. Everything would be centrally controlled. And 
they would be back in the world of the 1970s. That's what they 
would like to do. They don't have that capacity.
    When the economy begins to deteriorate, they are forced, 
out of necessity, to allow a certain loosening up of the 
system. That's one dynamic. The other is, they're growing 
increasingly reliant on China, which can't make them 
comfortable.
    So, while their preference clearly would be to exist in a 
world in which they could exert unlimited control both 
internally and in the organization of their external relations, 
there are internal pressures for them to have a certain degree 
of flexibility in how they organize both their internal economy 
as well as their external relations.
    The Chairman. So, would you all be in agreement that it's 
important to get to this initial discussion, at least on a 
bilateral basis, to explore what's possible in six-party talks? 
Or are the six-party talks more of a tool and less critical to 
determining where to go?
    Mr. Carlin. I'll say something that a lot of people may not 
agree with. But, I think the six-party talks are a dead-end. 
And I don't think we should focus a lot of our attention and 
emotional commitment to them. If they serve their purpose, well 
and good, but we need something else, and getting to bilateral 
faster is more important.
    The Chairman. Well, actually, Mr. Carlin, I happen to agree 
with you. I think if they happen to work and there's something 
that--functions effectively, terrific. But, I think they've 
tied our hands, to some degree. And I think they've become sort 
of an outlier argument for not necessarily doing what we ought 
to be doing that's in our interest.
    Mr. Flake. I think, to be very frank, the six-party talks 
are really not about the talks themselves. They are about 
whether or not we accept North Korea as a nuclear power. There 
is nothing magic about a big, round table with 30 people 
convened around it. The plenary of the six-party talks, itself, 
is a very inefficient format for negotiating. But, the problem 
is that the only forum in which we have a standing commitment, 
on North Korea's part, to denuclearize, unilaterally, is that 
September 19, 2005, Joint Statement of the Six-Party Talks.
    As I mentioned, in my remarks--it might seem strange that 
both President Obama and President Hu spent so much time 
focusing on an arcane, unimplemented statement from talks which 
are moribund. And the reason is, in that statement, North Korea 
committed to its companions in the six-party talks, the other 
countries in the region, that they would abandon all nuclear 
weapons and all existing nuclear programs, and return, at an 
early date, to the IAEA and NPT. And the moment we say, ``six-
party talks are dead. We're giving up on them.'' We have de 
facto recognized their assertion that they are a nuclear power. 
We have granted them that status.
    The fundamental challenge of negotiating with North Korea, 
no matter what the forum, is ``How do you deal with them when 
they continue to assert that they will only negotiate a peace 
treaty as a nuclear power?'' They assert that because they are 
a nuclear power, they want to negotiate as a nuclear power. 
Unless you secure some type of a reference from them, 
disingenuous though it may be, that they are willing to abide 
by that commitment, you validate their claim to nuclear status. 
It's a very difficult diplomatic conundrum, because, while you 
can have talks about talks; and you can exercise diplomacy, 
which, again, about which I think we saw the previous panel 
refer to the efficacy and the necessity of; but, in terms of 
formal negotiations, there is a Catch 22 there, based on North 
Korea's standing position, that we have to address.
    Dr. Noland. I would say that of course we have to talk to 
them bilaterally, if only to do the sorts of testing that you 
were raising with the previous panel.
    But, I would just align myself with Mr. Flakes' statement. 
The real key to the six-party talks is not the talks 
themselves, which appear to be somewhat awkward, but it's that 
September 2005 statement. That's the one thing we have that 
puts the North Koreans on the hook for denuclearization. And 
that would seem to be a big thing to throw away.
    The Chairman. I think that's smart. I think you don't want 
to throw it away, but that doesn't mean you need to tie 
yourself, as a methodology for getting forward, to that 
particular structure, which I think is cumbersome, and which I 
think, if you go back to its first days, was really put 
together more as a mechanism, not really for having the talks, 
but for handling certain politics. And I think we've been tied 
down by that.
    Mr. Carlin, I have additional questions I wanted to ask 
you. I'd like to follow up. But, unfortunately, I have a 
meeting coming up in a moment, and I've used up my time. And 
Senator Lugar also has a thing. So, if we could--we're going to 
leave the record open, as I said, and I'd like to get back to 
you, if I can, to follow up on this a little bit, even since 
we're a little time-pressed here today, if that's OK with you.
    But, I really appreciate it. I thought all of your comments 
were very perceptive. Your statements underscore, to some 
degree, problems with our--the driving perceptions of how we've 
been thinking about this. And I think we've got to really step 
back and not deal with mythology or with a stereotype of what 
the give-and-take is here. And I think your warnings are very 
appropriate and helpful in that regard.
    So, I thank you for coming in today. This will not be our 
last conversation about this. And I appreciate your willingness 
to share your thoughts and expertise with the committee today. 
It's very helpful.
    Senator Lugar, if you could----
    Senator Lugar. May I----
    The Chairman [continuing]. Close things out.
    Senator Lugar [continuing]. Conclude the hearing by 
asking----
    The Chairman. Yes.
    Senator Lugar [continuing]. A few more questions?
    The Chairman. No, no, no, that's absolutely your hearing.
    Thank you.
    Senator Lugar [presiding]. Thanks very much.
    Now, I'm curious--because I think both you, Dr. Noland, and 
Mr. Carlin, have mentioned that at least some persons in North 
Korea have access to information from the outside world, press 
accounts of some sort--but, I'm curious what information you 
have about access to the Internet and social media. To what 
extent are either the young people, the middle-aged, or anyone 
in North Korea, on the Internet or, beyond that, using social 
networking Web sites such as Twitter or what have you? Is this 
something that's just simply not arrived in North Korea, or are 
the people who have this access so embedded in the regime that 
we're not seeing the same results that we're seeing in other 
regimes that have had some problems with this?
    Dr. Noland. The North Korean approach to these issues is 
characteristic of highly authoritarian regimes. On the one 
hand, there is a desire to show that they're a technologically 
advanced society. On the other hand, there's an extreme concern 
about the implications of these kinds of ways of communicating.
    So, what the North Koreans have effectively done is, 
they've created their own internal Internet. So, you have an 
Internet that lots of people, at least in urban areas, can get 
on to, but it's only within North Korea. Literally the number 
of cables going out of the country that allow one to make 
international calls or data transmissions is very limited. So, 
the number of people who have access to the Internet, as we 
would understand it, is a very small group of the elite, the 
people that Mr. Carlin normally interacts with. There is some 
ability, in the northern border areas, to use cell telephones 
that work off the Chinese system. And presumably, a greater 
degree of information can pass through that channel than 
through the cellular system within the country.
    On the one hand, there's a desire to show they're an 
advanced country and that they have lots of technology. But, on 
the other hand, there is also a very profound desire to control 
the potential political implications of that technology.
    Senator Lugar. Mr. Carlin, do you have a comment on this?
    Mr. Carlin. Well, it's worth noting that the number of cell 
phones in the country has increased significantly in the last 
few years. This cell phone infrastructure has been improved and 
built so that something like 70 or 80 percent of the country is 
now covered, in terms of cell phone towers. And the number of 
young people that they're training on how to use computers, and 
how to sort of become computer literate at least, is really 
quite remarkable, so that when and if this access ever is 
opened up to the international-based Internet, I believe it's 
going to spread rather quickly. And, in fact, if I were a North 
Korean Ministry of Security officer, I'd be very nervous, at 
this point, at what I see happening in this society.
    Senator Lugar. To what extent can we help accelerate this 
access through our broadcasts? You know, we've had hearings 
with regard to our broadcasting mechanisms to China, for 
example, as well as to other Asian countries, which have been 
extremely interesting. And you've mentioned at least some ties 
with China and the cell phone business. I'm just curious, along 
purely the information line, the broadcasting line, what 
possibilities do we have utilizing that, quite apart from the 
economic sanctions or the punishment routes that we have 
employed?
    Dr. Noland. Well, right now we have Radio Free Asia, which 
broadcasts into North Korea----
    Senator Lugar. Yes.
    Dr. Noland [continuing]. A Korean-language broadcast, but 
they're on a shortwave and they're broadcast from transmitters 
that are quite far away.
    There are three things we could do to improve the 
effectiveness. No. 1, increase the number of hours of 
programming. No. 2, move to a.m. And No. 3, try to convince 
some of our allies to allow the stationing of transmitters in 
their countries, which would allow much more effective 
transmission.
    Senator Lugar. It would not appear to me that we have been 
particularly aggressive in our own policies or our own 
organization of this, but do you have any comments about that?
    Yes, Mr. Flake.
    Mr. Flake. I would just note that, here again, the real 
game is inter-Korean. There is a very active civil society in 
Korea operating both out of the borderlands on the Chinese 
border, but also out of South Korea itself, which is 
specifically strategizing about how to get information, in 
Korean, into North Korea. Obviously, again, per the media 
reports in the last few days, this is something that's of great 
concern to the North Korean leadership.
    Another interesting, kind of, factoid in this regard: The 
cell phone provider in North Korea is Orascom, an Egyptian 
company with close ties between Kim Jong-il and, of course, 
Hosni Mubarak. As such, it will be very interesting to see how 
things play out with that particular contract in the weeks to 
come.
    There are, by my understanding, some 260,000 to maybe 
300,000 cell phones in operation in North Korea right now; the 
vast majority within Pyongyang, itself, and among the elite. 
But, that said, such phones are an information transmission 
vehicle that did not exist before, particularly among the 
elite, who are the most likely to be disillusioned, in terms of 
recognizing the difference between expectations and reality.
    This is a very important factor, in terms of understanding 
where North Korea's likely to go in the near future.
    Senator Lugar. Let me follow through on a comment that one 
of you made, that there may be 20,000 North Koreans in South 
Korea as refugees. In some past hearings we've heard that, by 
and large, the South Koreans have not been particularly 
receptive of people coming from North Korea. This may be a 
broad generalization, but we perceived that South Koreans were 
by and large in favor of unity in due course, but, at the same 
time, that they had a desire to absorb only a few persons at a 
time in order to avoid, in their view, inheriting all of the 
problems of North Korea. On the other hand, given that now the 
disparity in terms of wealth and economics between the two 
Koreas is so great, why wouldn't the South Koreans as a matter 
of policy, welcome more refugees from North Korea in order to 
build more of a population that, in terms of either 
communication or an interpretation of what's occurring, would 
be helpful to South Korea?
    Mr. Flake. I'll start off with that, and the others can 
chime in, as well.
    There has been a remarkable shift, in terms of how South 
Korea views refugees or defectors coming out of North Korea, 
that is commensurate with the shift in the Government in South 
Korea. During 10 years of progressive governments in Seoul, the 
national narrative was all about cooperation, working with 
North Korea. And so, defectors, particularly those with 
horrendous human rights stories, coming over, kind of, didn't 
fit well----
    Senator Lugar. Yes.
    Mr. Flake [continuing]. Within that narrative, and they 
didn't feel welcome, on a policy level. Obviously, there are 
still deep problems of social integration for North Korean 
refugees integrating into South Korean society. For the bulk of 
the 50-some-odd years of national separation, the flow of 
defectors was so small that South Korea could afford to give 
them large sums of money, stipends to keep them living and 
educate them and get them jobs, et cetera. In the last several 
years, that number has continued to grow and this is becoming 
in some respects, an immigration issue with all the budget 
consequences that are related to that, as well.
    But, that said, I would think that, at least in my mind, 
compared to 3 years ago the environment right now is much 
improved and continues to be so depending on the level of flow.
    Dr. Noland. As Mr. Flake said, there are problems with 
integration and assimilation, and one shouldn't underestimate 
the traumas that these people have experienced. In our refugee 
interviews, I would say that probably half the people we 
interviewed, in a clinical setting, would be diagnosed with 
post-traumatic stress disorder; the famine, incarceration in 
the penal system, have profound psychological impact. So, it's 
a traumatized population. And there is increasing understanding 
of this in South Korea. The South Korean Government has passed 
new legislation, which is, I think, really improving the 
quality of services that it's providing to these people. And, I 
think that there is hope that this population will be better 
served, moving forward, than it perhaps has been in the past.
    Senator Lugar. Mr. Carlin, I'd like to ask, from your very 
vast knowledge of the internal workings of North Korea: What 
are the specific steps, if we were to have a bilateral talk or 
talks with North Korea, that would advance the denuclearization 
situation?
    Mr. Carlin. I'm afraid that--well, I would say, the steps 
that we would take to advance denuclearization are not to talk 
about it right away, quite frankly. I think the situation has 
so deteriorated, in terms of our own position, that it would 
not be a wise strategy to start off with that subject, because 
we won't get anywhere and the negative result will poison the 
entire process.
    I think if, now, we want to get to denuclearization, it's 
going to take us longer than it would have before. And we're 
going to have to explore a broader horizon with the North 
Koreans, in an effort to establish some sort of common ground 
from which to speak to each other, and then eventually zero in 
on that, since it is so important to us.
    Senator Lugar. Well, one of the reasons often given for the 
six-power talks is that they include Japan. And from time to 
time, over, now, a couple of decades, quite apart from the last 
few years, the Japanese, broadly, have indicated that they did 
not pursue nuclear weapons because they had confidence in the 
United States and our ability to work with them for their 
protection. This was shaken, on occasion, when North Korea 
apparently fired missiles that straddled Japan, or in some 
geographical formation. And they came to us with considerable 
anxiety, asking ``Where were you? And how can we count on 
you?'' and so forth.
    Maybe the other powers involved, particularly Japan, 
perhaps the South Koreans, have some problems with this degree 
of patience. But, your feeling still is, given the regime 
problems, the potential changes, and so forth, that there just 
are not persons presently in North Korea that are prepared if 
the United States asked, today, if we could sit down to get to 
that issue, except after a good number of intervening steps and 
other issues.
    Mr. Carlin. I'm afraid that every lesson that we've taught 
to the North Koreans over the last 10 years is that they'd be 
much better served by relying on a nuclear deterrent than on 
our good word. And we have to teach them the opposite now. And 
it's going to take us a while to do that. We're going to have 
to follow through on agreements, as will they. I'm not 
suggesting this is one-sided. But, we have a lot of homework to 
do and a lot of brambles to clear in the path ahead of us, 
because of some policies that we've followed in the past.
    I would say it ill behooves the Japanese to worry about the 
pacing of our talks with the North Koreans, when they are so 
focused on a single domestic issue, which they consider quite 
important--it's quite emotional; no one can second-guess them 
on it. But, the fact is, they're so fixated on that, that 
they're not being very helpful to us in our own attempts to 
deal with this larger regional problem.
    Senator Lugar. What if--I would ask of any of you--a 
situation occurs in which the regime succession does not work 
out quite in the pattern that has been prescribed, and, in 
fact, just to use a cliche, a military government of some sort 
succeeds this family situation? What is your prediction as to 
how whatever leadership may arise in that form would deal with 
the problems we've been talking about? Is it simply more of the 
same? Are there any indications that, as a matter of fact, such 
a government would have a different outlook toward South 
Koreans, toward the Chinese, toward us, toward nuclear issues?
    Mr. Carlin. To the extent that, as I think is true, that 
North Koreans, at least at the level you're talking about, 
really do see themselves as part of a legitimate country with 
legitimate interests, I think we're fooling ourselves to think 
that, when the family is replaced, that suddenly, you know, 
Hosanna, they'll have a--they'll see the world as we do, 
especially against the South Koreans. So, I wouldn't 
necessarily look forward to that sort of a shift in regimes. I 
wouldn't think, off the top of my head, that it would make the 
situation better for us. Whether it's more dangerous or not 
would--might depend a lot on the personalities involved.
    Senator Lugar. Yes, sir. Mr. Flake.
    Mr. Flake. I would very much agree with Mr. Carlin. It is 
difficult to imagine almost any scenario where known factions 
in North Korea taking over would make things better. If 
anything, the instability and everything associated with that, 
would probably make things worse, going forward.
    That said, I'd like to take just a moment to talk about the 
broader question that he was addressing, in terms of how you 
move forward in facing that fundamental challenge of: ``How do 
we deal with a North Korea that has declared itself a nuclear 
power?'' I think the plan that Mr. Carlin outlined makes 
perfect sense if you're looking at North Korea in a vacuum. I 
mean, what he has described to you is exactly what we would 
need to do if we were to get North Korea, themselves, to decide 
that they eventually wanted to give up the nuclear weapons.
    But, unfortunately, as you rightly pointed out, Mr. 
Senator, that we're not dealing with North Korea in a vacuum. 
You've got a lot of other countries in the immediate region, 
and the world writ large, that are looking very closely at the 
lessons we are drawing from North Korea. And, at this point, 
North Korea is the only country ever to have pulled out of the 
NPT and the IAEA. And, if a country of North Korea's status and 
demonstrated past behavior, as the previous panel talked about 
in quite great detail, talking about nonproliferation--if a 
country with a demonstrated past of proliferation, of selling 
any weapon system it can get its hands on, with all the human 
rights and other issues we've discussed here--if they can 
become recognized as a nuclear power, even a de facto 
recognized as a nuclear power, who can't? What country in the 
world today is not more acceptable to the international 
community as a nuclear power than North Korea?
    So, unfortunately, this is--while absolutely agreeing with 
Mr. Carlin that this is what the North Korean leaders may want, 
I think that the reality that the government today is faced 
with, and that future governments will be faced with, is that 
it's extremely challenging to move forward with North Korea 
because of their statements and their nuclear tests. We are in 
a very different stage of these negotiations than we were maybe 
15 or 20 years ago.
    Senator Lugar. Finally, I'll----
    Dr. Noland. If I could----
    Senator Lugar. Yes, Dr. Noland.
    Dr. Noland. I think it's very difficult, or if not 
impossible, to predict what some successor leadership might 
want to do. I think what we probably can say is that there 
won't be major changes while Kim Jong-il is still alive. The 
problem, of course, is that this is a political culture that 
creates enormous incentives for people to falsify their true 
preferences. And when the situation changes, it may be possible 
for individuals or factions to develop that actually take the 
country in a somewhat different direction. I mean, it's not 
impossible to imagine that some successor leadership would look 
around at the wreckage and kind of decide there must be some 
better way of doing things.
    That said, even if such a faction were to come to power and 
want to pursue some sorts of reforms, either internally or in 
their external relations, doing so would not necessarily be 
easy. The divided nature of the Peninsula creates a fundamental 
legitimacy challenge for the North Korean regime. And once they 
start moving closer to South Korea and looking more like South 
Korea, then the whole justification for the maintenance of 
North Korea as an independent state could be called into 
question. So, I don't think that we can rule out the 
possibility of a more enlightened leadership in the future, but 
I don't think we can count on it, and I don't think we can 
underestimate the difficulty that such a leadership might face 
in trying to take the country in a different direction.
    Senator Lugar. Well, my final question is: In the event of 
some change, despite its cause, to what extent are extensive 
Chinese investments in North Korea--we've already suggested 
there may be some extensive South Korean investments--but, to 
what extent would either party attempt to pursue protection of 
its interests? Or are they large enough, in relationship to 
their respective economies, to make that much of a difference? 
Do people just simply take their losses and assume that this 
was the luck of the draw?
    Dr. Noland. I think that we can assume that there is a 
rivalry between China and South Korea for economic influence in 
North Korea, and that that would play into the behavior of both 
of those governments. However, at least from a kind of 
mathematical standpoint, if you look at the North Korean 
economy today, and you look at the size of those investments, 
in any kind of macroeconomic sense or broader sense, in terms 
of either the Chinese or the South Korean Governments, these 
investments are trivial. This is a country in which the 
investments that will be needed to rehabilitate that economy 
are vast, relative to the foreign investments that exist there 
today.
    Senator Lugar. Well, I thank each one of you very much for 
your statements, that are a part of the record, and for your 
remarkable testimony and your response to our questions. I 
believe this has been a very productive hearing, and you have 
certainly helped make that the case.
    Let me make a final statement. I ask consent that a letter 
written by Ambassador Charles ``Jack'' Pritchard, longtime East 
Asia expert and current president of the Korean Economic 
Institute, to myself and Senator Kerry in preparation for this 
hearing, be submitted for the record.
    Senator Lugar. And the record will remain open for QFRs 
until the close of business on Friday, March the 4th.
    And I would add that, in addition to this report, a short 
opinion piece, likewise, be included in the record.
    And, at least, since no one is going to object----
    [Laughter.]
    Senator Lugar [continuing]. I declare that this will be in 
the record, to complete that record with our QFRs to be 
submitted until March 4.
    Senator Lugar. Thank you so very much. We appreciate your 
coming.
    And the hearing is adjourned.
    [Whereupon, at 12:32 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Hon. Michael S. Lee, U.S. Senator From Utah

    Thank you Assistant Secretary Campbell, Representative Bosworth, 
Mr. Carlin and Mr. Noland for your participation in this hearing.
    Thank you, Senators Kerry and Lugar for your leadership in 
discussing the volatile situation in North Korea. While events in Egypt 
and Libya have commanded our attention over the past weeks and months, 
circumstances in North Korea demand our vigilance and preparation to 
ensure the safety and security of the United States and our allies in 
Asia.
                                 ______
                                 

    Letter and N.Y. Op-ed Submitted by Ambassador Charles ``Jack'' 
                               Pritchard

                                  Korea Economic Institute,
                                 Washington, DC, February 25, 2011.

Re Senate Foreign Relations Committee Hearing on ``Breaking the Cycle 
        of North Korean Provocations''
Hon. John F. Kerry,
Chairman, U.S. Senate Committee On Foreign Relations,
U.S. Senate, Washington, DC.

Hon. Richard G. Lugar,
Ranking Member, U.S. Senate Committee On Foreign Relations,
U.S. Senate, Washington, DC.
    Dear Chairman Kerry and Senator Lugar: It is with deep appreciation 
of the Committee's work on U.S. policy toward North Korea that I offer 
a few observations in advance of the March 1, 2011 hearing on 
``Breaking the Cycle of North Korean Provocations.''
    With regard to breaking the cycle of provocations, 1 believe that 
the worst-case military provocations that we witnessed in 2010 will not 
be repeated except in extraordinary circumstances. In 2010, we 
witnessed unacceptable North Korean provocative behavior: the sinking 
of the Cheonan in March and the shelling of Yeonpyeong Island in 
November. The first caused the deaths of 46 sailors; in the latter 
case, 4 were killed. I also think it is important to try to understand 
why 2010 was such a bad year when it comes to North Korea's 
unacceptable behavior.
    For North Korea, 2010 was a critical year. Kim Jong-il was still 
recovering from his stroke in August 2008; the succession process was 
high on their agenda; sanctions were creating difficulties; currency 
revaluation had gone terribly wrong; and the North Koreans harbored 
thoughts of revenge for the November 2009 West Sea incident that 
humiliated the military.
    On the international front, Pyongyang had a lot going against it; 
intra-Korean relations were at a low point and the United States was 
steadfastly ignoring its calls for bilateral engagement. In other 
words, there was nothing positive going on to moderate Pyongyang's 
worst tendencies. Domestically, Pyongyang needed a reason to rally the 
nation around Kim Jong-il and his eventual successor. The easiest way 
to do that was through the military.
    I believe North Korea was prepared to react violently to any 
perceived provocation or slight. They chose to take action around the 
Northern Limit Line in the West Sea. As they thought through the 
consequences, they determined that South Korea was unlikely to respond 
in an overly aggressive manner and if they were successful, the 
increased tensions would work in Kim's favor. After both the Cheonan 
and Yeonpyeong incidents, we heard stories fabricated to embellish Kim 
Jong-un's credibility within the military--key to his ultimate 
successful succession to power.
    And unfortunately, they correctly calculated that China would not 
do anything that would substantially harm Pyongyang's interests.
    So what does the current charm offensive by Pyongyang mean, 
particularly when you think how quickly they have reversed course. They 
went from attacking South Korea militarily to offering dialogue at 
anytime, at anywhere and criticizing Seoul for not jumping at the 
opportunity.
    I think it is consistent with Pyongyang's 2 main objectives. First 
and foremost is the need to reduce external tension in 2011 in the run 
up to 2012--the 100th anniversary of Kim Il-Sung's birth. As you know, 
North Korea has declared that it will be a strong and prosperous nation 
in 2012. In order to do that, it needs foreign direct investment and 
opportunities to create hard currency. The international community's 
adverse reaction to the activities of 2010 proved that aggressive 
behavior will not lead to achieving this goal.
    Secondly, I believe enough overt attention has been given Kim Jong-
un; protective measures have been put in place to ensure the survival 
of the Kim family after Kim Jong-il's death; and Kim Jong-un's legend 
is off to a strong start--certainly in the minds of the North Korean 
leadership. Any additional emphasis on Kim Jong-un now comes at the 
direct expense of Kim Jong-il. He may be thinking of his eventual 
demise, but he does not want to become irrelevant before his death. In 
this regard, 2011 should be far less confrontational than 2010.
    Additionally, I have attached a copy of a recently submitted op-ed 
(to the NY Times) in which I propose a specific, comprehensive, 
proactive U.S. policy toward North Korea. I hope these thoughts will be 
of use in preparation for your upcoming hearing.
            Sincerely,
                    Ambassador Charles L. (Jack) Pritchard,
                               President, Korea Economic Institute.

ATTACHMENT

   NY Times Op-ed of Jack Pritchard, President of the Korea Economic 
                               Institute

    Last year I was privileged to co-chair the Council on Foreign 
Relations Independent Task Force Report, ``U.S. Policy Toward the 
Korean Peninsula.'' The Task Force was made up, as all CFR Task Forces, 
of a prestigious group of experts who found that the ``Obama 
administration's current approach does not go far enough in developing 
a strategy to counter North Korea's continuing nuclear development or 
potential for proliferation.'' The Task Force made several 
recommendations that the administration has yet to implement.
    One of the Task Force's observation was that there was 
``significant risk that (the administration's ) `strategic patience' 
will result in acquiescence to North Korea's nuclear status as a fait 
accompli.'' Several months have transpired since the report was 
published in June 2010 and ``strategic patience'' continues even in the 
wake of the sinking of the South Korean naval vessel Cheonan and the 
artillery shelling of the South Korean island which combined killed 50 
South Koreans.
    That is not to imply that U.S. policy should change in reaction to 
bad behavior by North Korea, but rather it is meant to suggest that the 
lack of a policy (or at best a passive policy) is not sufficient to 
prevent proliferation or move us closer to denuclearization. Meanwhile 
North Korean provocations have increased tension on the peninsula.
    The emphasis the administration places on its solidarity with Seoul 
and its insistence that Pyongyang first improve relations with South 
Korea along with its ``at arms' length'' approach to North Korea served 
an initial useful purpose. It changed the dynamic of past 
administrations' knee jerk-like reaction to Pyongyang's every move. It 
was healthy to reset the ground rules under which an American 
administration would engage North Korea. However, there is a point when 
this approach begins to be counterproductive to the ultimate goal of 
denuclearization and nonproliferation. We have long since reached that 
point.
    Certainly, the administration should continue close consultations 
with Seoul. The benefit to the alliance as a whole has been remarkable, 
but it is time for the administration to put forth a proactive North 
Korea policy.
    Washington and Seoul have told Pyongyang that it must demonstrate 
sincerity before they are willing to reengage in Six-Party Talks 
designed to achieve denuclearization of the Korean Peninsula. For its 
part, North Korea has been clear in its message that it is willing to 
return to talks (under gentle pressure from Beijing), but that the 
agenda should be refocused on the ``root cause'' of the nuclear 
problem--U.S. hostility towards Pyongyang. Because of the Kim regime's 
narrow focus on promoting nationalism in support of the eventual 
succession of power to a third generation Kim, actual denuclearization 
is off the table. This is a formula for continued stalemate.
    If U.S. policy remains on the current course, there is little 
potential that our security concerns will be resolved and every chance 
that North Korea will drift toward de facto nuclear weapons state 
status.
    This calls for a comprehensive, proactive policy toward North 
Korea. This is best done by articulating an objective of absolute 
denuclearization of North Korea using the robust application of United 
Nations Security Council Resolution 1874 as a means of shaping 
Pyongyang's security environment. That requires continuous engagement 
with Beijing to ensure that it does not deviate from our common 
objective and that China willingly applies reasonable and sufficient 
leverage on Pyongyang to ensure North Korea does not believe that there 
is a viable Chinese loophole in UNSC sanctions.
    Reengaging North Korea in a multilateral forum (Six-Party Talks) 
will be of limited value as long as Pyongyang is overly concerned about 
the long-term survivability of its regime. Its nuclear weapons program 
is the equivalent of a night light. Take it away and they are not sure 
they will survive the night.
    Once the basics are in place, the United States needs to actively 
engage North Korea on a host of issues for which we and they have 
concerns. These issues roughly fall into the following broad 
categories: humanitarian, security, confidence building, and economic.
    Specifically, Washington should open up a distinct dialogue on 
medical requirements such as tuberculosis management and family 
reunions between Korean-Americans and North Korean relatives separated 
by the Korean War. A discussion on best agricultural practices along 
with sponsorship of student educational opportunities would go a long 
way in addressing chronic North Korean problems associated with its 
self-imposed isolation and contribute to the promotion of positive 
external influences. A corollary discussion on disaster prevention and 
the development of a regional response package led by the Red Cross 
would assist in minimizing the impact natural and man-made disasters 
have on the welfare of the North Korean people.
    Engaging Pyongyang on its long-range missile program will not be 
easy. More than ten years have elapsed since the last serious 
discussion on this critical issue was held. At one point, a self-
imposed missile moratorium held North Korea's missile development and 
proliferation ambitions in check. Pyongyang has used the desire to 
orbit a satellite as a rationale for its recent missile tests. A 
permutation of an idea that may have originated in a Putin-Kim Jong il 
meeting in the summer of 2000 in which other countries would take on 
the delivery of North Korean satellites in exchange for a permanent 
moratorium on its testing and fielding of long-range missiles needs to 
be re-examined as a potential starting point.
    Likewise, the nuclear fuel cycle discussion that is gaining ground 
elsewhere needs to be imported into a North Korean context. However 
much the administration currently believes Pyongyang has violated 
Security Council sanctions and inter-Korean agreements, it does not 
change basic facts. North Korea is building an experimental light water 
reactor which, if they are successful, could lead to larger, full scale 
reactors which would rely on the fuel from the recently revealed 
uranium enrichment facility. The administration may want to apply a new 
set of sanctions for North Korea's entry into the fuel cycle business, 
but it is not likely to happen (as we have seen from China's recent 
blockage of a U.N. report on Pyongyang's uranium facility) and at the 
end of the day we will be where we are now: suspecting that North Korea 
has a secret highly enriched uranium facility capable of producing 
bomb-grade enriched uranium and hoping that the claimed low enriched 
uranium facility does not morph into a nuclear weapons related 
facility. Bringing North Korea into the fuel cycle dialogue is the best 
way to guard against this latter concern and perhaps open the door to 
discussing Pyongyang's highly enriched uranium program.
    With regard to confidence building, we should begin a preliminary 
four party dialogue involving North Korea, China, South Korea and the 
United States on replacing the current armistice for a more permanent 
peace arrangement. The precedent for this was the original four party 
peace talks more than a decade ago that had just such a goal. The 
primary benefit of the discussion would be to lay the groundwork on 
what both the south and north require before moving at an appropriate 
time and venue to negotiate an actual peace treaty. The lead role 
played by Seoul and Pyongyang would support the administration's desire 
for improved North-South relations and enhance the near-term benefit of 
identifying and implementing confidence building measures short of a 
peace treaty that would inevitably reduce tension on the peninsula.
    On the economic front, a serious energy survey of North Korea's 
energy capacity is a necessary starting point to establish what types 
of energy assistance other parties could provide should there ever be 
the kind of progress in denuclearization talks that warranted 
assistance. The precedence and promise of energy assistance is well 
established. What is lacking is a current forum to ensure the best 
empirical data is available for parties to make the right choices.
    In anticipation of eventual success in denuclearizing North Korea 
and as a tangible incentive to Pyongyang, a dialogue on practical 
foreign direct investments in North Korea needs to get underway. 
Sectors for promising joint ventures need to be identified, rules 
clarified, and limits understood.
    In all, there are over ten specific areas where we can begin work 
with North Korea that reinforces the positive and gives Pyongyang the 
impetus for seriously weighing the advantages for making the decision 
to get rid of its nuclear weapons program. As long as the basic 
framework of full application of UNSCR 1874 is in force, this approach 
would not run the risk of creating non-humanitarian safety valves which 
would unduly delay Pyongyang's ultimate decision to eliminate its 
nuclear weapons program.
                                 ______
                                 

   Responses of Special Representative Stephen Bosworth to Questions
                   Submitted by Senator John F. Kerry

    Question. How likely is it that the North Korean Government will 
collapse in the next 3-5 years? If the Kim Jong-il regime falters, do 
you believe a new government will be more or less willing to abandon 
the pursuit of nuclear weapons?

    Answer. We are carefully watching developments in Pyongyang. North 
Korea is one of the world's most closed societies, so it is difficult 
to predict the future composition of the North Korean regime or its 
policies.

    Question. Do you believe U.S. diplomatic engagement with North 
Korea makes economic reform and political reform more or less likely?

    Answer. The United States remains open to diplomatically engaging 
North Korea on denuclearization, but this process and its outcomes 
depend on the decisions and actions of North Korea. If North Korea 
improves relations with South Korea and demonstrates a change in 
behavior, including taking irreversible steps to denuclearize, 
complying with international law, and ceasing provocative behavior, it 
can achieve security, economic opportunity, and respect from the 
international community. However, if it continues on its pattern of 
confrontation and isolation and fails to comply with its obligations 
and commitments, it stands no chance of becoming a strong and 
prosperous nation.

    Question. Are North Korean provocations--nuclear tests, missile 
tests, proliferation of nuclear and missile technology, and 
demilitarized zone violations--more or less likely in the absence of 
high-level U.S. diplomatic engagement?

    Answer. We have maintained high-level engagement on this issue. 
When North Korea sank the ROK naval vessel Cheonan in March 2010, the 
United States had been seeking to resume serious negotiations on 
denuclearization, as evidenced by my December 2009 trip to Pyongyang. 
Following the DPRK's sinking of the Cheonan, disclosure of a uranium 
enrichment program (UEP), and shelling of Yeonpyong Island, we have 
continued to engage in intensive diplomatic activities building 
consensus among our allies and Five-Party partners that the DPRK's 
provocations are unacceptable and will not be rewarded.
    Our diplomatic response has included the dispatch of several high-
level delegations to the region. Moreover, during a historic December 7 
trilateral ministerial, the United States, ROK, and Japan declared that 
the DPRK's provocative and belligerent behavior threatens all three 
countries and will be met with solidarity from all three countries. We 
have also continually consulted with China on how it can best use its 
influence with North Korea. During Chinese President Hu's January 
2011visit to Washington, the two sides issued a United States-China 
Joint Statement which ``expressed concern regarding the DPRK's claimed 
uranium enrichment program,'' ``opposed all activities inconsistent 
with the 2005 Joint Statement and relevant international obligations 
and commitments,'' and ``called for the necessary steps that would 
allow for the early resumption of the six-party talks process to 
address this and other relevant issues.'' In addition to fostering 
unprecedented Five-Party coordination, these diplomatic efforts have 
preserved regional stability.

    Question. Looking ahead, is it possible to set the terms of our 
diplomatic engagement in ways that will not reward North Korea's bad 
behavior?

    Answer. We have made it clear that we are open to diplomatically 
engaging North Korea on denuclearization. However, this process depends 
on the decisions and actions of North Korea. We are looking for 
evidence that North Korea is not only seriously committed to 
negotiations but also that such negotiations could be constructive. We 
are working very closely with our Five-Party partners to identify a 
path that we believe will lead to constructive engagement with the 
DPRK. We have made clear that a path would be open if the DPRK took 
steps to improve North-South relations and demonstrated a change in 
behavior, including taking actions toward irreversible 
denuclearization; complying with international law, including its 
commitments under the 2005 Joint Statement of the Six-Party Talks and 
its obligations under U.N. Security Council Resolutions 1718 and 1874; 
and ceasing provocative behavior.

    Question. The September 19, 2005, Six Party Talks Joint Statement 
contained six provisions reflecting overlapping mutual obligations. The 
core pledges included the following:

  <bullet> North Korea pledged to abandon all nuclear weapons and 
        existing nuclear programs and return, at an early date, to the 
        Treaty on the Non-Proliferation of Nuclear Weapons and to 
        safeguards established by the International Atomic Energy 
        Agency;
  <bullet> The United States affirmed that it has no nuclear weapons on 
        the Korean Peninsula and has no intention to attack or invade 
        North Korea with nuclear or conventional weapons.
  <bullet> The United States and the other parties also agreed to 
        discuss, at an appropriate time, the subject of the provision 
        of a light water reactor to North Korea.
  <bullet> North Korea and the United States undertook to respect each 
        other's sovereignty, exist peacefully together, and take steps 
        to normalize their relations subject to their respective 
        bilateral policies.
  <bullet> China, Japan, South Korea, Russia and the United States 
        stated their willingness to provide energy assistance to North 
        Korea.

    If the DPRK abides by all of its pledges, does the United States 
remain willing to fulfill all of its commitments under the September 
19, 2005, Joint Statement? If not, which pledges does the United States 
intend to renegotiate in light of the changed circumstances on the 
Korean Peninsula (such as the North's nuclear and missile tests, its 
reported sensitive proliferation activities, its violations of the 
armistice, and its independent pursuit of light water nuclear reactor 
technology)?

    Answer. If the DPRK fulfills its commitments under the 2005 Joint 
Statement of the Six-Party Talks, including abandoning all nuclear 
weapons and existing nuclear programs and returning, at an early date, 
to the Treaty on the Non-Proliferation of Nuclear Weapons and to 
International Atomic Energy Agency safeguards, the United States 
remains willing to fulfill all of its joint statement commitments.

    Question. The stated goal of U.S. policy remains accomplishing the 
complete, verifiable, and irreversible denuclearization of the Korean 
Peninsula.

  <bullet> Is there a benefit to establishing manageable benchmarks 
        toward this final objective? Are there interim goals such as 
        verifiably capping fissile material production, securing a 
        moratorium on nuclear and missile tests, and receiving 
        assurances on proliferation, for which the United States would 
        be willing to provide incentives and/or some sanctions relief?

    Answer. The United States seeks the verifiable denuclearization of 
the Korean Peninsula in a peaceful manner. However, verifiable capping 
of fissile material production, securing a moratorium on nuclear and 
missile tests, and receiving assurances on proliferation are among the 
intermediate goals we are also pursuing in order to achieve the 
ultimate objective.

    Question. We know other countries, including Iran, are likely 
watching events on the Korean Peninsula with considerable interest. Is 
the above approach, which acknowledges the potential realities of the 
situation, consistent with our global nonproliferation agenda?

    Answer. Our approaches to nonproliferation challenges may vary 
depending on the circumstances of each case, but our objectives are 
consistent: to uphold and strengthen the nonproliferation regime and to 
prevent and eliminate threats to international security caused by the 
spread of nuclear weapons and proliferation-sensitive technologies. In 
that regard, we expect North Korea to take irreversible steps toward 
denuclearization, to return to the Nuclear Non-Proliferation Treaty and 
International Atomic Energy Agency (IAEA) safeguards, and to comply 
with its U.N. Security Council Resolution (UNSCR) obligations. In cases 
where the IAEA Board of Governors or the U.N. Security Council has 
required action, we expect states to comply with those obligations as 
well. We have also actively urged all states to implement UNSCRs 1718 
and 1874 fully and transparently to prevent proliferation to and from 
the DPRK.

    Question. The United States Government has historically supported a 
broad range of humanitarian outreach to the DPRK, including food aid, 
assistance on public health (such as tuberculosis control), POW-MIA 
recovery operations, people-to-people initiatives, cultural and 
educational exchanges, and even limited technical outreach to 
bureaucrats. But over the past few years, such efforts have been 
suspended.

  <bullet> What is the administration's position on broadening and 
        deepening our humanitarian engagement with the DPRK? Does 
        humanitarian outreach help promote gradual changes inside North 
        Korea that are advantageous in terms of U.S. interests?

    Answer. Our humanitarian assistance is not linked to any political 
or security issues.The United States remains concerned about the well-
being of the North Korean people. The U.S. Government's policy on the 
provision of humanitarian assistance is based on three factors: (1) the 
level of need in a given country; (2) competing needs in other 
countries; and (3) our ability to ensure that aid is reliably reaching 
the people in need. This policy is consistent with our longstanding 
goal of providing emergency humanitarian assistance to the people of 
countries around the world where there are legitimate humanitarian 
needs. However, consistent with our practice worldwide, the United 
States will not provide food aid without a needs assessment and 
adequate program management, monitoring, and access provisions in 
place.

    Question. As a matter of policy, does the administration link food 
aid and medical assistance to nonhumanitarian considerations?

    Answer. The U.S. Government does not link food aid and medical 
assistance to nonhumanitarian considerations. Our longstanding goal is 
to provide emergency humanitarian assistance to the people of countries 
around the world where there are legitimate humanitarian needs.

    Question. What is the Obama administration's policy on the issuance 
of visas to North Koreans interested in participating in humanitarian, 
cultural, or scientific exchanges?

    Answer. The United States believes that exchanges can help develop 
technical knowledge in critical areas such as agriculture, energy, and 
medicine, as well as encourage greater awareness of the outside world 
by North Koreans. We look forward to North Korea taking actions that 
will allow for the expansion of educational, cultural, and people-to-
people exchange programs.

    Question. What impact has (i) rising global food prices; (ii) the 
rising price of international crude oil; (iii) recent flooding and 
droughts in North Korea; and (iv) the North Korean attempt at currency 
reform had on the food situation in North Korea?

    Answer. The North Korean Government's unwise economic policies, 
including its failed attempt at currency reform in late 2009, are the 
primary causes of the country's weakened food security situation. 
Rising global food prices, the rising price of international crude oil, 
and recent flooding and droughts in North Korea have only served to 
exacerbate a situation resulting from the regime's poor choices. The 
2010 DPRK Human Rights Report notes that food shortages initially 
followed the currency reform. Chronic shortages in food supplies could 
be addressed by the DPRK if the North Korean Government implemented 
appropriate economic policies encouraging private sector-led growth and 
development.
    In the near term, rising global food prices are expected to further 
reduce the North Korean Government's ability to import food to meet the 
projected gap between food production and food needs in 2011. The 
impact of the rising price of international crude oil, while difficult 
to quantify, could also inhibit the purchase of essential agricultural 
inputs and add costs to the North Korean Government's dispersal of food 
through the Public Distribution System.

    Question. From February 8-15, 2011, a rapid food security 
assessment was completed in three North Korean provinces by a needs 
assessment team that included five nongovernmental organizations 
(NGOs): Christian Friends of Korea, Global Resource Services, Mercy 
Corps, Samaritan's Purse, and World Vision. What were the principle 
findings of this NGO delegation?

    Answer. The visit was requested by the North Korean Government, 
whose representatives informed the aid NGOs of claimed food shortages 
in North Korea. The United States did not ask the five aid agencies to 
conduct their recent food assessment nor act on behalf of the U.S. 
Government. The United States continues to be concerned for the well-
being of the North Korean people.
    According to their press release, the five aid agencies found 
evidence of looming food shortages and acute malnutrition in the DPRK. 
The seven-member team traveled to the provinces of North Pyongan, South 
Pyongan, and Chagang from February 8-15. We understand that the team 
visited 45 sites including hospitals, orphanages, citizens' homes, 
cooperative farms and warehouses. We also understand that the team that 
observed some evidence of malnutrition and food shortages, which were 
particularly prevalent among families that depend on the North Korean 
public food distribution system and most severely impact children, the 
elderly, the chronically ill, and pregnant and nursing mothers.

    Question. What is the Obama administration's assessment of the 
monitoring and verification of food assistance that occurred during the 
2008-09 period? As part of your answer, please evaluate the adequacy of 
safeguards that were in place to prevent diversion of food assistance.

    Answer. The United States remains concerned about the well-being of 
the North Korean people. Our last food assistance program was abruptly 
suspended by the North Koreans in March 2009, and our humanitarian 
personnel were ordered to leave the country and forced to leave behind 
over 20,000 metric tons of U.S. food items. The question of what 
happened to the unmonitored aid is a key concern that must be addressed 
before any discussion of providing future food aid is begun.
    Consistent with our practices worldwide, the United States will not 
provide food aid without a thorough needs assessment and adequate 
program management, monitoring, and access provisions in place. Before 
the start of the 2008-09 program, we negotiated the strongest 
monitoring and verification safeguards in the history of international 
humanitarian assistance programs in North Korea. These standards have 
not been met since the program ended.

    Question. Have North Korean officials made any representations 
within the past year to their U.S. counterparts on adherence to 
monitoring and verification arrangements for food assistance?

    Answer. The United States works on this matter through diplomatic 
channels. The details of our diplomatic conversations can be shared in 
a classified setting.

    Question. If there is a demonstrated need, if the United States 
determines that the situation ranks serious enough compared to other 
humanitarian crises, and if North Korea is willing to accede to robust 
verification and monitoring arrangements to ensure that food is 
distributed to those most in need, would the administration support the 
resumption of food aid to North Korea?

    Answer. The U.S. Government assesses that the DPRK suffers from a 
chronic food shortage. We remain deeply concerned about the well-being 
of the North Korean people, however, consistent with our practices 
worldwide, U.S. food aid is contingent on a thorough needs assessment 
as well as competing international needs and adequate program 
management, monitoring, and access provisions. In addition to these 
standard practices, the DPRK must also account for the over 20,000 
metric tons of food left behind when the DPRK expelled U.S. food 
monitors in March 2009.
                                 ______
                                 

  Responses of Assistant Secretary of State Kurt Campbell to Questions
                   Submitted by Senator John F. Kerry

    Question. Some observers have asked whether North Korea policy has 
taken a back seat to the wars in Afghanistan and Iraq, the Iranian 
nuclear challenge, and the Middle East peace process, to say nothing of 
pressing domestic and international economic priorities. In recent 
weeks, our foreign policy establishment is justifiably focused on the 
monumental developments still unfolding in the Middle East.

  <bullet> Given the crowded international and domestic agenda, what 
        priority do you attach to securing peace and stability on the 
        Korean Peninsula?
  <bullet> Have the recent disclosures of North Korea's uranium 
        enrichment program made North Korea an even more pressing 
        concern?

    Answer. Maintaining peace and stability on the Korean Peninsula and 
the Asia-Pacific region and achieving the verifiable denuclearization 
of the Korean Peninsula in a peaceful manner remain key U.S. foreign 
policy priorities.
    We have long suspected North Korea of having a uranium enrichment 
capability, and we have regularly raised it with the North Koreans and 
with our partners. North Korea's claim to have a uranium enrichment 
program (UEP) is yet another provocative act and, if true, contradicts 
its own pledges and commitments under the 2005 Joint Statement of the 
Six-Party Talks and its obligations under U.N. Security Council 
Resolutions 1718 and 1874. The construction of uranium enrichment 
facilities, as well as any related activity, is unacceptable and 
inconsistent with the objective of the verifiable denuclearization of 
the Korean Peninsula, which has long been the core goal of the six-
party talks.
    North Korea's UEP disclosure underscores the threat that its 
nuclear and ballistic missile programs and proliferation activities 
pose to global security. We urge the international community to 
implement U.N. Security Council Resolutions 1718 and 1874 fully and 
transparently. We continue to coordinate with our allies and partners 
to determine an appropriate response to the DPRK UEP, including at the 
U.N.

    Question. The wider area around the South Korean-North Korean 
border is among the most militarized, if not the most militarized, in 
the world. Last year tensions reached the highest level in decades as a 
result of North Korea's provocative behavior.

  <bullet> Is the Obama administration concerned by the potential for 
        miscalculation or inadvertence producing a wider scale 
        conflict?
  <bullet> What steps is the Obama administration taking in concert 
        with our South Korean ally to preserve stability and minimize 
        the possibility of miscalculation or misunderstanding resulting 
        in wider scale conflict?

    Answer. Following the DPRK's sinking of the Cheonan, its disclosure 
of a uranium enrichment program, and its shelling of Yeonpyong Island, 
the United States has engaged in intensive diplomatic activities and 
policy coordination with the ROK and our other Five-Party partners. Our 
actions have ensured clear communication, preserved regional stability, 
and resulted in a constructive strategy for the way forward on North 
Korea. The United States and the ROK continue to routinely conduct 
joint military exercises to enhance interoperability and the readiness 
of alliance forces to respond to threats to peace.
                                 ______
                                 

        Responses of Dr. Marcus Noland to Questions Submitted by
                         Senator John F. Kerry

                                FOOD AID

    The U.N. World Food Programme (WFP), which is responsible for much 
of the food aid in North Korea, has reportedly said its current food 
supply could sustain operations in the North for only another month. 
Next month, the WFP plans to complete its assessment of North Korea's 
food situation. But not many doubt that North Korea's 24 million people 
need more food, and I note your observation that the situation appears 
to be ``deteriorating'' once again and also that early spring 
historically has often been a more challenging period in terms of food 
security.

    Question. It's imperative that international food aid reach hungry 
North Korean children and their families--not the military and 
supporters of the regime. Is it possible to take effective measures to 
limit the diversion of food assistance and, if so, what can be done?

    Answer. Diversion is a real and troubling phenomenon. The 
fundamental issue
is that the North Korean Government has never ``bought in'' to 
internationally accepted norms regarding humanitarian aid. In this 
context there are three strategies that we can pursue to inhibit 
diversion or limit its negative impact.
    First, we need to implement the most rigorous monitoring program 
possible. In 2005, the World Food Programme (WFP) touted an agreement 
reached ``in principle'' with the North Korean Government that would 
mark an enormous improvement in the monitoring regime:

  <bullet> Household food information. Every 4 months the WFP would 
        undertake baseline household surveys, interview local officials 
        and others (e.g., farmers, factory officials), hold focus group 
        discussions, and take observational walks. The first household 
        survey was conducted in June 2005.
  <bullet> Distribution monitoring. The WFP would shift at the margin 
        to monitoring distribution centers and food-for-work projects, 
        interview those receiving food aid there, and increase 
        monitoring visits to nonhousehold sites (e.g., county 
        warehouses, factories producing food products with WFP 
        commodities, institutions receiving food aid).
  <bullet> Ration cards. All WFP beneficiaries would be given a WFP-
        designed and printed ration card that would be checked by WFP 
        at distributions. As of August 2005, the distribution of these 
        cards was nearly complete.
  <bullet> Commodity tracking. WFP staff would be allowed to physically 
        follow food aid from the port of entry, to county warehouses, 
        to three to six Public Distribution Centers (PDCs) per county, 
        as well as implement a more uniform and consistent system to 
        track commodities by waybill number, with the ultimate goal of 
        eventually introducing an electronic system that would allow 
        tracking of individual bags from port to final point of 
        delivery. The first visits to PDCs began in June 2005.

    This program was never implemented. Increased bilateral assistance 
and an improved harvest provided the North Koreans the opportunity to 
backtrack.
    The issue was rejoined in 2007-08 when the U.S. Government agreed 
to provide up to 500,000 metric tons of grain, partially through the 
WFP and partially through a consortium of U.S. nongovernmental 
organizations (NGOs). The NGOs did not adopt the full technological 
package that the WFP had laid out in 2005 but did appear to make 
improvements in monitoring over previous practices, by using Korean 
speakers in-country for instance, something that had been previously 
prohibited. The WFP appears to have forgotten the 2005 agreement; 
reverted to earlier, weaker monitoring protocols; and was ultimately 
unable to mount a credible program to deliver the slated aid.
    The 2005 agreement in principle stands as one benchmark, the 
monitoring regime implemented by the NGOs in 2008 another. Any 
monitoring program should try to go beyond these.
    Even in the best circumstances, however, there is likely to be 
diversion. But it is important to keep in mind and exploit the reality 
that even if diverted, aid does not just disappear into the ether: 
Someone consumes it. In this regard, there are two strategies that we 
can pursue to limit the deleterious impact of aid diversion.
    First, some forms of aid are more prone to diversion than others. 
Among bulk grains, rice is preferred for elite consumption; corn is 
less preferred, and barley and millet are the least preferred. If we 
are going to provide aid in the form of bulk grains, it would be better 
to provide it in forms that are not preferred for elite consumption. 
Even if diverted and monetized, the grain will likely be consumed by 
poor people.
    Likewise, we should target aid delivery into the worst affected 
regions, a policy USAID first began in 2005. The logic is of the 
second-best: Even if the aid is diverted as it enters the country, it 
is likely to pool in that catchment area and be sold in markets in the 
worst affected regions; while it would be best for a aid to reach the 
narrowly targeted population, like the case of providing aid in less 
preferred forms, even if sold it is likely to be sold to a needy 
population.
    Finally, one should be careful in thinking about delivery of 
specialized infant formulas or other therapeutic products; these may be 
highly susceptible to diversion and potentially fatal if administered 
incorrectly.

    Question. What impact do you think food aid has on the Kim 
government's control over the economy?

    Answer. On the whole, aid almost surely benefits the state. The 
issue is how one weighs that implication against the amelioration of 
suffering. The impact of aid on political control (and ultimately 
economic control) is partly a function of how the aid is delivered and, 
as in the case of diversion, there is a hierarchy of approaches in 
terms of their susceptibility to misuse. Direct delivery to targeted 
populations such as infants or pregnant women is the most preferred; 
the nature of the target and delivery method would seem largely to 
insulate this approach from politicization.
    Bulk aid delivered through the public distribution system (PDS) 
reinforces government control: It comes through a state-controlled 
channel, the public pays money to the government to receive it, and the 
source of the aid can be obscured. (When the end-user receives the aid 
at a PDC, it literally comes in bulk form through a chute; the consumer 
does not see any bag with a U.S. flag or source information.) In the 
past the government has given certain groups, such as workers at state-
owned enterprises, preferential access to the PDS (and hence aid), 
indirectly tying access to food to loyalty to state institutions.
    However, there are other forms of delivery that are less 
susceptible to misuse. One is work-for-food projects in which people 
engage in work (typically on infrastructural projects). This approach 
is subject to state capture (the state can choose the project and 
workers), but the aid is less prone to outright diversion and is 
probably less effective in reinforcing state power than delivery of 
bulk grains through the PDS.

    Question. Can international food assistance help fuel the growth of 
private markets in North Korea?

    Answer. Ironically, international food aid has fueled the growth of 
private markets in North Korea. During the famine period of the 1990s, 
the real price of food was extraordinarily high. Control of aid 
potentially conveyed astronomical rents--but only if markets existed 
where these rents could be monetized and captured. The entry of large 
scale aid into North Korea in the mid-1990s created an incentive within 
at least parts of the elite--the military, for example--to allow the 
development of markets as a platform for personal or group enrichment. 
Aid was essentially a lubricant in the creation of markets. Diverted 
aid, which we seek to limit for policy reasons, presumably continues to 
play this role.
    The conterminous existence of markets and aid contributes to a 
symbiotic relationship between market participants and PDS managers 
(who in some cases appear be one and the same) and the political 
structure more generally. Middlemen need to know when aid shipments are 
likely to arrive and push down prices, nationally and locally. In such 
a situation it is difficult to parse the overlapping interests between 
centrally placed officials, local PDS managers, and market 
participants. One thing we can say is that aid creates greater price 
volatility in the market (since it can represent a large increment of 
marginal supply) and works against the interests of cultivators since 
it depresses prices for their output.
              political implications of economic struggles
    You have described how state failure in the North Korean economy 
has led to the spread of market activities that may represent 
``semiautonomous zone(s) of social communication and, potentially, 
political organizing.

    Question. Does this development point to the prospect of near term 
political instability in your view?

    Answer. Given the dearth of civil society institutions in North 
Korea capable of channeling mass discontent into constructive political 
action, I am skeptical that the apparent increased personal autonomy 
associated with the development of markets and new forms of 
communication such as cell phones has proceeded to an extent that it 
augurs political instability in the near term. This is a long-term 
process that I do believe will impose increasing constraints on the 
government, admittedly beginning from a point of near complete 
unaccountability. In the near term, reforms
are more likely to emerge from intraelite competition following the 
death of Kim
Jong-il than from a ground up movement.

    Question. Are there ways that you think the United States and the 
international community should position itself vis-a-vis the North 
Korean people to leverage what you describe as the state failure of the 
North Korean economy?

    Answer. The rehabilitation of North Korea's failing economy poses 
two interrelated challenges. The first is to raise per capita incomes 
to address the country's widespread poverty and food insecurity. The 
second is to encourage a fundamental reorientation away from the state 
and toward effectively functioning market-oriented institutions. The 
latter has a political dimension as well: Apart from improving the 
functioning of the economy and better addressing the population's 
material needs, the development of more market-oriented institutions, 
even if not fully independent of state control, would ameliorate the 
pervasive control over people's lives.
    However, we cannot assume that any and all forms of economic 
engagement will have similarly transformative effects. To the extent 
that North Koreans have any interactions with foreigners, it is often 
with government agencies or NGOs. Given the North Korean milieu, it is 
quite natural for North Koreans to think of such engagement as a form 
of political bargaining. But an important long-run task of engagement 
is a sort of political-economic socialization: to educate North Koreans 
about the functioning of market economics and to reorient their 
conception of engagement away from politically driven resource 
transfers or political tribute and toward mutually beneficial exchange. 
The transformative potential of external economic integration will 
depend crucially on the nature of the economic ties that develop 
between North Korea and its partners and the extent to which such ties 
can be appropriated by politically connected groups such as the Kim 
family clique, the party, and/or the military.
    In such a context, not all forms of public and private engagement 
are equally transformative. One can imagine a hierarchy of modalities 
of engagement that combine public involvement with private investment 
and trade, each with differential effects on the long-run objective of 
reform. From the standpoint of encouraging systemic transformation in 
North Korea, energy pipelines or even transportation links would have 
the least impact. Next in this hierarchy would be projects such as Mt. 
Kumgang, which can literally and figuratively be fenced off from the 
rest of the North Korean economy and society and as a result have 
limited effects on institutional transformation. Industrial parks, 
bonded warehouses, and other preferential investment zones in urban 
areas would be preferable, and investment by foreign firms throughout 
North Korea would be the best of all. Sadly, it is apparent that 
Pyongyang understands the implications of these different modalities of 
engagement and prefers precisely the ones that generate hard currency 
earnings without requiring significant alteration of existing 
practices.
    Yet even under the most propitious conditions, it is evident that 
the government will attempt to steer economic engagement through state-
controlled entities rather than the emerging nonsanctioned market-based 
actors our surveys documented. One implication is the necessity of 
developing Sullivan-type principles of labor standards, similar to 
those implemented by U.S. investors during the apartheid period in 
South Africa, to ensure that foreign investors do more than simply 
exploit virtual slave-labor conditions. For investors from South Korea, 
Japan, the United States, and other Organization for Economic 
Cooperation and Development (OECD) members, adherence to the OECD's 
Guidelines for Multinational Enterprises, including those ensuring that 
North Korean workers are aware of their rights and how to exercise 
them, would be another way of trying to ameliorate the impact that 
engagement with state-owned entities in North Korea could have in terms 
of reinforcing state control.

                      VIEWS OF NORTH KOREAN PEOPLE

    Given the tight political and social control exerted by the North 
Korean Government, we have very little insight into the everyday lives 
of North Koreans and the nature of their relationship with their 
government. Through the extensive interviews conducted by experts like 
you and Barbara Demick, we have begun to acquire some insight into 
their situations.

    Question. How did most of the over 1,600 North Korean refugees you 
interviewed for your recent book seem to view the North Korean 
Government while they were living in North Korea?

    Answer. In a strict sense this question is impossible to answer 
because no one has been able to interview North Koreans while they were 
in North Korea; our knowledge is based on self-reported retrospective 
statements by refugees about their beliefs while in North Korea, which 
are almost impossible to verify and subject to recollection bias. And, 
there are differences between people. That said, on the whole, the 
attitudes of the survey respondents might be summarized as follows. If 
asked while in North Korea, the ``approval rating'' that they would 
have generated would have been low. However, their understanding of 
life beyond North Korea was incomplete and subject to huge gaps in 
knowledge, some filled by myth and rumor. Once outside North Korea--
even in China, which we tend to think of as a less than fully free 
information environment--as they began to learn more about the outside 
world, North Korea's position in it, and by extension the relative 
situation of loved ones left behind, their attitudes harden further, at 
least at the margin.

    Question. While living in North Korea, did many of the refugees you 
interviewed seem to subscribe to the regime's central narrative that 
hostile foreign forces are to be blamed for the country's problems?

    Answer. Again, it is impossible to fully verify these self-reported 
retrospective accounts. Nevertheless, it appears that an implication of 
increasing access to nonstate news sources has contributed to growing 
skepticism about the regime's central narrative. Over time, the share 
of respondents who blamed foreigners for their situation steadily fell, 
and the numbers who held their own government responsible formed a 
large majority.

    Question. Do you see signs that within the next 5 years, civil 
society voices might emerge capable of channeling dissent into 
effective political action?

    Answer. I would be very modest about my ability to divine such 
developments. There may be developments occurring beneath the surface 
or that outsiders don't fully grasp that could give rise to some kind 
of civil society voice that does not currently exist. I am thinking, 
for example, of student or professional groups, or even public employee 
networks that bring together people from different parts of the 
country, create opportunities for ``comparing notes''--both within and 
beyond their prescribed mandate, and could possibly serve as a 
mechanism for group action across localities. I don't know that such 
networks exist, but I would not be surprised if they do, and their 
political relevance is unpredictable. Also perhaps not precisely 
analogous in terms of their political implications, former United 
Kingdom Ambassador John Everard argues that the supply networks that 
bring goods from China to Pyongyang constitute an important 
informational network, bringing people information about the outside 
world and news of developments both inside and outside of North Korea 
not provided through official channels.

    Question. Based on your conversations with refugees, what policy 
initiatives might contribute most toward increasing North Koreans' 
knowledge and awareness of developments inside and outside their 
country?

    Answer. I think that there is a lot of role for exchanges; even if 
the groups are hand-picked by the government, and even if there are 
minders within these groups, there must be some value to getting larger 
numbers of North Koreans out into the world and interacting with 
foreigners.
    The refugees say that while they were in North Korea they liked 
listening to foreign radio broadcasts. One of the most rewarding 
experiences I have ever had was after a talk that I had given in Seoul 
being introduced to a young North Korean refugee graduate student who 
had been in the audience and asked a mutual acquaintance for an 
introduction. She told me that when she was in North Korea she used to 
listen to my interviews on Radio Free Asia because I made the economic 
developments within her country comprehensible--something that the 
state was unwilling to do. There are people listening.
                                 ______
                                 

         Responses of L. Gordon Flake to Questions Submitted by
                         Senator John F. Kerry

                          NORTH-SOUTH DYNAMICS

    Question. Tensions on the Korean Peninsula remain high after the 
shelling of Yeonpyeong Island. The North's recent behavior raises the 
distinct possibility of further destabilizing conduct in 2011 and has 
significantly hardened official views in Seoul.

  <bullet> Is the present situation significantly more dangerous than 
        what we have seen in recent years?

    Answer. Yes; it is. The most important factor in this is the change 
in South Korea's willingness to respond to North Korean provocations 
with force. Not only has South Korea significantly revised its rules of 
engagement for responding to North Korean actions, but President Lee 
Myung Bak is now politically in a position where should he fail to 
respond to a similar provocation he could very well face severe 
political consequences. After the North Korean shelling of Yeongpyeong 
Island in November there were already calls from some corners of the 
Presidents own party for his impeachment for having failed to protect 
the nation. It is unclear that the North Korean leadership understands 
this change in South Korea, and as such the situation is dangerous 
indeed.

  <bullet> What are the risks that South Korea and our alliance faces 
        should Seoul fight back against a future North Korean attack?

    Answer. The most obvious risk is the one we have lived with for 
nearly 60 years, the specter of another full scale war on the Korean 
Peninsula. Though by most estimates, North Korean no longer possesses a 
serious invasive capacity and absent outside assistant does not have 
the ability to sustain a conflict, with its long range artillery, its 
missiles, chemical and biological weapons and possibly a nuclear 
device, Pyongyang does have the ability to hold Seoul hostage and to 
make any conflict, regardless of the ultimate outcome, indescribably 
costly. Our South Korean allies know this far better than we do and 
feel the implications much more directly. As such I do not think that 
we need to be overly worried about South Korea dragging us into a 
conflict. In fact, should the United States appear to be holding South 
Korea back--as we did in the years immediately after the signing of the 
armistice--in the face of such egregious North Korea provocations, such 
perceptions could undermine South Korean views of the reliability of 
the United States as an ally when most needed. That said, perhaps the 
greatest risk that the United States and the Republic of Korea jointly 
face is that North Korea would be unable to calibrate its counter-
response to a South Korean response and that communication channels 
with and within North Korea would not be sufficient to prevent a full 
scale escalation.

               CHINA'S ROLE/IMPLICATIONS FOR U.S. POLICY

    Question. You have recently written about China's efforts ``to 
shield[] North Korea from the consequences of its actions.'' Senior 
government officials have used words such as ``enabled'' and 
``emboldened'' to discuss the impact of China's tolerance of North 
Korea's aggressive conduct. Any effort to wait out North Korea by 
increasing pressure, withholding economic benefits, and dangling the 
prospect of large-scale aid and diplomatic benefits in return for 
fundamentally different behavior would seem to require enhanced Chinese 
cooperation.

  <bullet> Is China, over time, willing to make this kind of a shift in 
        approach?

    Answer. While I am hopeful that over time, China will be willing to 
recalibrate its approach to North Korea, recent events in the Middle 
East have increased China's own sense of vulnerability and thus 
reinforced the most conservative elements in the Chinese leadership. As 
such, at least for the next year or so it is difficult to imaging China 
taking steps which might raise the risk of instability in North Korea. 
In the longer term, however, North Korea's actions and trajectory are 
so fundamentally antithetical to China's own direction and national 
interest that some shift in China's approach to North Korea is 
inevitable.

  <bullet> How much do concerns about Northeast Asia realigning in ways 
        that run counter to China's interests (in response to North 
        Korean behavior) influence Beijing's thinking?

    Answer. I am no longer convinced by the conventional argument that 
China needs North Korea as a ``buffer.'' While China would be concerned 
about U.S. troops North of the 38th parallel, by almost any measure, 
China's interests and positions are far better aligned with a modern 
South Korea than with its troublesome and anachronistic ally North 
Korea. Furthermore, North Korea's actions have actually served to 
bolster the U.S.-ROK alliance, the United States-Japan alliance, and 
even nascent security cooperation between South Korea and Japan. It is 
hard to imagine a scenario in which fundamental change in North Korea 
and the related realignment of Northeast Asia could be worse for 
China's interest.

  <bullet> How much have concerns in Beijing about such a realignment 
        contributed to a tighter Chinese embrace of North Korea over 
        the past year?

    Answer. Although it may be a factor, I think it is misguided. 
Moreover, I think the primary factor behind China's tighter embrace of 
North Korea has less to do with long-term concerns about regional 
realignment and more to do with immediate concerns about the stability 
of the Kim regime.

                              JAPAN'S ROLE

    Question. In recent months, our ally Japan has taken noticeable 
steps to show solidarity with the United States and South Korea after a 
tense year on the Korean Peninsula. For the first time, Tokyo sent 
observers to U.S.-ROK military exercises in November and later 
announced plans to develop closer security cooperation with South 
Korea. In December, a trilateral summit to discuss the situation on the 
Peninsula confirmed Japan's strong support for a unified response to 
the North. What do these welcomed developments say about the way that 
Japan perceives the North Korean challenge?

    Answer. The 1998 North Korean long-range missile test which flew 
over Japan served to make North Korea a focal point of Japanese public 
opinion. Furthermore, the tragic case of Japanese abductees has put a 
human face on the issue as felt by ordinary Japanese. In last year, the 
sinking of the Cheonan and the shelling of Yeonpyeong Island have 
served to further highlight the immediacy of the North Korean threat. 
As such, in terms of United States-Japan alliance coordination and 
cooperation, North Korea is the gift that keeps on giving. One other 
element that should be understood is that for Japan, North Korea is 
also increasingly tied up in the broader question of China's rise and 
role in the region. The naval class near the Senkaku/ Diaoyu islands 
last year brought security concerns about China to the fore in an 
unprecedented manner. As such, as matters develop it is likely that 
Japan will increasingly view the North Korea issue in the context of 
Chinese support for North Korea.
                                 ______
                                 

          Responses of Robert Carlin to Questions Submitted by
                         Senator John F. Kerry

   NORTH KOREAN POLITICS: REGIME STABILITY AND LEADERSHIP SUCCESSION

    You are one of this country's most experienced North Korea 
watchers. Even prior to Kim Jong-il succeeding his father Kim Il-Sung 
in 1994, analysts have been predicting the collapse of the North Korean 
Government. We are still waiting and rightly planning for potential 
changes to come.

    Question. In your written testimony, you say, however that ``[i]t 
does not make sense to base a policy on the assumption that a collapse 
will happen soon--that is, in the next 2-3 years.'' Why, and what are 
the dangers of laboring under such an assumption?

    Answer. Many like to think we can assess the health and expected 
longevity of political systems with an approach similar to what doctors 
use for living beings. Political science delights in charts and graphs 
to plot ``regime health'' and predict collapse. In truth, the track 
record is much better in identifying the warning signs after the event 
than in advance.
    Over the past 30 years, we've been through numerous episodes when 
analysts predicted the end was nigh for the DPRK. North Korea is still 
with us.
    There have been several times when some in Washington convinced 
themselves that the North was near or on the road to collapse. These 
officials have moved on; Pyongyang is still a going concern.
    The problem with basing a policy on the assumption that North 
Korean collapse is around the corner is that it leads us down any one 
of several dead-end roads, convincing us to: sit patiently on our 
haunches and do nothing; adopt a shortsighted approach designed to 
chase after the will-o'-wisp of collapse; or make unrealistic 
commitments that one hopes will never have to be met because the North 
will disappear before the bill comes due. The result in each case is 
that the situation grows worse, the problem more complicated. The only 
constant is the refrain from Washington, ``What do we do now?'' Once 
it's too late, what we can't do is to go back and take those steps that 
might have protected U.S. national interests at an earlier point but 
have now been overtaken by events.

    Question. You also warn that if and when social and political 
unrest occurs in the North, it could ``quickly descend into violence 
that could make Libya look like a tea party.'' Why, and what are the 
implications of this statement for U.S. policy?

    Answer. The North has a large army and numerous security forces, 
huge quantities of weapons with a population trained to use them, and 
enough loyalists to ensure that any sort of internal fighting will be 
intense. In such a situation, the United States will find itself in a 
dangerous position. Unlike in Libya, where external forces have been 
able to act with relative impunity under the mantle of a U.N. 
resolution, in the case of North Korea both China and Russia will 
almost certainly block a similar sort of mandate. A ``no fly zone'' 
over the DPRK--especially given the fact that several major North 
Korean cities are either on the border or less than 20 miles from 
China--is out of the question for Beijing. The result will very likely 
be a lengthy, destructive, and destabilizing internal conflict right on 
the doorstep of our treaty allies: the ROK and Japan. In those 
circumstances, to the extent Seoul feels it can or must influence the 
outcome, that will only add fuel to the fire and put enormous strains 
on U.S.-ROK relations.

    Question. There appears to be increasingly little question that Kim 
Jong-il's youngest son Kim Jong-un is being groomed to succeed his 
father. What are your observations with regard to how the succession 
process is proceeding in North Korea? What are the implications for 
regional peace and security?

    Answer. From the point that Kim Jong-un was formally revealed in 
public (certainly to the external audience) in September 2010, the 
succession process has appeared to move quickly and smoothly. Since we 
don't know for sure when the process actually began for the internal 
audience, however, we can't very well say whether it is ahead of 
schedule or moving at a forced pace.
    Perhaps the better questions to ask are whether the younger Kim yet 
has a cadre of his own loyalists in place, how much experience he has 
had or still needs in key positions in the party's Central Committee, 
and whether he has the intestinal fortitude to rule. Obviously, a 
botched succession raises the dangers of the sort of situation 
discussed above. Some observers believe that the succession process 
itself brings with it a period of uncertainty and a likelihood of 
increased tensions (not to mention military clashes) as the successor 
seeks to win his spurs and those around him act to prove their loyalty. 
This is the stuff of TV drama, but I don't know of any evidence that it 
is actually the case in North Korea. Rather than look on the succession 
only as a period of heightened danger, it makes as much sense for the 
U.S. to view it as a time of opportunity, a period when it becomes 
possible to search for new openings and, with equal measures of luck 
and perseverance, to create new realities less dangerous, more 
manageable, and hopefully more amenable to our own national security 
interests.

            NORTH KOREA: MOTIVATIONS AND THREAT PERCEPTIONS

    Question. Within the past year, North Korea has sunk the ROK 
frigate Cheonan, shelled Yeonpyeong Island, announced a clandestine 
uranium enrichment facility to the world, and, according to recent 
reports, readied a second missile launch facility that might be capable 
of launching long-range missiles. Despite these developments, you wrote 
in your testimony that ``North Korea is largely in deterrent-defensive 
mode--militarily, diplomatically, and in every other way.'' How does 
this square with widely held perceptions of the North's recent 
behavior, and who and what does Pyongyang feel the need to deter/defend 
against?

    Answer. The North Koreans have a siege mentality, as well they 
might. They see themselves as inhabiting a small, weak country put upon 
and threatened on all sides, with not a single, solitary reliable ally. 
Small countries that survive over time usually do so by adopting one of 
two basic postures toward their larger neighbors--bended knee or 
hedgehog. The North has chosen the latter. Its prickliness is not just 
with the United States, but also with the PRC and, when it existed, the 
USSR. The Wilson Center's ``Cold War History'' series of documents 
illustrate for anyone interested just how exasperating the North has 
long been to friend and foe alike.
    It is worth bearing in mind that the North is not an expansionist 
power and has no territorial ambitions outside the Korean Peninsula. 
How serious it even continues to pursue reunification is an open 
question. I think the evidence suggests it hasn't had much stomach for 
a military solution to that question for at least 30 years. Instead, 
the two Koreas have settled into a long, sometimes violent, political 
struggle. By virtue of its political vitality and economic success, 
South Korea is much more of a threat to the North's existence than the 
other way around. The result is that the North--by far the weaker 
party--feels it imperative to push back, keep the South off balance, 
and continuously assert its right to survive. Sometime this takes the 
form of diplomatic initiatives, sometimes of limited military moves. In 
Pyongyang's view, nothing could be worse than a peace and quiet in 
which the world could forget that North Korea exists. The greatest 
danger for the past 20 years has not been a large-scale North Korean 
military move against the South but a small military incident spiraling 
into something bigger and more dangerous. The North's shelling of 
Yeonpyeong Island, as bad as it was, seemed to bring us very close to 
the threshold of something much worse. Indeed, the situation in the 
West Sea--with conflicting North-South Korean claims and escalating 
military reinforcements by both sides--is more and more a powder keg.

                              CHINA'S ROLE

    Question. In your written testimony, you warn against ``sitting and 
waiting while another country shape[s] the future of Northeast Asia.'' 
Can you elaborate on this statement and its implications for peace and 
stability on the Korean Peninsula?

    Answer. North Korea is not the jewel in the crown, but how the 
Korean issue is eventually resolved will help set the stage for 
developments in Northeast Asia for decades to come. There was a time 
not so long ago when the United States had an active, not simply 
reactive, policy toward North Korea. Washington's leadership on the 
issue made it easier for both Japan and South Korea (to the extent they 
chose to do so) to engage Pyongyang. There was impressive, ongoing 
coordination between Tokyo, Seoul, and Washington on a positive program 
to deal with the North. And, wonder of wonders, Pyongyang was a willing 
participant because it saw establishing a positive relationship with 
the United States as a way to retain maximum independence from its big 
neighbor across the Yalu River.
    The situation today is completely different, and dangerously so. 
Under any circumstances we know that China will insist on--and must 
have--a voice in eventual resolution of the Korean question. But these 
days the Chinese role has been magnified as the United States has 
removed itself from any serious dealings with the DPRK. With nothing 
standing in its way, China seems to be moving to insure that the weight 
and breadth of its presence in North Korea--and by extension its 
influence on the entire peninsula--will only grow larger and more 
permanent in the future.
    That doesn't augur well for peace and stability either in Korea or 
the region. I do not mean this as a criticism of China, nor should it 
be taken to imply that we must be suspicious of Chinese motives. It is 
a simple fact, however, that the United States still has treaty 
commitments as well as important economic and political interests that 
demand our full-time involvement in Korea--the whole of Korea. Absent 
our serious, sustained, and effective involvement on the peninsula, the 
impression will grow that ours is no longer the vital presence in the 
area. Military exercises and displays of armed might only go so far. By 
themselves, they cannot overcome the dangerous notion--and let's not 
fool ourselves, such a notion is afoot--that the United States is a 
waning power, at least in Northeast Asia, and that China's star is 
rising. The expanding Chinese presence in North Korea, we should 
reckon, may come to symbolize the new day, demonstrating China's 
growing ability to shape the future on a crucial regional issue in a 
way, some will argue, that the United States no longer seeks to do.
                                 ______
                                 

  Responses of Special Representative Stephen Bosworth and Assistant 
   Secretary Kurt Campbell to Questions Submitted by Senator Mike Lee

    Question. In light of the past year, which has been a tense one for 
North Korean relations with South Korea and the United States, (North 
Korea torpedoed and sank the South Korean Cheonan, directly attacked 
South Korea and announced new nuclear facilities) do you stand by the 
Obama administration's policy of ``strategic patience''?

    Answer. The Obama administration has made clear from the start that 
there is a path open to North Korea to achieve the security and 
international respect it seeks and that we are open to serious dialogue 
with North Korea on denuclearization. However, this process depends on 
the decisions and actions of North Korea. We are looking for evidence 
that North Korea now not only regards the possibility of negotiations 
seriously but also that such negotiations could be constructive. We 
want negotiations to achieve the core goal of the 2005 joint statement: 
the verifiable denuclearization of the Korean Peninsula in a peaceful 
manner. We are not interested in negotiations for the sake of talking.
    We do not believe it will be fruitful or productive to resume six-
party talks until North Korea demonstrates it is committed to dialogue 
and serious about honoring its denuclearization commitments. We believe 
the DPRK must improve North-South relations and demonstrate a change in 
behavior, including ceasing provocative actions, taking steps toward 
irreversible denuclearization, and complying with its commitments under 
the 2005 Joint Statement of the Six-Party Talks and its obligations 
under U.N. Security Council Resolutions 1718 and 1874.

    Question. What evidence, if any, have you seen indicating that the 
third prong of ``strategic patience'' (a gradual altering of China's 
relationship with North Korea) has come to pass?

    Answer. China is a vital partner in the six-party talks with a key 
role due to its influence with North Korea. Given its unique 
relationship with North Korea, we have called on China to urge the DPRK 
to refrain from provocative actions, to abide by its commitments and 
obligations, and to act responsibly in the interests of peace and 
stability of the Northeast Asian region. In the United States-China 
Joint Statement from President Hu Jintao's January 19-20 state visit, 
both countries ``expressed concern regarding the DPRK's claimed uranium 
enrichment program,'' ``opposed all activities inconsistent with the 
2005 Joint Statement and relevant international obligations and 
commitments,'' and ``called for the necessary steps that would allow 
for the early resumption of the six-party talks process to address this 
and other relevant issues.''

    Question. How closely does the State Department work with the U.S. 
Department of Defense in North Korean relations? I understand that the 
United States has about 30,000 troops stationed in South Korea. What is 
the plan to increase U.S. military presence if/when necessary?

    Answer. The Department of State and Department of Defense work 
together closely to maintain and strengthen our robust military 
alliance with the ROK in our mission of defending the ROK and deterring 
North Korean aggression. Our military is prepared to deal with many 
different scenarios and can bring many capabilities to bear.

    Question. What evidence, if any, have you seen to suggest that Kim 
Jong-un could emerge as a reformer in North Korea, and one who might be 
open to political and social reform?

    Answer. North Korea is one of the world's most closed societies, so 
it is difficult to predict the future of the North Korean regime. We 
are carefully watching the situation in Pyongyang, especially as Kim 
Jong-un, Kim Jong-il's third son and heir apparent, advances within the 
regime's hierarchy.

    Question. The relatively peaceful revolt (and hopefully subsequent 
democratization) in Egypt began with and spread partly because of 
prodemocracy messages sent via the Internet and social media outlets. 
What access do the average North Korean people have to outside media?

    Answer. The DPRK government tightly controls the media and its 
citizens' access to information. The State Department's ``2009 Country 
Reports on Human Rights Practices'' notes that there is no independent 
media in North Korea and Internet access in North Korea is limited to 
high-ranking officials and other designated elites. However, the U.S. 
Government is working to increase the flow of independent information 
into, out of, and within the country. The Broadcasting Board of 
Governors supports a robust North Korea program, implemented by the 
Voice of America and Radio Free Asia. In addition, the Department of 
State supports nongovernmental organizations in their efforts to 
increase access to information in North Korea, including support to 
independent broadcasters based in South Korea.

    Question. How active has Russia been in diplomatic discussions 
regarding North Korea or in military support and training for South 
Korea?

    Answer. We value our continuing cooperation with Russia, a key 
partner in the six-party talks, to achieve our shared goal of 
denuclearization in North Korea. In the wake of the DPRK's provocations 
over the last year, we welcome the constructive role that Russia has 
played to press Pyongyang to refrain from further destabilizing 
actions, to abide by its international commitments and obligations, and 
to take irreversible steps toward denuclearization. Russia has publicly 
stated that it backs U.N. Security Council discussion of the North 
Korean uranium enrichment program.

    Question. In 1994, the United States and North Korea signed the 
Agreed Framework. Under this agreement, North Korea committed to 
freezing its illicit plutonium weapons program in exchange for aid.

  <bullet> What benefits did the United States receive from the Agreed 
        Framework?
  <bullet> What is the current state of North Korea's plutonium weapons 
        program?
  <bullet> In short, what has the United States received from the 
        hundreds of millions of dollars in aid we've given to North 
        Korea?

    Answer. As a result of the Agreed Framework of October 1994, North 
Korea halted construction of two large reactors and froze its existing 
plutonium production facilities at Yongbyon, including its reprocessing 
facilities, putting them under continuous monitoring by the 
International Atomic Energy Agency (IAEA). That continuously monitored 
freeze lasted for over 8 years until late 2002 and helped prevent what 
could have resulted in a much larger plutonium stockpile than North 
Korea is currently assessed to possess. Building on the results of the 
Agreed Framework process in 1999, the United States and North Korea 
also negotiated a moratorium on North Korean ballistic missile 
launches, which stayed in effect until 2006.
    North Korea announced on April 14, 2009, its withdrawal from the 
six-party talks, the expulsion of IAEA monitors and U.S. disablement 
experts, and its intention to reverse disablement actions taken at the 
Yongbyon nuclear complex. Since then, according to official statements 
issued by the DPRK, many of the disablement tasks completed between 
November 2007 and April 2009 have been reversed. For example, in 
November 2009, the DPRK announced that it had completed reprocessing 
8,000 spent nuclear fuel roads at Yongbyon in August 2009. However, 
these claims have not independently been verified.
    For over 8 years under the Agreed Framework, North Korea was 
prevented from making weapons grade plutonium. With the Agreed 
Framework's collapse, North Korea restarted the reactor and separated 
plutonium three times--enough for several weapons, as well as the 
devices it announced it had tested in 2006 and 2009. The prolonged 
disruption to the production of plutonium for North Korea's nuclear 
weapons program was a key tangible benefit of the Agreed Framework. In 
addition, the 1999 to 2006 moratorium on North Korean ballistic missile 
launches was a significant brake on its missile program.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
